Report No. D2007-114         July 19,2007




     Audit of the DoD Garnishment Program
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                                     Arlington,
                                  VA 22202-4704




Acronyms
C.F.R.                Code of Federal Regulations
DFAS                  Defense Finance and Accounting Service
DRAS                  Defense Retiree and Annuitant Pay System
IGARN                 Imaging Garnishment System
IGS                   Integrated Garnishment System
U.S.C.                United States Code
                             INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                              July 19, 2007

MEMORANDUM FOR DIRECTOR, DEFENSE FlNANCE AND ACCOUNTlNG
               SERVICE

SUBJECT: Report on the DoD Garnishment Program (Report No. D-2007-ll4)


      We are providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final repOlt,

        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Director, Defense Finance and Accounting Service Cleveland comments were
pmtially responsive, We request additional comments on Recommendations A,3" B, 1.,
B,2" B.S., B.7" B,9" B.lO" B,12" and B.13, by August 20, 2007, See the Finding
section for the deleted, renumbered, and revised recommendations,

        Ifpossible, please send management comments in electronic format (Adobe
Acrobat file only) to Audclev@dodig,mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature, If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET),

        Questions should be directed to Mr. Kenneth B. VanHove at (216) 706-0074
ext. 245 or Mr. John C, Petrncci at (216) 706-0074 ext. 266, See Appendix D for the
report distribution, The team members are listed inside the back cover.

                               By direction of the Deputy Inspector General for Auditing:



                                      M  Pa 1. Granetto, CPA
                                Assistant . spector General and Director
                                  Defense Financial Auditing Service
               Department of Defense Office of Inspector General
Report No. D-2007-114                                                      July 19, 2007
  (Project No. D2005-D000FC-0264.000)

                           DoD Garnishment Program

                                Executive Summary

Who Should Read This Report and Why? Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer and Defense Finance and Accounting Service
representatives responsible for processing garnishments should read this report.
Additionally, Department of Defense, Department of Energy, and Department of Health
and Human Services employees who have their earnings garnished by the Defense
Finance and Accounting Service should read this report. This report discusses processing
garnishments from current and retired military DoD employees’ earnings.

Background. Active, reserve, and retired military and Federal civilian employees have
pay garnished to pay personal and commercial debts. A garnishment is a legal or
equitable procedure that requires an employer to withhold payment for employees’ debt.
Garnishments are initiated by court orders issued against employers. The Defense
Finance and Accounting Service Garnishment Operations, located in Cleveland, Ohio,
was the designated agency responsible for handling DoD garnishment services.
Additionally, the Defense Finance and Accounting Service Garnishment Operations
processes garnishments for the Department of Energy and the Department of Health and
Human Services employees. In June 2006, the Defense Finance and Accounting Service
started processing garnishments for the U.S. Environmental Protection Agency
employees.

During FY 2005, the Defense Finance and Accounting Service Garnishment Operations
processed 224,851 new or modified garnishment orders, resulting in monthly payments
of $50 million to $60 million. The Defense Finance and Accounting Service
Garnishment Operations employs attorneys and paralegals that process child support,
alimony, and commercial debt garnishments for all current and retired DoD employees,
plus court-ordered divisions of property from military retiree pay. The attorneys and
paralegals also process Chapter 13 bankruptcies for military retirees and active duty
Navy personnel.

Garnishment documentation, such as court orders and correspondence between the
Defense Finance and Accounting Service Garnishment Operations and garnishment-
related parties, is manually scanned or transmitted into the Imaging Garnishment System.
Defense Finance and Accounting Service Garnishment Operations paralegals review
court orders that establish garnishment amounts and percentages and enter garnishment
information into the Integrated Garnishment System. The Integrated Garnishment
System allows the paralegals to perform legal reviews, format legal processes into pay
request transactions, provide legal notification, and perform customer service functions.
The Integrated Garnishment System interfaces with the Defense Civilian Pay System,
Defense Joint Military Pay System-Active Component, the Defense Retiree and
Annuitant Pay System, and Non-Appropriated Fund Central Payroll System. These
systems use the Integrated Garnishment System information to calculate the garnishment
amount. When an employee’s earnings were not sufficient to satisfy the full garnishment
amount, disposable earnings were multiplied by a percentage to obtain the garnishment
amount. The Integrated Garnishment System does not interface with the Marine Corps,
Reserve/Guard, and Combat Related Special Compensation pay systems. These
garnishments are processed by the Defense Finance and Accounting Service Garnishment
Operations, which provides garnishment information to pay analysts.

Results. The Defense Finance and Accounting Service did not ensure that proper
amounts were garnished from current and retired DoD employees to pay debt obligations.
Specifically, during FY 2005, the Defense Finance and Accounting Service systems used
inaccurate information to calculate garnishment amounts for 162 of the 286 current and
retired DoD employees, the Integrated Garnishment System included unsupported
garnishment information for 4 of the 286 current and retired DoD employees. In
addition, the Integrated Garnishment System included inconsistent court order
information for multiple garnishment orders for 8 of the 286 current and retired DoD
employees. Additionally, the Defense Finance and Accounting Service Garnishment
Operations did not always provide written notification to employees or issue written
notification within 15 calendar days. Based on our statistical sample, DFAS improperly
garnished approximately $6.6 million from current and retired DoD employees’ earnings
during FY 2005. Additionally, the Defense Finance and Accounting Service could
garnish incorrect amounts from current and retired DoD employees’ present and future
earnings. The Defense Finance and Accounting Service should establish a formal
managers’ internal control program, establish and revise internal policies and procedures,
modify the Defense Finance and Accounting Service systems, and revise current and
retired DoD employees’ accounts with accurate information. See the Finding section for
the detailed recommendations. See Appendix B for the sample analysis and
interpretation.

Management Comments and Audit Response. The Director, Defense Finance and
Accounting Service Cleveland concurred with six recommendations, nonconcurred with
nine recommendations, and partially concurred with five recommendations. As a result
of management comments, we deleted, renumbered, and revised five draft
recommendations. The Director, Defense Finance and Accounting Service Cleveland
management comments were responsive to eight recommendations, nonresponsive to six
recommendations, and partially responsive to three recommendations. We request that
the Director, Defense Finance and Accounting Service Cleveland provide comments on
the final report by August 20, 2007. See the Finding section of the report and Appendix
C for a discussion of management comments and the Management Comments section of
the report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                  i

Background                                                         1

Objectives                                                         2

Finding
     Accuracy of Garnishments                                      4
     Other Matters of Interest                                    18

Appendixes
     A.   Scope and Methodology                                   20
     B.   Statistical Sample                                      22
     C.   Management Comments on the Finding and Audit Response   23
     D.   Report Distribution                                     32

Management Comments
     Defense Finance and Accounting Service Cleveland             35
Background
           Active, reserve, and retired military and Federal civilian employees are garnished
           to pay personal and commercial debts. A garnishment is a legal or equitable
           procedure that requires an employer to withhold payment for employees’ debt.
           Garnishments are initiated by court orders issued against employers.

           Defense Finance and Accounting Service Garnishment Operations. In
           October 1995, the Defense Finance and Accounting Service (DFAS) completed
           the consolidation of five DFAS Pay Centers and over 300 individual payroll
           offices into a single garnishment operations office. DFAS Garnishment
           Operations, located in Cleveland, Ohio, was the designated agency responsible
           for handling DoD garnishment services. DFAS Garnishment Operations employs
           attorneys and paralegals that process child support, alimony, and commercial debt
           garnishments for all current and retired DoD employees, plus court-ordered
           divisions of property from military retired pay. They also process Chapter 13
           bankruptcies of military retirees and active duty Navy personnel. Additionally,
           DFAS Garnishment Operations processes garnishments for the Department of
           Energy and the Department of Health and Human Services employees. In June
           2006, DFAS started processing garnishments for the U.S. Environmental
           Protection Agency employees. During FY 2005, DFAS Garnishment Operations
           processed 224,851 new or modified garnishment orders, resulting in monthly
           payments of $50 million to $60 million.

           Garnishment Processing. In 2001, DFAS Garnishment Operations converted
           from a paper file system to the Electronic Document Management System. The
           Electronic Document Management System maintained garnishment support and
           correspondence between DFAS Garnishment Operations and garnishment-related
           parties. 1 In August 2005, the Electronic Document Management System was
           rewritten to a web application, Imaging Garnishment System (IGARN).
           Garnishment documentation 2 received by mail is manually scanned into IGARN,
           while electronic garnishment documentation is transmitted directly into the
           system. Paralegals review court orders in IGARN and enter garnishment
           information into the Integrated Garnishment System (IGS). IGS allows the
           paralegal to perform legal reviews, format legal processes into pay request
           transactions, provide legal notification, and perform customer service functions.
           IGS interfaces with the Defense Civilian Pay System, Defense Joint Military Pay
           System-Active Component, 3 Defense Retiree and Annuitant Pay System (DRAS),
           and Non-Appropriated Fund Central Payroll System. These systems use IGS
           information to calculate the garnishment amount. Once the pay processing period


1
    Garnishment-related parties include: current and retired DoD employees, attorneys, former spouses,
    support agencies, and DFAS Pay Centers.
2
    Garnishment documentation includes court orders and correspondence between DFAS Garnishment
    Operations and garnishment-related parties. Garnishment correspondence includes telephone inquiries,
    e-mails, letters, pay system correspondence, and interrogatory requests.
3
    The Defense Joint Military Pay System-Active Component interfaces with IGS through the Automated
    Garnishment System. The Automated Garnishment System calculates disposable earnings and the
    maximum garnishment amount.



                                                      1
           has ended, the pay systems populate IGS with the calculated disposable earnings 4
           and actual garnishment amounts. IGS does not interface with the Marine Corps,
           Reserve/Guard, 5 and Combat Related Special Compensation pay systems. These
           garnishments are processed by DFAS Garnishment Operations providing
           garnishment information to pay analysts.

           Garnishment Calculation. Court orders established garnishment amounts and
           percentages. The court ordered percentage is the maximum garnishment
           limitation that can be garnished under State or local law. When an employee’s
           earnings were not sufficient to satisfy the full garnishment amount, disposable
           earnings were multiplied by a percentage 6 to obtain the garnishment amount.


Objectives
           Our overall audit objective was to determine whether DFAS accurately garnished
           the earnings of current and retired DoD employees to pay debt obligations. We
           also reviewed the management control program as it related to the overall
           objective. See Appendix A for a discussion of the scope and methodology.


Review of Internal Controls
           DoD Directive 5010.38, “Management Control Program,” August 26, 1996, and
           DoD Instruction 5010.40, “Management Control Program Procedures,”
           August 28, 1996 requires DoD organizations to implement a comprehensive
           system of management controls that provides reasonable assurance that programs
           are operating as intended and to evaluate the adequacy of the controls. 7

           Scope of the Review of the Managers’ Internal Control Program. We
           reviewed the adequacy of DFAS managers’ internal controls over processing
           garnishments. Specifically, we reviewed DFAS Garnishment Operations user
           access logs for changes in IGS, prepayment sampling transactions, phone
           conversation logs with employees, and transactions reviewed by team
           supervisors. We also reviewed the adequacy of management’s self-evaluation of
           those controls.

           Adequacy of Management Controls. We identified material management
           control weaknesses for the garnishment process as defined by DoD Instruction
4
    Disposable earnings are the part of an individual’s total earnings remaining after deductions required by
    law are withheld. Some of these deductions include Federal, state and local taxes, and social security.
5
    The Reserve/Guard uses the Pay Garnishment Bankruptcy Taxes System to calculate disposable earnings
    and the garnishment amount.
6
    The percentage is the lesser of the Federal or court ordered maximum garnishment limitation.
7
    Our review of internal controls was done under the auspices of DoD Directive 5010.38, “Management
    Control Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control Program
    Procedures,” August 28, 1996. DoD Directive 5010.38 was canceled on April 3, 2006. DoD Instruction
    5010.40, “Managers’ Internal Control Program Procedures,” was reissued on January 4, 2006.



                                                        2
5010.40. Specifically, a formalized managers’ internal control program was not
established by DFAS Garnishment Operations for FY 2005 to ensure: accurate
information was used to calculate garnishment amounts; court orders were
properly maintained; and garnishment orders were processed consistently. The
recommendations, if implemented, will correct the procedures for processing
garnishments. See the finding for further details on the internal control
weaknesses. A copy of the report will be provided to the senior official
responsible for management controls in DFAS.

Adequacy of Management’s Self-Evaluation. DFAS officials identified
garnishment process interface as an assessable unit and in our opinion, correctly
identified some risk areas associated with the garnishment process. The DFAS
Internal Review office conducted an assessment of garnishment processing and
reported material management control weaknesses with implementing the
Certifying Officers’ Legislation. Specifically, pre- and post-payment reviews
were not compliant with the stated requirements. Data input into IGS were not
reviewed prior to interfacing with pay systems, resulting in undetected errors and
irregularities. DFAS Garnishment Operations implemented a pre-payment
sampling plan for new cases and existing cases requiring adjustment to minimize
errors and the processing of fraudulent documents in IGS. We agree with DFAS
Internal Review that DFAS Garnishment Operations should conduct additional
reviews on data input into IGS; however, the pre-payment reviews will not ensure
the accuracy of previously existing cases not requiring adjustment.




                                    3
                     Accuracy of Garnishments
                     DFAS did not ensure proper amounts were garnished from current and
                     retired DoD employees to pay debt obligations. Specifically, during
                     FY 2005:

                         •    DFAS systems used inaccurate information to calculate
                              garnishment amounts for 162 of the 286 current and retired DoD
                              employees,

                         •    IGS included unsupported garnishment information for
                              4 of the 286 current and retired DoD employees, and

                         •    IGS included inconsistent court order information for multiple
                              garnishment orders for 8 of the 286 current and retired DoD
                              employees.

                     DFAS Garnishment Operations did not establish a formal managers’
                     internal control program for FY 2005 to ensure the accuracy of
                     garnishments. Based on our statistical sample, DFAS improperly
                     garnished approximately $6.6 million from current and retired DoD
                     employees’ earnings during FY 2005. Additionally, DFAS could garnish
                     incorrect amounts from current and retired DoD employees’ present and
                     future earnings. See Appendix B for the sample analysis and
                     interpretation.


Criteria for Garnishment Restrictions
            United States Code. As stated in section 1673(b)(2), title 15, United States Code
            (15 U.S.C. 1673(b)(2)), the maximum garnishment limitation for the support of a
            person shall not exceed 60 percent, unless the employee is supporting another
            spouse and/or dependent child, then it shall not exceed 50 percent. However, the
            garnishment limitation of 50 and 60 percent can increase to 55 and 65 percent,
            respectively, when arrearages 8 are 12 or more weeks. 9

            As stated in the Uniformed Services Former Spouses’ Protection Act (Former
            Spouse Act), section 1408(e), title 10, United States Code (10 U.S.C. 1408(e)),
            the maximum garnishment limitation for the Former Spouse Act court orders 10
            shall not exceed 50 percent. If the employee had a combination of support
            order(s) 11 and Former Spouse Act court order(s), the maximum garnishment
8
    Arrearages are past due support payments.
9
    Percentages apply to those garnishments that are ordered by a court.
10
      Former Spouse Act court orders included child support, alimony, and/or the division of property
     (including community property). A division of property is the payment of military retired pay to a former
     spouse.
11
      Support orders are income withholding orders sent to an individual’s employer for child or spousal
     support.



                                                        4
    limitation may not exceed 65 percent. Additionally, those orders should be
    satisfied on a first-come, first-served basis.

    Code of Federal Regulations. As stated in 5 Code of Federal Regulations
    (C.F.R.) Section 581 (2006), the designated agent shall send a written notice to
    the employee no later than 15 calendar days after being served with a court order.
    In addition, the Consumer Credit Protection Act maximum garnishment
    limitations are applied unless the State or local law provides a lesser maximum
    garnishment limitation. The maximum garnishment limitation applies to the total
    combined disposable earnings received by the employee. Furthermore, the
    recipient may receive an additional 5 percent when arrearages of 12 or more
    weeks appear on the court order. If the court order does not include arrearages of
    12 or more weeks, the recipient can submit to DFAS a certified copy of the order
    or other acceptable evidence establishing this fact.


Accuracy of Garnishment Information
    DFAS did not ensure that proper amounts were garnished from current and retired
    DoD employees to pay debt obligations. During FY 2005, DFAS systems used
    inaccurate information to calculate garnishment amounts for 162 of the 286
    current and retired DoD employees. Specifically, DFAS systems included
    inaccurate garnishment amounts and limitations and disposable earnings
    calculations. Additionally, IGS limitations existed for manual and multiple
    system garnishment payments. Furthermore, IGS included improper order of
    precedence for some orders.

    Accuracy of Garnishment Amounts and Limitations. DFAS systems used
    inaccurate amounts and limitations to calculate garnishments. Specifically, IGS
    contained garnishment amounts that did not match the court-ordered amounts.
    IGS also contained maximum garnishment limitations that did not follow
    5 C.F.R. Section 581.402 (2006). The maximum garnishment limitations for
    disposable earnings subject to garnishment to enforce any support order(s) are
    specified in 5 C.F.R. Section 581.402 (2006). These maximum garnishment
    limitations apply unless a lower maximum garnishment limitation is provided by
    applicable state or local law. However, IGS did not always account for these
    lower maximum garnishment limitations.

    Accuracy of Disposable Earnings Calculations. DFAS systems used inaccurate
    disposable earnings to calculate garnishment amounts. Specifically, the retired
    military employees’ disposable earnings were inaccurately calculated after
    receiving cost of living adjustments and did not include proper tax and survivor
    benefit premium deductions. Military employees’ disposable earnings
    computations did not include some miscellaneous debt deductions. Additionally,
    military reservists’ disposable earnings computations did not include Thrift
    Savings Plan contributions as a deduction. IGS also included disposable earnings
    amounts that could not be computed using DFAS methodologies.

    IGS Limitations for Manual and Multiple System Payments. IGS limitations
    exist for manual and multiple system garnishment payments. Specifically, IGS


                                         5
            did not contain the Defense Civilian Pay System, the Defense Joint Military Pay
            System-Active Component, and DRAS manual payment information. For
            example, DFAS Retired and Annuitant Pay 12 deducted a garnishment from a
            manual payment; however, IGS did not include the manual payment information.
            Additionally, IGS did not include all Marine Corps, Reserve/Guard, and Combat
            Related Special Compensation payment information.

            IGS also included garnishment amounts for the same court order from multiple
            pay systems. For example, an employee had a garnishment taken from the
            Defense Joint Military Pay System-Active Component. During the same period,
            the employee was also garnished from the Defense Civilian Pay System, resulting
            in duplicate garnishment payments.

            IGS Garnishment Order of Precedence. IGS included improper order of
            precedence for some support orders and Former Spouse Act court order(s). The
            garnishment service date established the order of precedence for processing.
            However, DFAS Garnishment Operations entered service dates into IGS that were
            not consistent with the order in which the court orders were received.


Supporting Documentation for Garnishments
            IGS included unsupported garnishment information for 4 of the 286 current and
            retired DoD employees. Specifically, IGARN did not include applicable court
            orders justifying existing garnishments within IGS. For example, IGS identified a
            child support garnishment amount of $404.25. However, IGARN did not contain
            a court order supporting the garnishment amount.


Consistency of IGS Information
            IGS included inconsistent court order information for multiple garnishment orders
            for 8 of the 286 current and retired DoD employees. 13 Specifically, IGS included
            combined amounts associated with multiple garnishment types into one
            garnishment. For example, IGS included child support and alimony as a single
            garnishment; however, in another example, the garnishments were separated. By
            inconsistently establishing garnishments within IGS, DFAS Garnishment
            Operations increased the likelihood of future errors.




12
      DFAS Retired and Annuitant Pay provides contractor oversight responsibility of Lockheed Martin.
     Lockheed Martin processes monthly payroll and pay-related services for military retirees and their
     annuitants. Additionally, Lockheed Martin processes special compensation pay for combat-related
     disabled military retirees.
13
      Multiple garnishment orders occur when several garnishment types are included within a single court
     order.



                                                       6
Adequacy of Garnishment Processing Reviews
            DFAS Garnishment Operations did not establish a formal managers’ internal
            control program for FY 2005 to ensure the accuracy of garnishments. However,
            DFAS Garnishment Operations conducted periodic garnishment processing
            reviews. Specifically, supervisors periodically reviewed one percent of new or
            modified garnishment transactions entered into IGS. Additionally, supervisors
            reviewed 100 percent of phone logs documenting telephone conversations
            between paralegals and garnishment-related parties. Supervisors also reviewed
            the user access log, which tracks changes made by the system administrator.
            During FY 2005, DFAS Garnishment Operations’ supervisors reviewed
            approximately 2,000 new or modified garnishment transactions and 11,781 phone
            logs. A DFAS Garnishment Operations’ representative stated that they rely
            primarily on notification from garnishment-related parties to identify garnishment
            problems.

            In July 2005, DFAS Garnishment Operations implemented a monthly
            pre-payment sampling plan. Specifically, the pre-payment assessment reviewed
            four percent of new and existing cases requiring adjustment. Pre-payment
            reviews should reduce the potential for improper garnishments; however, the
            reviews will not ensure the accuracy for existing cases not requiring adjustment.
            Although DFAS Garnishment Operations conducted reviews, the reviews did not
            identify improperly processed garnishment information, improperly maintained
            court orders during transitions, and inconsistently processed court orders. DFAS
            Garnishment Operations should establish a formal managers’ internal control
            program that includes a review of cases not requiring adjustment to reduce the
            number of improper garnishments.

            Processing Court Ordered Garnishment Amounts and Limitations. DFAS
            Garnishment Operations inaccurately processed garnishment amounts and
            limitations. Specifically, DFAS Garnishment Operations did not update IGS
            garnishment amounts after the reprogramming of pay systems, improperly
            processed termination orders and multiple family support orders, 14 and incorrectly
            entered court ordered garnishment amounts into IGS. DFAS Garnishment
            Operations also improperly applied and established internal policies that were
            inconsistent with 5 C.F.R. Section 581 (2006) when applying garnishment
            limitations.

                    Updating IGS Garnishment Amounts. DFAS Garnishment Operations
            did not update IGS with current garnishment amounts after pay systems
            reprogramming. A DFAS Garnishment Operations representative stated that prior
            to January 2001, DFAS pay systems could not compute the garnishment amount
            using the garnishment limitation percentage within IGS. Therefore, DFAS
            Garnishment Operations calculated and entered the garnishment amount in IGS.
            As a result, DFAS garnished current and retired DoD employees’ earnings for the
            same amount each month despite pay increases. In January 2001, DFAS updated
            the pay systems to calculate the garnishment amount based on garnishment

14
      Multiple family support orders occur when several court orders for support of different families are
     issued against the earnings of the same employee.



                                                         7
limitations. DFAS Garnishment Operations decided that it would be too time
consuming to review and update the court ordered amounts in IGS even though
converted garnishment cases are easily identified as “CON” within IGS. DFAS
Garnishment Operations stated that the receipt of amended court orders would
update the garnishment amounts in IGS. DFAS Garnishment Operations should
review and update these cases to ensure that current and retired military DoD
employees are accurately garnished.

        Processing Termination Orders. DFAS Garnishment Operations
improperly processed termination orders. DFAS Garnishment Operations did not
process termination orders when the employee’s pay status was inactive in IGS.
DFAS Garnishment Operations, “Integrated Garnishment System Manual,” states
that IGS does not allow a paralegal to process a termination order if the
transaction status of the garnishment is inactive. The paralegal is required to
notify the appropriate system support specialist to terminate the garnishment.
However, DFAS Garnishment Operations did not process these termination
orders, and the garnishments continued.

Additionally, DFAS Garnishment Operations did not process termination orders
within 30 days. DFAS Garnishment Operations, “Paralegal/Customer Service
Reference and Training Manual,” December 1998, stated that termination orders
should be processed within 30 days. In one example, DFAS Garnishment
Operations terminated a garnishment 4 months after receipt of the termination
order. DFAS Garnishment Operations should provide training to ensure
appropriate and timely termination of court orders.

        Processing Multiple Family Support Orders. DFAS Garnishment
Operations improperly processed multiple family support orders. DFAS
Garnishment Operations developed a worksheet to calculate allocation
percentages proportionate to the total garnishment amount of all support orders.
Although DFAS Garnishment Operations updated the garnishment amount within
IGS, they did not update allocation percentages upon receipt of amended support
orders. Therefore, garnishment amounts are no longer proportionately distributed
between multiple families. DFAS Garnishment Operations should update
allocation percentages within IGS so overall garnishment amounts are
appropriately distributed between multiple families.

       Entering Garnishment Amounts. DFAS Garnishment Operations
incorrectly entered court-ordered garnishment amounts into IGS. A DFAS
Garnishment Operations’ representative stated that court orders were entered in
error. They were unable to identify data entry errors because only one percent of
all new or modified garnishment cases were reviewed. DFAS Garnishment
Operations should review a greater percentage of garnishment cases, to include
unmodified cases, to reduce the number of improper garnishments.

        Applying Maximum Garnishment Limitations. DFAS Garnishment
Operations improperly applied 5 C.F.R Section 581.402 (2006) when processing
court orders. As stated in 5 C.F.R. Section 581.402 (2006), the garnishment
amount is calculated using the lesser of the Federal, state, or local maximum
garnishment limitations. However, paralegals entered the incorrect garnishment
limitations in IGS because they inconsistently applied the lesser garnishment


                                    8
limitation. For example, they applied the Federal maximum garnishment
limitation of 65 percent to calculate the garnishment amount, although the
maximum garnishment limitation from the court order was 50 percent. DFAS
Garnishment Operations should apply the lesser of the Federal or court-ordered
maximum garnishment limitation to reduce the number of inaccurate
garnishments.

DFAS Garnishment Operations established internal policies that were inconsistent
with Federal regulations. DFAS Garnishment Operations’ Policy Letter 2-9,
“Support Orders and Consumer Credit Protection Act Limits,” July 2002, directed
paralegals to process support orders with the additional 5 percent, even if the
“arrears are over 12 weeks” box was not marked. Federal regulations require that
court orders establish that arrearages are 12 or more weeks or that the head of the
government entity establish other acceptable evidence to garnish an additional
5 percent. However, DFAS Garnishment Operations did not define other
acceptable evidence required for establishing arrearages of 12 or more weeks.

Additionally, Policy Letter 2-9 directed paralegals to process orders identifying
only current support at a maximum of either 55 or 65 percent when those
percentages are stated on an order. A DFAS Garnishment Operations
representative stated that the paralegals assumed the current garnishment amount
included arrearages because the court order included the additional 5 percent.
However, 5 C.F.R. Section 581.402 (2006) requires that court orders be processed
at a maximum of either 50 or 60 percent when they include only current support.
DFAS Garnishment Operations should implement revised internal policy to
reduce the number of improper garnishments. Additionally, DFAS Garnishment
Operations should define other acceptable evidence for establishing arrearages of
12 or more weeks to support the 5 percent increase in the maximum garnishment
limitation.

Calculating Disposable Earnings. DFAS pay systems inaccurately calculated
disposable earnings. Specifically, DRAS, the Automated Garnishment System,
and the Pay Garnishment Bankruptcy Taxes System improperly computed some
current and retired military employees’ disposable earnings. During
January 2005, DRAS inconsistently applied the annual cost of living adjustment
when calculating disposable earnings. A DFAS Garnishment Operations
representative acknowledged this issue and previously requested that DFAS
Retired and Annuitant Pay correct DRAS; however, this issue remains
unresolved.

Additionally, DRAS inconsistently applied the lesser of the tax withholding or
authorization amount when calculating retired military employees’ disposable
earnings. DoD Financial Management Regulation 7000.14-R, volume 7B,
chapter 29, “Former Spouse Payment from Retired Pay,” July 2005 states that
retired employees’ disposable earnings should be calculated using the lesser of
the tax withholding or authorization amount. DFAS Garnishment Operations
reviewed retired employees’ Federal and state tax withholding amounts and
entered the tax authorization amount required to satisfy the retired employees’ tax
obligation. The reviews ensured that employees did not increase their tax
withholding amount with the intent of decreasing disposable earnings and the
garnishment amount. However, DRAS did not always use the lesser of these two


                                     9
amounts and, in some cases, did not use either amount when calculating
disposable earnings. DRAS also improperly calculated some disposable earnings
without a survivor benefit premium deduction because the beneficiaries’ social
security numbers were improperly entered. DFAS should consistently apply the
annual cost of living adjustments, the lesser of the tax withholding or
authorization amount, and enter the proper beneficiary social security numbers to
reduce the number of improper garnishments.

The Automated Garnishment System and the Pay Garnishment Bankruptcy Taxes
System improperly computed some current military employees’ disposable
earnings. An Automated Garnishment System functional analyst stated that some
miscellaneous debts should be included as deductions within military employees’
disposable earnings calculations. Additionally, 5 C.F.R. Section 581.105 (2006)
stated that Thrift Savings Plan contributions should be included as a deduction
within military reservists’ disposable earnings calculations. However, the
systems did not include these items as deductions when calculating disposable
earnings. DFAS Military Pay also could not identify some disposable earnings
methodologies used to calculate amounts within IGS. DFAS should properly
include some miscellaneous debts and Thrift Savings Plan contributions as
deductions within disposable earnings calculations and consistently apply
disposable earnings methodologies to reduce the number of improper
garnishments.

IGS Capabilities for Manual and Multiple System Payments. IGS does not
interface with all DFAS pay systems. Specifically, DFAS did not establish an
electronic interface for manual payments or between IGS and Marine Corps,
Reserve/Guard, and Combat Related Special Compensation pay systems. DFAS
management determined that system interfaces were not cost-effective to
implement. Additionally, IGS is not capable of consolidating garnishment
amounts received from multiple pay systems. Although IGS interfaces with some
pay systems, it separates each garnishment by pay system. DFAS Garnishment
Operations could not identify when employees had duplicate garnishments
deducted from their earnings. Additionally, DFAS Garnishment Operations did
not reconcile IGS information to compensate for system limitations. DFAS
Garnishment Operations should establish and implement reconciliation
procedures to identify potential garnishments that exceed court order limitations.

Modification of Garnishment Order of Precedence. DFAS Garnishment
Operations improperly modified the garnishment precedence order for several
retired DoD employees. At the former spouse’s request, DFAS Garnishment
Operations gave priority to community property orders by terminating and
reestablishing the garnishment with a new service date. According to a DFAS
Garnishment Operations representative, former spouses have the right to
terminate and restart the enforcement without obtaining new support orders.
Additionally, the representative stated that Former Spouse Act court orders
cannot collect arrearages; however, support orders allow the former spouse to
collect arrearages. By modifying the order of precedence, the former spouse may
receive the accumulated arrearages payments. However, the change in
garnishment precedence order without obtaining new support orders is not in
accordance with 10 U.S.C. 1408(e)(4)(A). According to
10 U.S.C. 1408(e)(4)(A), court orders should be satisfied on a first-come, first-


                                    10
    served basis when retired military employees had combinations of support
    order(s) and Former Spouse Act court order(s). DFAS Garnishment Operations
    should provide training to ensure court orders are processed on a first-come, first-
    served basis.

    Maintaining Garnishment Documentation. DFAS Garnishment Operations did
    not properly maintain court orders during system transitions. A DFAS
    Garnishment Operations representative stated that some court orders were not
    provided during the consolidation of the garnishment function into DFAS
    Garnishment Operations. The representative also stated that the contractor may
    not have scanned all court orders into IGARN when converting from a paper
    system to an electronic imaging system. DFAS Garnishment Operations should
    maintain garnishment documentation to support garnishments.

    Processing Court Orders Consistently. DFAS Garnishment Operations did not
    establish standard policies or procedures for processing multiple garnishments.
    Specifically, the DFAS Garnishment Operations, “Paralegal/Customer Service
    Reference and Training Manual,” December 1998, was silent on the processing of
    multiple garnishments. Due to the lack of internal policy, paralegals
    inconsistently processed multiple garnishment orders. DFAS Garnishment
    Operations should establish policies and procedures for multiple garnishment
    orders to consistently process multiple garnishment orders.


Garnishment Deductions
    Based on our statistical sample, DFAS improperly garnished approximately $6.6
    million from current and retired DoD employees’ earnings during FY 2005. In
    addition, DFAS could garnish incorrect amounts from current and retired DoD
    employees’ earnings during FY 2005 because DFAS Garnishment Operations did
    not properly maintain supporting documentation. The potential also exists for
    DFAS to garnish incorrect amounts from future earnings of current and retired
    DoD employees because DFAS Garnishment Operations inconsistently processed
    court orders. See Appendix B for the sample analysis and interpretation.


Management Comments on the Finding and Audit Response
    Summaries of management comments on the finding and our audit response are in
    Appendix C.




                                         11
Recommendations, Management Comments, and Audit
Response
    Deleted, Renumbered, and Revised Recommendations. As a result of
    management comments, we renumbered draft Recommendation A.2.a. to
    Recommendation A.2. and deleted draft Recommendations A.2.b. and A.2.c. We
    revised draft Recommendation A.3. by removing Family Servicemembers’ Group
    Life Insurance as a required deduction for calculating disposable earnings. We
    deleted draft Recommendation B.6.a., B.6.b., and B.6.c. and renumbered
    Recommendation B.7. to Recommendation B.6. We also revised
    Recommendation B.6. to ensure consistent processing of support orders, establish
    arrearages of 12 or more weeks in order to increase the maximum garnishment
    limitation, and define “other evidence acceptable” submitted for establishing
    arrearages of 12 or more weeks. Additionally, we revised Recommendation B.12.
    for the Assistant General Counsel for Garnishment Operations, Defense Finance
    and Accounting Service to follow established court order retention policies and
    procedures.

    A. We recommend that the Director, Defense Finance and Accounting
    Service:

           1. Establish a formal managers’ internal control program for the
    garnishment process in accordance with applicable management control
    regulations.

    Management Comments. The Director, Defense Finance and Accounting
    Service Cleveland nonconcurred and stated that the Defense Finance and
    Accounting Service Garnishment Operations currently has a comprehensive
    management control program in place. It includes monthly reviews of assessable
    units, an annual Statement of Assurance, Federal Managers’ Financial Integrity
    Act quarterly reports, and a comprehensive series of pre- and post-payment
    reviews.

    Audit Response. Although the Director, Defense Finance and Accounting
    Service Cleveland nonconcurred with Recommendation A.1., the comments are
    responsive. A formal managers’ internal control program was not established for
    FY 2005; however, a formal managers’ internal control program was in effect
    during FY 2006. Action taken by the Assistant General Counsel of Garnishment
    Operations, Defense Finance and Accounting Service to establish a formal
    managers’ internal control program satisfies the recommendation. No further
    comments are required.

          2. Modify the Defense Retiree and Annuitant Pay System to ensure
    proper application of annual cost of living adjustments and lesser of the tax
    withholding or authorization amount when calculating disposable earnings.

    Management Comments. The Director, Defense Finance and Accounting
    Service Cleveland concurred and stated that corrective actions will be completed
    by August 1, 2007.



                                       12
       3. Modify the Automated Garnishment System disposable earnings
calculation to include some miscellaneous debts as deductions.

Management Comments. The Director, Defense Finance and Accounting
Service Cleveland nonconcurred and stated that not all miscellaneous debts are
authorized deductions. Authorized miscellaneous deductions are coded as “DS”
debts within the Defense Joint Military Pay System. The Director, Defense
Finance and Accounting Service Cleveland stated that the Defense Joint Military
Pay System is programmed correctly to use specified miscellaneous debts as
deductions when computing disposable pay.

Audit Response. The Director, Defense Finance and Accounting Service
Cleveland comments are nonresponsive. We identified examples when
miscellaneous debts coded as “DS” were not included as deductions when
calculating disposable earnings. We request that the Director, Defense Finance
and Accounting Service Cleveland reconsider her position and provide additional
comments on the final report.

      4. Modify the Pay Garnishment Bankruptcy Taxes System disposable
earnings calculation to include Thrift Savings Plan contributions as a
deduction.

Management Comments. The Director, Defense Finance and Accounting
Service Cleveland concurred and stated that corrective actions will be completed
by April 1, 2008.

B. We recommend that the Assistant General Counsel for Garnishment
Operations, Defense Finance and Accounting Service:

        1. Revise all 162 current and retired DoD employees’ accounts with
accurate information to calculate garnishment amounts. Additionally, notify
the current and retired DoD employees when an incorrect amount was
garnished by annotating their leave and earnings statement or by sending a
letter.

Management Comments. The Director, Defense Finance and Accounting
Service Cleveland nonconcurred and stated that the Assistant General Counsel of
Garnishment Operations, Defense Finance and Accounting Service does not agree
that 206 employees’ accounts contain inaccurate information for calculating
garnishment amounts.

Audit Response. The Director, Defense Finance and Accounting Service
Cleveland comments are nonresponsive. Although we modified our analysis and
the report based on management comments, 162 of the 206 accounts previously
identified still have inaccurate information that DFAS needs to correct. We
identified a number of issues that resulted in inaccurate information. Military pay
systems’ disposable earnings computations did not include some miscellaneous
debts and Thrift Savings Plan contributions as deductions. Additionally, DRAS
did not include proper tax and deductions for survivor benefit premiums. DRAS
also inaccurately calculated retired military employees’ disposable earnings after
members received cost of living adjustments. We also identified a number of


                                    13
other issues that resulted in improper garnishments from current and retired DoD
employees’ pay. DFAS Garnishment Operations paralegals did not update IGS
garnishment amounts after pay systems reprogramming, did not properly process
terminations orders and multiple family support orders, and incorrectly entered
court-ordered garnishment amounts and limitations into IGS. We request that the
Director, Defense Finance and Accounting Service Cleveland reconsider her
position and provide additional comments on the final report.

       2. Increase the monthly review of new garnishment cases and existing
cases requiring adjustment and establish a review process for garnishment
cases not requiring adjustments.

Management Comments. The Director, Defense Finance and Accounting
Service Cleveland concurred and stated that the Assistant General Counsel of
Garnishment Operations, Defense Finance and Accounting Service will work
with the Defense Finance and Accounting Service Internal Review to modify the
current random sampling process to include a review of cases that have not
required adjustment. Corrective actions will be completed by August 1, 2007.

Audit Response. Although the Director, Defense Finance and Accounting
Service Cleveland concurred with our recommendation, her comments were
partially responsive. The Director, Defense Finance and Accounting Service
Cleveland comments did not address increasing the monthly review of new
garnishment cases and existing cases that require adjustment. Therefore, we ask
that the Director, Defense Finance and Accounting Service Cleveland provide
additional comments on the final report.

      3. Review all cases identified as “CON” within the Integrated
Garnishment System and update applicable garnishment information.

Management Comments. The Director, Defense Finance and Accounting
Service Cleveland concurred and stated that there are 38,000 converted accounts
that have not had a subsequent action posted on them since the conversion date.
The Assistant General Counsel of Garnishment Operations, Defense Finance and
Accounting Service will develop a plan to ensure that all conversion cases are
reviewed. Corrective actions will be completed by April 1, 2008.

       4. Provide training to ensure appropriate and timely termination of
garnishments.

Management Comments. The Director, Defense Finance and Accounting
Service Cleveland concurred and stated that the Assistant General Counsel of
Garnishment Operations, Defense Finance and Accounting Service will increase
the frequency of paralegal remedial training and re-emphasize the importance of
processing all transactions within the required time limitations. Corrective
actions will be completed by August 1, 2007.

      5. Review all multiple family support orders to update allocation
percentages within the Integrated Garnishment System.




                                   14
Management Comments. The Director, Defense Finance and Accounting
Service Cleveland partially concurred and stated that several instances were
identified in which the paralegal failed to follow the established allocation
procedures. The Director, Defense Finance and Accounting Service Cleveland
stated that additional training should correct the issue. Additionally, the Assistant
General Counsel of Garnishment Operations, Defense Finance and Accounting
Service agreed to increase the percentage of multiple family support order cases
reviewed by supervisors. Remedial training will be completed by August 1, 2007.

Audit Response. The Director, Defense Finance and Accounting Service
Cleveland comments are partially responsive. We recognize that the Assistant
General Counsel of Garnishment Operations, Defense Finance and Accounting
Service plans to increase reviews of multiple family support order cases;
however, increasing reviews will not ensure that existing multiple family support
orders are properly allocated within the Integrated Garnishment System.
Therefore, we request that the Assistant General Counsel of Garnishment
Operations, Defense Finance and Accounting Service review existing multiple
family support orders within the Integrated Garnishment System and update
allocation percentages as needed. We ask that the Director, Defense Finance and
Accounting Service Cleveland provide additional comments on the final report.

       6. Revise and implement the Defense Finance and Accounting Service
Garnishment Operations Policy Letter 2-9, “Support Orders and Consumer
Credit Protection Act Limits,” July 2002 to:

                a. Ensure consistent processing of support orders by applying
the lesser of the Federal or court ordered maximum garnishment limitation.

              b. Establish that arrearages must be 12 or more weeks in
order to increase the maximum garnishment limitation by an additional
5 percent.

              c. Define “other evidence acceptable” submitted for
establishing arrearages of 12 or more weeks.

Management Comments. The Director, Defense Finance and Accounting
Service Cleveland partially concurred. She stated that the Assistant General
Counsel of Garnishment Operations, Defense Finance and Accounting Service
will contact the Federal Office of Child Support Enforcement regarding the policy
that instructs paralegals to increase the maximum limitation for cases specifying
55 percent or 65 percent but indicating only current support on the court order.
According to the Director, Defense Finance and Accounting Service Cleveland,
this policy was instituted when a number of states began combining all ordered
amounts into one total without breaking out current and arrearage amounts. The
Assistant General Counsel of Garnishment Operations, Defense Finance and
Accounting Service will clarify the paragraph within Policy Letter 2-9 regarding
12 weeks of arrears and will define “other evidence acceptable” to ensure
consistent processing of court orders. Corrective actions will be completed by
August 1, 2007.




                                     15
Audit Response. Although the Director, Defense Finance and Accounting
Service Cleveland only partially concurred with our recommendations, the
comments are responsive. The Director, Defense Finance and Accounting
Service Cleveland agreed to revise Policy Letter 2-9 to further clarify the
processing of court orders. No further comments are required.

       7. Coordinate with the Defense Finance and Accounting Service Pay
Operations to ensure that disposable earnings comply with Federal
regulations.

Management Comments. The Director, Defense Finance and Accounting
Service Cleveland partially concurred and stated that the pay systems, with the
exception of the Defense Joint Military Pay System-Reserve Component, are
programmed in accordance with laws and regulations. Corrective action
regarding the Defense Joint Military Pay System-Reserve Component will be
completed by April 1, 2008.

Audit Response. The Director, Defense Finance and Accounting Service
Cleveland comments are nonresponsive. We agree with the Director, Defense
Finance and Accounting Service Cleveland that disposable earnings issues exist
within the Defense Joint Military Pay System-Reserve Component. However,
additional disposable earnings issues remain within the Defense Joint Military
Pay System-Active Component and DRAS. Specifically, the Defense Joint
Military Pay System-Active Component disposable earnings computations did not
include some miscellaneous debt deductions. Additionally, DRAS inaccurately
calculated retired military employees’ disposable earnings after members received
cost of living adjustments and did not include proper tax and deductions for
survivor benefit premiums. We request that the Director, Defense Finance and
Accounting Service Cleveland reconsider her position and provide additional
comments on the final report.

       8. Coordinate with the Defense Finance and Accounting Service
Retired and Annuitant Pay to ensure that survivor benefit premium
beneficiary social security numbers are correct.

Management Comments. The Director, Defense Finance and Accounting
Service Cleveland partially concurred. She stated that the Defense Finance and
Accounting Service Garnishment Operations and the Defense Finance and
Accounting Service Retired and Annuitant Pay will conduct periodic supervisory
reviews to ensure that Uniformed Services Former Spouses’ Protection Act
applicant information regarding survivor benefit premium beneficiary is accurate.
Additionally, the Defense Finance and Accounting Service Retired and Annuitant
Pay will issue an office-wide “Tip of the Day” to all personnel responsible for
processing such accounts on the importance of accurate survivor benefit premium
beneficiary information. Corrective action will be completed by August 1, 2007.

Audit Response. Although the Director, Defense Finance and Accounting
Service Cleveland only partially concurred with our recommendations, the
comments are responsive. The Director, Defense Finance and Accounting
Service Cleveland identified corrective actions to ensure that survivor benefit



                                    16
premium beneficiary social security numbers are correct. No further comments
are required.

     9. Establish and implement reconciliation procedures to capture
manual and multiple system payments.

Management Comments. The Director, Defense Finance and Accounting
Service Cleveland nonconcurred and stated that pay systems keep payment
records, not the Integrated Garnishment System. Additionally, each pay system,
not the Defense Finance and Accounting Service Garnishment Operations, should
maintain records of offline payments.

Audit Response. The Director, Defense Finance and Accounting Service
Cleveland comments are nonresponsive. We recognize that the pay systems
should maintain payment records; however, the pay systems do not interface with
one another, and multiple system payment information is unavailable. Because
the Integrated Garnishment System captures payment information from multiple
pay systems, it is logical to establish reconciliation procedures involving the
Integrated Garnishment System. Establishing reconciliation procedures would
assist with paralegal reviews and enable DFAS Garnishment Operations to
identify duplicate garnishment payments that exceed court order limitations made
from multiple payment systems. We request that the Director, Defense Finance
and Accounting Service Cleveland reconsider her position and provide additional
comments on the final report.

       10. Provide training to ensure support orders and Former Spouse Act
court orders are processed on a first-come, first-served basis.

Management Comments. The Director, Defense Finance and Accounting
Service Cleveland nonconcurred and stated that the cases identified involved
orders for support that is not being paid to a Child Support Enforcement Agency,
but, rather is being paid directly to the custodial parent. In these instances the
custodial parent is receiving both support and Former Spouse Act payments. The
Director, Defense Finance and Accounting Service Cleveland stated that the first-
come, first-served basis identified in the DoD Financial Management Regulation
7000.14-R, volume 7B, chapter 29, section 291105 is only applicable when
multiple claimants are involved and not applicable in the cases identified.

Audit Response. The Director, Defense Finance and Accounting Service
Cleveland comments are nonresponsive. The DoD Financial Management
Regulation 7000.14-R, volume 7B, chapter 29, section 291105 does not provide
that the first-come, first-served basis is only applicable when multiple claimants
are involved. Specifically, DoD Financial Management Regulation 7000.14-R,
volume 7B, chapter 29, section 291105 states that when several court orders are
served on a retiree’s retired pay, payments will be satisfied on a first-come, first-
served basis within the limitations. Additionally, 10 U.S.C. 1408(e)(4)(A), states
that court orders should be satisfied on a first-come, first-served basis when
retired military employees have combinations of support order(s) and Former
Spouse Act court order(s). We request that the Director, Defense Finance and
Accounting Service Cleveland reconsider her position and provide additional
comments on the final report.


                                     17
            11. Contact garnishment-related parties to obtain court orders
     missing from the Imaging Garnishment System.

     Management Comments. The Director, Defense Finance and Accounting
     Service Cleveland concurred. She stated that the Assistant General Counsel of
     Garnishment Operations, Defense Finance and Accounting Service will contact
     the recipients of payments for cases identified in which the Imaging Garnishment
     System does not contain court orders authorizing payments. Corrective actions
     will be completed by August 1, 2007.

            12. Follow established court order retention policies and procedures
     to ensure retention of court order documentation.

     Management Comments. The Director, Defense Finance and Accounting
     Service Cleveland nonconcurred and stated that retention policies were in place
     prior to our review. Additionally, the Director, Defense Finance and Accounting
     Service Cleveland provided a listing of the retention requirements for different
     types of legal documents.

     Audit Response. The Director, Defense Finance and Accounting Service
     Cleveland comments are partially responsive. Although policies were in place,
     we identified instances in which documents were not retained for the required
     time period. We request that the Director, Defense Finance and Accounting
     Service Cleveland reconsider her position and provide additional comments on
     the final report.

            13. Establish policies and procedures for multiple garnishment
     orders to ensure consistent processing.

     Management Comments. The Director, Defense Finance and Accounting
     Service Cleveland nonconcurred and stated that the Defense Finance and
     Accounting Service Garnishment Operations have policies and procedures in
     place to ensure consistent garnishment processing.

     Audit Response. The Director, Defense Finance and Accounting Service
     Cleveland comments are nonresponsive. We recognize that the Assistant General
     Counsel of Garnishment Operations, Defense Finance and Accounting Service
     has allocation procedures for processing multiple family support orders.
     However, the allocation procedures do not ensure consistent processing of
     multiple garnishment orders because only one claimant is involved with multiple
     garnishment orders. We request that the Director, Defense Finance and
     Accounting Service Cleveland reconsider her position and provide additional
     comments on the final report.


Other Matters of Interest
     Written Notification to Employees. DFAS Garnishment Operations did not
     always notify current and retired DoD employees when a legal process was
     served. They are required to provide written notification to the employee within


                                        18
15 calendar days that the designated agent has been served with a legal process.
However, DFAS Garnishment Operations did not always provide written
notification to employees or issue written notification within 15 calendar days.




                                    19
Appendix A. Scope and Methodology
   We conducted this performance audit from July 2005 through December 2006 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   To review the DoD garnishment program, we evaluated the DFAS process of
   garnishing earnings of current and retired DoD employees to pay debt obligations.
   We limited our review to court-ordered garnishments. During FY 2005, IGS
   included a universe of 249,085 current and retired DoD employees (excluding
   September 2005). We used a statistical sample of 293 social security numbers for
   current and retired DoD employees to determine whether DFAS accurately
   garnished earnings. See Appendix B for the statistical sampling plan. We
   reviewed garnishment and pay documentation for 286 current and retired DoD
   employees because 7 employees did not receive pay during FY 2005. The sample
   reviewed contained 664 garnishments. Additionally, we contacted representatives
   from the Office of the Under Secretary of Defense (Comptroller)/Chief Financial
   Officer, DFAS Garnishment Operations, DFAS Pay Centers, and Lockheed
   Martin.

   We performed the following to accomplish the audit objectives.

      •   We contacted the Office of the Under Secretary of Defense
          (Comptroller)/Chief Financial Officer to determine their involvement with
          the DoD Garnishment Program.

      •   We met with DFAS Garnishment Operations to request system access,
          obtain a universe of transactions, and gain an understanding of the
          garnishment process. We extracted court order files from IGARN and
          compared them to information within the IGS. Additionally, we compared
          IGS information to pay system documentation and determined whether
          garnishment limitations conformed to applicable Federal and DoD
          regulations. We met with DFAS Garnishment Operations to clarify any
          unresolved issues and discussed their oversight procedures.

      •   We contacted DFAS Pay Centers (Civilian, Military (Active and Reserve),
          and Retired and Annuitant) and Lockheed Martin to obtain FY 2005
          payment documentation. We used the payment documentation to
          recalculate disposable earnings and to identify actual garnishment
          amounts withheld. We compared calculated disposable earnings and
          garnishment amounts from payment documentation to amounts identified
          within IGS.

   Use of Computer-Processed Data. We did not evaluate the general and
   application controls of DFAS Garnishment Operations and pay operations
   systems, although we did rely on data produced by those systems to conduct the


                                      20
    audit. For the Defense Civilian Pay System and DRAS, we relied on the general
    and application control tests conducted by other auditors. Additionally, we
    determined data reliability by comparing the court order files to system
    information and recalculating disposable earnings to determine accurate
    garnishment amounts. As discussed within this report, we identified inaccuracies
    with the data from the garnishment systems. Although we did not evaluate
    additional controls, it did not affect the results of the audit.

    Use of Technical Assistance. An Operations Research Analyst of the
    Quantitative Methods Division of the Department of Defense Office of Inspector
    General assisted with the project sample selection and projection of results. The
    Data Mining Division of the Department of Defense Office of Inspector General
    coordinated with the Defense Manpower Data Center to ensure the validity of
    current and retired DoD employees and garnishment recipients within our sample.
    In addition, the Office of Legal Counsel of the Department of Defense Office of
    the Inspector General provided legal support regarding interpretation of
    applicable regulations.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Financial Management high-risk area.


Prior Coverage
    No prior coverage has been conducted on garnishments during the last 5 years.




                                        21
Appendix B. Statistical Sample
    Population. DFAS Garnishment Operations provided us with 348,830
    transactions processed during FY 2005. These transactions were associated with
    249,085 unique social security numbers.

    Sample Plan. We weighted each of the 249,085 social security numbers based
    on the assigned number of garnishments and divided the population into four
    strata. The Quantitative Methods Division of the Department of Defense Office
    of Inspector General selected records within each stratum using a simple random
    sample (without replacement), and determined the sample size for each stratum
    based on calculations, what-if analyses, and professional judgment. The
    Quantitative Methods Division drew the sample using the random sampling
    capabilities of SAS version 9.1. Table B-1 discusses the statistical sampling plan.

                             Table B-1. Statistical Sampling Plan

     Stratum           Garnishments           Population            Sample

     1                 4/5                             33                33

     2                 3                              426              100

     3                 2                          11,329                 80

     4                 1                         237,297                 80

     Total                                       249,085               293



    Analysis and Interpretation. Through an analysis of each social security
    number contained in the sample, we identified errors totaling $88,543 (absolute
    value). By projecting the error amount across the population, the Quantitative
    Methods Division calculated an error amount between $3.25 million and $9.95
    million at a 95 percent confidence level with a point estimate of $6.60 million.




                                         22
Appendix C. Management Comments on the
            Finding and Audit Response
   1. Review of Internal Controls

   Management Comments. The Director, DFAS Cleveland stated that DFAS
   Garnishment Operations currently has a comprehensive management control
   program in place that includes monthly reviews of assessable units, an annual
   statement of assurance, Federal Managers’ Financial Integrity Act quarterly
   reports, and a comprehensive series of pre- and post-payment reviews.

   Audit Response. During FY 2005, DFAS Garnishment Operations did not have
   a formal managers’ internal control program in place for the garnishment process.
   However, we do recognize that DFAS Garnishment Operations had a formal
   managers’ internal control program in effect during FY 2006.

   2. Accuracy of Garnishments

   Management Comments. The Director, DFAS Cleveland stated that disposable
   pay calculations are accurate for all pay systems with the exception of the
   Defense Joint Military Pay System-Reserve Component. The reserve pay system
   is not programmed to use the Thrift Savings Plan contribution as an authorized
   deduction when computing garnishment disposable pay.

   Audit Response. The Director, DFAS Cleveland acknowledged that the Defense
   Joint Military Pay System-Reserve Component is incorrectly calculating
   garnishment disposable earnings; however, we also identified disposable earnings
   issues within the Defense Joint Military Pay System-Active Component and
   DRAS. Specifically, we identified that military employees’ disposable earnings
   computations did not include some miscellaneous debt deductions. Additionally,
   retired military employees’ disposable earnings were inaccurately calculated after
   receiving cost of living adjustments and did not include proper tax and survivor
   benefit premium deductions. We also identified a number of other issues within
   the report that caused improper garnishments from current and retired DoD
   employees.

   2a. Accuracy of Garnishment Information

   Management Comments. The Director, DFAS Cleveland stated that disposable
   pay calculations are accurate for all pay systems with the exception of the
   Defense Joint Military Pay System-Reserve Component. The Director, DFAS
   Cleveland stated that although the auditors identified cases where incorrect
   amounts and percentage limitations were used, these were human errors that
   resulted when paralegals input cases into the Integrated Garnishment System.

   Audit Response. We agree with the Director, DFAS Cleveland that the Defense
   Joint Military Pay System-Reserve Component is incorrectly calculating
   garnishment disposable earnings; however, we also identified disposable earnings
   issues within the Defense Joint Military Pay System-Active Component and


                                       23
DRAS. The Director, DFAS Cleveland agreed that DFAS systems used
inaccurate information to calculate garnishment amounts. Specifically, the
Director, DFAS Cleveland acknowledged that systems included incorrect
garnishment amounts and limitations as a result of paralegal data entry errors.

Management Comments. The Director, DFAS Cleveland stated that pay
systems are the official record of any payments made, not the IGS. Additionally,
IGS does not reconcile garnishment payments from the same individual’s pay that
is being made from different pay systems. However, the information on each
individual garnishment is contained in IGS and there is no reason to reconcile the
payments being made from different pay systems.

Audit Response. We recognize that it is the responsibility of the pay systems to
maintain the official record of payment; however, the pay systems do not
interface with one another, and multiple system payment information is
unavailable. Because IGS captures multiple system payment information, it is
logical to establish reconciliation procedures involving IGS. Establishing
reconciliation procedures would assist with paralegal reviews and enable DFAS
Garnishment Operations to identify duplicate garnishment payments that exceed
court order limitations made from multiple systems.

Management Comments. The Director, DFAS Cleveland stated that any
improper order of precedence for cases with multiple orders would be due to input
error and not due to any system errors or improper programming.

Audit Response. The audit team did not attest that improper order of precedence
was due to system errors or improper programming. During our review, we
identified that the improper order of precedence was due to DFAS Garnishment
Operations modifying the garnishment precedence order.

2b. Accuracy of Garnishment Amounts and Limitations

Management Comments. The Director, DFAS Cleveland stated that there are
instances when it is appropriate to include amounts and limitations that differ
from amounts and limitations contained within support orders. Specifically, it
would be appropriate when payments are required to be allocated among multiple
court orders or when a member has deductions occurring from multiple pay
systems.

Audit Response. We agree with the Director, DFAS Cleveland that there are
instances when it would be appropriate for amounts and limitations to differ;
however, we identified a number of other issues that attributed to DFAS systems
using inaccurate amounts and limitations to calculate garnishments. Specifically,
we identified that IGS garnishment amounts were not updated after the
reprogramming of pay systems, terminations orders and multiple family support
orders were improperly processed, and court ordered garnishment amounts and
limitations were incorrectly entered into IGS by DFAS Garnishment Operations
paralegals. The Director, DFAS Cleveland recognized in her comments on
Recommendation B.3., Recommendation B.4., Recommendation B.5., and
Section 2a of Appendix C that these issues existed.



                                    24
2c. Accuracy of Disposable Earnings Calculations

Management Comments. The Director, DFAS Cleveland stated that the DRAS
disposable earnings calculation issue regarding cost of living adjustments was
identified and would be permanently fixed for the December 2006 update.

Audit Response. The Director, DFAS Cleveland recognized this issue and will
implement corrective action by August 1, 2007.

2c (1). Accuracy of Disposable Earnings Calculations – Survivor Benefit
Premiums

Management Comments. The Director, DFAS Cleveland stated that survivor
benefit premium deductions are calculated correctly. However, confusion arises
when the incorrect social security number of the former spouse does not match up
when the system performs the match even though it is the correct spouse. This
could result in the disposable pay not considering the survivor benefit premium
deduction and result in a small overpayment to the former spouse.

Audit Response. The audit team did not attest to the accuracy of the calculation
for the survivor benefit premium deduction. During our review, we identified that
the retired military employees’ disposable earnings did not include proper
survivor benefit premium deductions because the beneficiaries’ social security
numbers were improperly entered.

2d (1). IGS Limitations for Manual and Multiple System Payments

Management Comments. The Director, DFAS Cleveland stated that pay
systems are the official record of any payments made. Additionally, there is no
history of offline payments within IGS and there is no need for IGS to contain this
history because the pay systems hold the history for these payments.

Audit Response. We recognize that it is the responsibility of the pay systems to
maintain the official record of payment; however, the pay systems do not
interface with one another, and multiple system payment information is
unavailable. Because IGS captures multiple system payments, it is logical to
establish reconciliation procedures involving IGS. Establishing reconciliation
procedures would assist with paralegal reviews and enable DFAS Garnishment
Operations to identify duplicate garnishment payments that exceed court order
limitations made from multiple systems.

2e. IGS Garnishment Order of Precedence

Management Comments. The Director, DFAS Cleveland stated that
10 U.S.C. 1408(e)(4)(A) requires that the first document received takes priority
when DFAS is served with an application under the Former Spouse Act and
subsequently receives a garnishment action under 42 U.S.C. 659. The actual
service date (the date that the order was date-stamped by the scanner when it was
imaged into the IGARN) is used when processing orders within IGS.
Additionally, there are instances when IGS contains service dates different than
the actual date the court order was served to DFAS. However, as a long as the


                                    25
service dates entered establish the correct withholdings priority, the function of
the service date is met.

Audit Response. We agree with the Director, DFAS Cleveland that court orders
should be satisfied on a first-come, first-served basis when retired military
employees had combinations of support order(s) and Former Spouse Act court
order(s). However, we identified cases in which the order of precedence was
modified by the paralegal, thus, changing the withholding priority.

4. Consistency of IGS Information

Management Comments. The Director, DFAS Cleveland stated that it can be
proper to combine ordered amounts, rather than separating them, depending on
the circumstances involved in a particular case.

Audit Response. We recognize that depending on the circumstances, it can be
proper to combine ordered amounts rather than separating them. However, we
identified instances when paralegals processed similar orders differently.

5. Adequacy of Garnishment Processing Reviews

Management Comments. The Director, DFAS Cleveland stated that DFAS
Garnishment Operations has a comprehensive management control program in
place.

Audit Response. During FY 2005, DFAS Garnishment Operations did not have
a formal managers’ internal control program in place for the garnishment process.
However, we do recognize that DFAS Garnishment Operations had a formal
managers’ internal control program in effect during FY 2006.

5a. Processing Court Ordered Garnishment Amounts and Limitations

Management Comments. The Director, DFAS Cleveland stated that while no
process involving manual input can be 100 percent accurate, the systems, policies,
procedures, and management internal controls that are in place ensure that nearly
all cases are entered correctly in the pay systems the first time. Additionally, the
automated programming in IGS and the computations performed within the pay
systems ensure that the proper amounts and limitations are being applied in
accordance with the law and regulations.

Audit Response. During the audit, we identified a number of issues that we
attributed to DFAS Garnishment Operations inaccurately processing garnishment
amounts and limitations. The Director, DFAS Cleveland recognized that IGS
garnishment amounts were not updated after the reprogramming of pay systems,
terminations orders and multiple family support orders were improperly
processed, and court-ordered garnishment amounts and limitations were
incorrectly entered into IGS by DFAS Garnishment Operations paralegals.
Additionally, she recognized that the Defense Joint Military Pay System-Reserve
Component was improperly programmed to not include Thrift Savings Plan
contributions as a deduction and that DRAS inaccurately calculated some retired



                                     26
military employees’ disposable earnings after receiving cost of living adjustments
and did not include proper tax deductions.

Management Comments. The Director, DFAS Cleveland stated that the various
DFAS pay systems are updated on a continual basis through system releases.
Additionally, the IGS system was updated after the DRAS re-programming and
conversion several years ago. In addition to updating the IGS system, DFAS
Garnishment Operations performed a series of manual “clean-up” of cases that
might have been affected by the system changes.

Audit Response. During the audit, we identified that DFAS Garnishment
Operations did not update IGS with current garnishment amounts after pay
systems reprogramming. The Director, DFAS Cleveland recognized this issue
and stated that it will be completed by April 1, 2008.

Management Comments. The Director, DFAS Cleveland stated that their
internal policies are consistent with 5 C.F.R. Section 581 (2006).

Audit Response. The Director, DFAS Cleveland recognized the need to clarify
the paragraph within Policy Letter 2-9 regarding 12 weeks in arrears and will
define “other evidence acceptable” to ensure consistent processing of court
orders.

5e. Entering Garnishment Amounts

Management Comments. The Director, DFAS Cleveland stated that the IG
team reviewed a number of cases where paralegals had entered improper
garnishment amounts in IGS. However, she disagrees that DFAS Garnishment
Operations should increase the percentage of cases reviewed because they
conduct reviews. Increasing the percentage of garnishment cases reviewed to
include cases where no current transaction has taken place is not reasonably
achievable.

Audit Response. Although DFAS Garnishment Operations conducted reviews,
the reviews did not identify improperly processed garnishment information.
Increasing the percentage of garnishment cases reviewed would reduce the
number of improper garnishments. The Director, DFAS Cleveland agreed that
the Assistant General Counsel of Garnishment Operations, DFAS will work with
the DFAS Internal Review to modify the current random sampling process to
include a review of cases that have not required adjustment.

5f (2) and 5f (3). Applying Maximum Garnishment Limitations

Management Comments. The Director, DFAS Cleveland stated that they will
process an order up to the applicable Consumer Credit Protection Act percentage
unless the order contains a lower percentage. Additionally, they consider the
greater percentage in the order to be “other evidence acceptable” required by the
regulation. Furthermore, the percentage on the order is a better indication of
whether the arrears are over 12 weeks rather than the block being checked.




                                    27
Audit Response. The Director, DFAS Cleveland agreed to process support
orders by applying the lesser of the Federal or court-ordered maximum
garnishment limitation and recognized the need to clarify Policy Letter 2-9
regarding 12 weeks in arrears and will define “other evidence acceptable” to
ensure consistent processing of court orders.

5h (3). Calculating Disposable Earnings – Considering SBP Premiums

Management Comments. The Director, DFAS Cleveland stated that survivor
benefit premium deductions are calculated correctly. However, confusion arises
when the incorrect social security number of the former spouse does not match up
when the system performs the match even though it is the correct spouse.
According to the Director, DFAS Cleveland, this could result in the disposable
pay not considering the survivor benefit premium deduction and result in a small
overpayment to the former spouse.

Audit Response. The audit team did not attest to the accuracy of the calculation
for the survivor benefit premium deduction. During our review, we identified that
the retired military employees’ disposable earnings did not include proper
survivor benefit premium deductions because the beneficiaries’ social security
numbers were improperly entered.

5h (5). Calculating Disposable Earnings – Automated Garnishment System
and Pay Garnishment Bankruptcy Taxes System

Management Comments. The Director, DFAS Cleveland stated that the
Automated Garnishment System is properly computing disposable pay in
accordance with laws and regulations. However, the Pay Garnishment
Bankruptcy Taxes System is not computing disposable earnings using the Thrift
Savings Plan as an authorized deduction. The Director, DFAS Cleveland stated
that they are addressing this issue with the systems manager.

Audit Response. We agree with the Director, DFAS Cleveland that the Pay
Garnishment Bankruptcy Taxes System is not computing disposable earnings
using the Thrift Savings Plan as an authorized deduction. We also identified that
the Automated Garnishment System is not properly computing disposable pay in
accordance with laws and regulations. The authorized miscellaneous deductions
are coded as “DS” debts. We identified examples when miscellaneous debts
coded as “DS” were not included as deductions when calculating military
employees’ disposable earnings calculations.

5i (2). IGS Capabilities for Manual and Multiple System Payments –
Combining Garnishments

Management Comments. The Director, DFAS Cleveland stated that DFAS
Garnishment Operations computes the amounts to be deducted from each of the
pay systems. Additionally, there is no need for the system to reconcile these
cases because the total amount entered in the two systems had been computed so
that if the total amount entered into both systems were deducted, only the total
amount ordered would be paid.



                                    28
Audit Response. The Director, DFAS Cleveland provided an example of the
paralegal computing and splitting of the garnishment amount between multiple
pay systems. However, the Director of DFAS Cleveland previously
acknowledged that instances exist in which duplicate payments for the same court
order were taken from multiple pay systems. IGS is not capable of consolidating
garnishment amounts received from multiple pay systems. IGS captures payment
information from multiple pay systems and it is logical to establish reconciliation
procedures involving IGS. Establishing reconciliation procedures would assist
with paralegal reviews and enable DFAS Garnishment Operations to identify
duplicate garnishment payments that exceed court order limitations made from
multiple payment systems.

5i (3). IGS Capabilities for Manual and Multiple System Payments –
Duplicate Garnishments

Management Comments. The Director, DFAS Cleveland stated that our
statement that DFAS Garnishment Operations could not identify when employees
had duplicate garnishments deducted from their earnings is correct. This issue
only applies when an individual who is a DoD civilian employee and a military
reservist is activated and later deactivated. However, this situation does not occur
in every instance. These circumstances involve a very specific and limited
number of cases.

Audit Response. We recognize that duplicate garnishments are deducted when
an individual who is a DoD civilian employee and a military reservist is activated
and later deactivated. However, an employee had a garnishment taken by the
Defense Civilian Pay System and DRAS during the same period, which resulted
in duplicate garnishment payments that exceeded court order limitations.

5j. Modification of Garnishment Order of Precedence

Management Comments. The Director, DFAS Cleveland stated that their
procedures are in accordance with the provisions in DoD Financial Management
Regulation volume 7B, chapter 29, section 291105, which specifies that when
multiple court orders are served on a retiree’s pay account, they will be satisfied
on a first-come, first-served basis. This provision is to ensure that when multiple
claimants are involved, they are paid their appropriate portion of the available
disposable pay on the basis of when their claim is received by DFAS. However,
when the claimant on both orders is the same individual, this provision is not
applicable. DFAS Garnishment Operations has always interpreted this provision
as not applying when the payee is the same former spouse.

Audit Response. The DoD Financial Management Regulation 7000.14-R,
volume 7B, chapter 29, section 291105 does not provide that the first-come, first-
served basis is only applicable when multiple claimants are involved. DoD
Financial Management Regulation 7000.14-R, volume 7B, chapter 29, section
291105 states that when several court orders are served on a retiree’s retired pay,
payments will be satisfied on a first-come, first-served basis within the
limitations. Additionally, 10 U.S.C. 1408(e)(4)(A), specifically states that court
orders should be satisfied on a first-come, first-served basis when retired military



                                     29
employees had combinations of support order(s) and Former Spouse Act court
order(s). In 10 U.S.C 1408(e)(2), Congress provides:
       In the event of effective service of more than one court order which
       provide for payment to a spouse and one or more former spouses or to
       more than one former spouse the disposable retired pay of the member
       shall be used to satisfy (subject to the limitations of paragraph (1)) such
       court orders on a first-come, first-served basis.

The specific language in 10 U.S.C. 1408(e)(2) indicates that the first-come, first-
served requirement for cases subject to the limitations of 10 U.S.C. 1408(e)(1)
only applies when there is a spouse and one or more former spouses. Therefore,
the first-come, first-served requirement does not apply to cases subject to the
limitations of 10 U.S.C. 1408(e)(1) in which there is only one former spouse and
no current spouse.

Congress omitted the multiple spouse language from 10 U.S.C. 1408(e)(4)(A),
which provides:
       In the event of effective service of a court order under this section and
       the service of legal process pursuant to section 459 of the Social
       Security Act (42 U.S.C 659), both of which provide for payments
       during a month from the same member, satisfaction of such court
       orders and legal process from the retired pay of the member shall be on
       a first-come, first-served basis.

Therefore, Congress intended that the first-come, first-served provision in
10 U.S.C 1408(e)(4)(A) applies to all cases under 10 U.S.C. 1408(e)(4)(A), even
if there is only one former spouse and no current spouse.

5l. Processing Court Orders Consistently

Management Comments. The Director, DFAS Cleveland stated that allocation
procedures exist for cases when a member is supporting multiple families and the
member does not have enough disposable earnings to pay the entire court-ordered
amounts.

Audit Response. We recognize that the Assistant General Counsel of
Garnishment Operations, Defense Finance and Accounting Service has allocation
procedures for processing multiple family support orders. However, allocation
procedures do not ensure consistent processing of multiple garnishment orders
because only one claimant is involved with multiple garnishment orders.

6. Garnishment Deductions

Management Comments. The Director, DFAS Cleveland stated that based on
their analysis of the cases in the sample and their interpretation of the laws and
regulations, they estimate that they made improper payments of approximately
$16,900.

Audit Response. Based on management comments, we modified our analysis
and the report. However, DFAS still improperly garnished approximately


                                          30
$88,543. We identified a number of issues that resulted in inaccurate information.
The disposable earnings computations of the military pay systems did not include
some miscellaneous debts and Thrift Savings Plan contributions as deductions.
Additionally, DRAS did not include proper tax and deductions for survivor
benefit premiums. DRAS also inaccurately calculated retired military employees’
disposable earnings after members received cost of living adjustments. We also
identified a number of other issues that resulted in improper garnishments from
current and retired DoD employees’ pay. DFAS Garnishment Operations
paralegals did not update IGS garnishment amounts after pay systems
reprogramming, did not properly process terminations orders and multiple family
support orders, and incorrectly entered court-ordered garnishment amounts and
limitations into IGS. The Director, DFAS Cleveland recognized in her comments
on Recommendation A.2., Recommendation A.4., Recommendation B.3.,
Recommendation B.4., Recommendation B.5., and Section 2a of Appendix C that
most of these issues existed.

Other Matters of Interest – Written Notification to Employees

Management Comments. The Director, DFAS Cleveland stated that they send
notifications when cases are processed both by mail and e-mail through
SmartDocs. Additionally, for some older cases, the IGARN files may not contain
evidence of these letters. However, notification letters are currently saved to
IGARN.

Audit Response. We recognize that evidence of these letters may not be
contained in IGARN for some older cases; however, we identified that DFAS
Garnishment Operations did not always provide written notification to employees
or issue written notification within 15 calendar days for court orders as recent as
FY 2005.




                                    31
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Assistant General Counsel for Garnishment Operations, Defense Finance and
      Accounting Service

Non-Defense Federal Organizations
Office of Management and Budget
Inspector General, Department of Energy
Inspector General, U.S. Environmental Protection Agency
Inspector General, Department of Health and Human Services




                                          32
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs, Committee on Oversight
  and Government Reform




                                        33
Defense Finance and Accounting Service
Comments


                          DEFENSE FINANCE AND ACCOUNTING                       SERVICE
                                         CLEVELAND
                                             1240 EAST NINTH STREET
                                               CLEVELAND OH 44193




                                                                                  FEB 1 5 2007
    DFAS-CL/JBB


    M E M O R A N D U M FOR D I R E C T O R , D E F E N S E FINANCIAL A U D I T I N G SERVICE,
                                OFFICE O F THE INSPECTOR G E N E R A L , D E P A R T M E N T OF
                                D E F E N S E (ATTN: MR. K E N N E T H B. V A N H O V E )

     SUBJECT: Office of the Inspector General Draft Report, Project No. D2005-D000FC-0264.000,
              "DoD Garnishment Program," dated December 15, 2006.


             The Defense Finance and Accounting Service is providing the attached general comments
     and response to Recommendations A . l , A.2.a, A.2.b, A.2.C, A . 3 , A.4, B . l , B.2, B.3, B.4, B.5,
     B.6.a,B.6.b, B.6.C, B.7, B.S, B.9, B.10, B . l l , B.12, B.13, and B.14 of the subject draft audit
     report in Attachment 1. Disposable Pay Calculations Limitations is Attachment 2. Family
     Servicemembers Group Life Insurance and Miscellaneous Debt Deductions is Attachment 3.
     Case examples of analyzed accounts o f limitations are in Attachment 4. Case examples of
     analyzed accounts of the COLA processing are in Attachment 5. System Administrator,
     Supervisor, and Attorney Actions are in Attachment 6. Management Controls in daily case
     reviews are in Attachment 7. Random Sampling and Review Plans for processing are in
     Attachment 8. Management Control Program support documents are in Attachment 9.

            The point of contact is Mr. Stanley Koch. Mr. Koch can b e reached at 216-204-7066 or
     D S N 580-5628.




                                                        Martha J. Stearns
                                                        Director, D F A S Cleveland


     Attachments:
     As stated

     cc:
     DFAS-DDI/AR




                                                   www.dfas.mil
                                           Your Financial Partner at W o r k




                                                        35
 DFAS Comments to DoD IG Draft R e p o r t , Project No. D2005-D000FC-0264.000,
         "DoD Garnishment Program," dated December 15, 2006.



Management Comments on Report Statements:

On February 7, 2007, a teleconference was held with the DoD IG OGC attorney who
advised the audit team, the audit team leader, and representatives from D F A S , including
the DFAS General Counsel, the Director of Internal Review, the Director of Garnishment
Operations and several other members of the individual staffs. The purpose of the
meeting was to discuss a number of legal issues that DFAS feels are important to clarify
before the report goes into final form. Four legal issues were discussed; (1) The
provisions of the Uniformed Services Former Spouses' Protection Act, (USFSPA), 10
USC §1408 regarding the maximum percentage of a retiree's disposable pay that may be
garnished when there is both a division of retired pay under the USFSPA and a
garnishment for support pursuant to 42 U S C §659, (2) The provisions of 10 U S C §1408
as they relate to the order of precedence of garnishments in cases involving both
payments under the USFSPA and garnishments under 42 U S C §659 when both payments
are being made to the same former spouse, (3) The provisions of 5 CFR §581 as they
relate to when it is appropriate to pay an additional five percent of an
employee/member's disposable pay, and (4) The provisions of the D o D F M R as they
relate to using Family Servicemembers Group Life Insurance as an authorized deduction
when computing garnishment disposable pay. Agreement between the DoD IG O G C and
the DFAS representatives was reached on each of the issues discussed that the position
that DFAS has taken on these issues in formulating our policy and procedures is legally
correct. As a result of this agreement, a number of the findings and recommendations in
the report are no longer factually correct. Therefore, w e request that the findings related
 to these issues be appropriately revised and/or removed from the report. The findings
 affected b y this agreement are; 2b (2), 2c (3), 2e, 5f (1), 5f (2), 5f (3), 5g, 5h (5), and 5j.
 In addition, the following recommendations are affected b y the agreement; A2.b, A 3 , B 1 ,
 B6.a, B6.b, B6.c, and B l 1 . We would also request that these recommendations be
 removed based on the agreement reached during our meeting.



1. Review of Internal Controls. Page 2.

The IG states that DFAS Garnishment Operations did not have a formal management
control program.

Non-Concur: Garnishment Operations has a comprehensive management control
program in place that includes monthly reviews of assessable units, an annual Statement
of Assurance, FMFIA quarterly reports and a comprehensive series of pre and post
payment reviews. We believe that the necessary elements set forth in the General
Accounting Office (GAO) Standards for Internal Control in the Federal Government and
the guidance in O M B Circular A-123, Management's      Responsibility for Internal Control
are included in our controls that are in place and being used. The specific measures in
place are discussed further in our response to the recommendations at Attachment 9.




                                                1                                    Attachment 1




                                              36
 DFAS Comments to DoD IG Draft Report, Project No. D2005-D000FC-0264.000,
         "DoD Garnishment Program," dated December 15, 2006.



2. Accuracy of Garnishments. Page 4.

The IG states that DFAS systems did not properly calculate garnishment payments.

Partially Concur: After reviewing the list of cases provided by the auditors, we are
confident that the garnishment disposable pay calculations for the civilian, active duty
military and retired military are calculating correctly and accurately in accordance with
the applicable provisions in the Department of Defense Financial Management
Regulation (DoDFMR) and Title 5 of Code of Federal Regulations (CFR). There is an
issue with the reserve military pay system regarding the system not using the Thrift
Savings Plan (TSP) contribution as an authorized deduction in computation of
garnishment disposable pay. W e are addressing this issue with the system manager.

2a. Accuracy of Garnishment Information. Page 5.

The IG states that DFAS systems used inaccurate information to calculate garnishment
amounts.

Partially Concur: As stated above, we arc confident that the disposable pay
computations being done by the various D F A S pay systems (with the exception o f the
DJMS-RC pay system using the TSP deduction in the disposable pay computation) are in
accordance with the applicable laws and regulations. Although the IG found some cases
where incorrect amounts and percentage limitations were used, our analysis indicates that
those errors were caused by human input error, not incorrect calculations in the DFAS
pay systems. The paralegals in Garnishment Operations are trained to do legal reviews of
various types of court orders. During their legal review, they analyze the case and
determine various issues including the payee, the payment amount and maximum
percentage to be paid. They do this within the Integrated Garnishment System (IGS).
When the paralegal completes their legal review, for cases in those pay systems that are
interfaced with the IGS system, IGS transmits the payment and deduction instructions to
the appropriate pay system. Any errors in garnishment amounts or the percentage
limitation (Not to Exceed Percentage ­ NTE) would occur when the paralegal is inputting
the case into the IGS system. For those pay systems that do not interface with IGS, a
printed instruction is sent to the pay office, where it is input into the system by a pay
technician. For these non-interfaced accounts, input errors could occur when the
paralegal does their legal review, or when the pay technician inputs the case into the pay
system.

The report states, "IGS limitations existed for manual and multiple system garnishment
payments." While this statement is on its face correct, it does not necessarily indicate a
negative in our processing or the IGS system. There are limitations built into the IGS
system for various reasons. The IGS system is not the official system of record for
garnishment payments. The pay systems contain the official record of any payments
made. Therefore, there m a y be instances where payments are entered manually in the
pay systems that are not reflected in IGS, but would be reflected in the pay system. In
addition, IGS docs not reconcile garnishment payments from the same individuals pay


                                             2                                   Attachment 1




                                            37
Final Report
 Reference

                DFAS Comments to DoD IG Draft Report, Project No. D2005-D000FC-0264.000,
                        "DoD Garnishment Program," dated D e c e m b e r 15, 2006.


               being made from different pay systems. However, the information on each individual
               garnishment is contained in IGS and there is no reason to reconcile the payments being
               made from different pay systems.

               The report states, "IGS included improper order of precedence for some orders." Any
               improper order of precedence for cases with multiple orders would be due to input error
               and not due to any system errors or improper programming.

               2b. Accuracy of Garnishment Amounts and Limitations, Page 5.

               2b (1). DFAS Systems used inaccurate amounts and limitations to calculate
               garnishments.

               Non-Concur: Garnishment percentage limitations or N T E s reflected in IGS records are
               due to various reasons depending on the situation involved. In some instances, we have
               multiple court orders where the law requires the payments to be allocated between these
               orders using allocation based on proportion. Allocation can occur in all types of court
               orders including current and arrears orders, as well as combination accounts of USFSPA
               entitlements with garnishments. IGS records containing garnishment amounts that differ
               from the court ordered amounts will occur when the m e m b e r h a s the deductions
               occurring from multiple pays. If the member has insufficient disposable earnings (DE) in
               one source of income to pay the entire ordered amount of a garnishment, we will deduct
               the remaining portion from the member/employee's other source of income. This
               situation typically occurs when a DoD civilian employee is also a military reservist. I he
               combination of the two deductions satisfies the garnishment obligation.



Deleted         2b (2). The IG states that the D R A S system exceeded the m a x i m u m garnishment
Pages 5, 7,     limitation.
9, and 12       Non-Concur: W e take legal exception with this statement, which we feel is an
                inaccurate reflection of how disposable pay limitations are calculated for combination
                USFSPA and garnishment cases. All regulatory limitations are adhered to. (See
                Attachment 2 for Disposable Pay Calculation Limitations) W e have attached copies of
                some cases sited in the IG sampling and have provided an analysis of the calculations
                used to compute the payments. (See Attachment 4)

                The IG states that the DRAS system improperly used 6 5 % of disposable pay to compute
                payments for cases involving payments under 10 U S C §1408 (USFSPA) and 42 USC
                §659. The following explanation and legislative history of the law clearly show that the
                D R A S system is properly computing disposable pay for these type cases.

                10 U S C 1408(e)(4)(B) states very clearly that the total amount of disposable pay payable
                under 10 U S C 1408 and 42 U S C 659, "may not exceed 6 5 % of the disposable pay... .
                The IG claims that the use of the word "may" gives DFAS discretion to take less than
                6 5 % when processing court orders under these two laws. A review of the statute and


                                                              3                                  Attachment 1




                                                            38
  DFAS Comments to DoD IG Draft Report, Project No. D2005-D000FC-0264.000,
          "DoD Garnishment Program," dated December 15, 2006.


legislative history make it clear in these circumstances that Congress intended to fence
only 3 5 % of a member's pay. The following legislative history shows without a doubt
that Congress intended to allow the government to pay 6 5 % of the m e m b e r ' s disposable
pay when presented with court orders under these two statutes.

                                     Legislative History

                                         P.L. 97-252

                   Enforcement Limitation for a Portion of Retired Pay

    The committee agreed that some portion of a former military m e m b e r ' s retired or
retainer pay should be sheltered in terms of the Secretaries' concerned enforcement of
court orders in connection with a divorce. Therefore, the committee circumscribed the
authority of the Secretary concerned to prospectively enforce court orders for alimony,
child support and property distribution. N o more than 50 percent of the former m e m b e r ' s
disposable retired or retainer p a y is payable under the enforcement mechanism afforded
to spouses and former spouses under the bill.

  The committee also recognized that in some instances this 50-pcrcent cap could leave
unsatisfied portion of an individual's obligation for alimony, child support or other
payments. The committee firmly believed that the government should assist a former
spouse in the enforcement of these obligations. Such a policy already is embodied in
Section 459 of the Social Security Act (42 U S C Section 659), which permits a former
spouse to garnish up to 65 percent of the disposable earnings of a former military
member to satisfy arrearages in child support or alimony.

—Therefore, the bill includes a provision which limits to 65 percent of the disposable
retired or retainer pay of a member the total amount payable by the Service Secretary
under all court orders pursuant to this bill and all legal processes pursuant to Section 459
of the Social Security Act.

    The committee believes Congress is making a contribution when it assists the former
spouse in obtaining amounts up to this enforcement ceiling of 65 percent of disposable
retired or retainer pay. Moreover, the bill makes it clear that the mere attainment of that
ceiling in no way absolves the former member of still outstanding legal obligations for
alimony, child support or other payments. A n y such unsatisfied obligation may be
enforced b y any means available under law other than those means afforded by this bill
or Section 459 of the Social Security Act. (P. L. 97-252, page 1606)

2c. Accuracy of Disposable Earnings Calculations, Page 5.

The IG states that DRAS did not correctly use deductions for tax, cost of Living
Allowance (COLA) and SBP when computing disposable pay.




                                              4                                    Attachment 1




                                              39
 DFAS Comments to DoD IG Draft Report, Project No. D2005-D000FC-0264.000,
         "DoD Garnishment Program," dated December 15, 2006.


Partially C o n c u r : The December C O L A processing issue involving approximately 400
accounts was already a known problem by D F A S . Garnishment Operations first found
and reported the issue to DRAS in January 2005: The "end of year" C O L A processing
issue was identified each time it occurred; it was reported to retired pay and a manual fix
was accomplished by retired pay. Each recipient was reimbursed for any
over/underpayment experienced. W e were informed by retired p a y that the issue would
he permanently fixed for December 2006 update. This particular issue relating to C O L A
processing was limited to specific scenarios, and did not effect all combination U S F S P A
and garnishment cases.

Garnishment Operations has verified and confirmed that the fix to this issue was
implemented for December 2006 by Lockheed Martin Information Technology (LMIT)
for the DRAS system. The issue has been corrected. See Attachment 5 for examples of
accounts after the successful C O L A processing.

In spite of the fact that the IG was informed of this information, the IG reported 12
accounts with this COLA issue, all of which are calculating correctly after C O L A
processing 2006. These cases are paying correctly and we are not aware of further issues
relating to over or underpayments.

In this same paragraph, the IG claimed disposable earnings were calculated without due
consideration to the Survivors Benefit premium.

2c (1). The IG states that Survivor Benefit Plan (SBP) premium deductions are being
calculated incorrectly.

Non-Concur: Our evaluation indicates premium deductions are calculated correctly.
When the SBP beneficiary information matches the USFSPA claimant information, the
SBP premium m a y be considered as an authorized deduction. The primary matching
field is the annuitant and claimant social security number. If the social security number
doesn't match, then the SBP is not considered an authorized deduction when calculating
USFSPA disposable pay. However, the U S F S P A disposable pay rules for calculating
these accurately use SBP as an authorized deduction when appropriate. Confusion arises
when the SSN of the former spouse through an error does not match up when the system
performs the match even though it is the correct spouse. This could result in the
disposable pay not considering the SBP deduction and result in a small overpayment to
the former spouse.

2c (2). Additionally, the IG found that incorrect disposable pay computation for 8
reserve pay child support cases where the member had Thrift Savings Plan (TSP)
contributions.

Concur: IGS does not have an electronic interface with DJMS/RC. Garnishment
Operations sends deduction worksheets to the various reserve military pay offices for
their input into the GBT system. Based on information received from Military Pay
Operations for Reserve Pay, it is our understanding that the GBT system is not correctly


                                               5                                  Attachment 1




                                            40
                                                                                                    Final Report
                                                                                                     Reference

 DFAS Comments to DoD IG Draft Report, Project No. D2005-DOOOFC-0264.000,
         "DoD Garnishment Program," dated December 15, 2006.



programmed to use TSP as an authorized deduction when computing garnishment
disposable earnings.
                                                                                                    Deleted
2c (3). Finally, in this same paragraph, the IG found that in 38 cases military m e m b e r ' s     Pages 5, 10,
disposable earnings did not take into consideration Family Servicemen's Group Life                  and 12
Insurance.

Non-Concur: There is no regulatory authority for this item to be included in disposable
pay computation for child support payments under 42 U S C §659 and 5 CFR §581.104.
See also Attachment 3 for more information.

2d. IGS Limitations for Manual and Multiple System Payments. Page 6.

2d (1). The IG states that the IGS system does not compile information for manual off­
line payments made by the various pay operations.

Partially Concur: W e are in agreement with the first paragraph; however, the lack o f
information regarding manual payments in IGS is not dispositive. The DFAS pay
systems are the official systems of record of what garnishment payments are made and
when they are made. IGS stores the information fed to it from the D F A S pay systems for
customer service use only. IGS only receives garnishment payment information from
interfaced pay systems. The data is received on an electronic file (continuing disposition
file) and posted to the interfaced transactions. Non-interfaced pay system garnishment
payments can be viewed for each account in the particular p a y system. All payment
tracking information is also accessible in the pay system. The Reserve military pay
system will have a future interface with IGS when the Defense Integrated Military
Human Resource System (DIMHRS) is implemented in spring 2008. It is expected that
The Marine Corps pay system will have a future interface with IGS in late of 2008. The
D R A S retired military pay system for paying Combat Related Special Compensation may
have a future interface, if agreed to between the contractor and D F A S and approved by
the Continuing Government Activity (CGA). With regard to offline payments from any
pay system, there would be no history in IGS, whether interfaced with IGS or not. The
reason for this lack of history is that there is no way to send IGS the information because
the payments are made offline/out of cycle. Finally, there is no need for this information
to b e in IGS because the pay system holds the history of these payments.

2d (2). The IG found in 13 instances that garnishment deductions for the same court
order were taken from the member's pay when h e transitioned from civilian pay to
reserve p a y and back.

Concur: This situation could and does occur at times, when an employee/member is
being paid by two different pay systems (civilian and military). However, it is typically a
temporary situation which lasts at most one or two months. In addition, it is caused b y
the very specific situation of when a civilian employee paid b y DFAS, who is also a
member of the Reserves, is activated and later de-activated. Since there is no interface
between IGS and the reserve military pay systems or between the civilian and military


                                                6                                    Attachment 1




                                               41
 DFAS C o m m e n t s to DoD I G Draft R e p o r t , P r o j e c t N o . D 2 0 0 5 - D 0 0 0 F C - 0 2 6 4 . 0 0 0 ,
            "DoD G a r n i s h m e n t P r o g r a m , " d a t e d D e c e m b e r 15, 2006.



pay systems. Garnishment Operations and the IGS system have no way of knowing when
the member transfers in and out of reserve/guard and active duty. Once w e are notified,
these cases are expeditiously corrected. If duplicate payments are made, the recipient is
instructed to return over payments or the garnishment is suspended until any
overpayment is made up and then the garnishment is restarted as ordered.

2e. I G S G a r n i s h m e n t O r d e r of P r e c e d e n c e . P a g e 6.

The IG found 6 former spouse cases where they considered the order of precedence to be
incorrect.

N o n - C o n c u r : In cases where D F A S is served with an application under the Uniformed
Services Former Spouses' Protection Act (USFSPA) (10 U S C §1408) and subsequently
receives a garnishment action under 42 U S C §659, the law (10 U S C §1408(e)(4)(a))
states that whichever document is received first takes priority.

The actual service date (the date that the order was date-stamped b y the scanner when it
was imaged into the IGARN system) is used w h e n processing orders within IGS. This
date establishes the order of precedence when there are multiple orders. However, this
date is also used for systematic purposes when a single garnishment order contains
multiple "types" of payments. The significance is to allow u s to ensure the various types
of payments are properly deducted in a specific order as well as to establish priority when
there are multiple orders on a single case. There may be instances when the system
contains "service dates" different than the actual date the court order w a s served on
D F A S . However, as long as the service dates entered establish the correct withholdings
priority, the function of the service date is met.


 3. L a c k of S u p p o r t i n g D o c u m e n t a t i o n for G a r n i s h m e n t s . P a g e 6.

  The IG found four (4) garnishment cases on retired pay accounts where the deduction
 was being made but no court order existed in the garnishment imaging system. The
 report states that "DFAS Garnishment Operations did not properly maintain court orders
 during systems transitions."

  C o n c u r : In January 1994, the decision was made to transfer processing of all DoD
  garnishment cases to DFAS-Cleveland. Over the next 18 months, the paper files for the
  currently paying cases were shipped b y the various military and civilian pay offices to
  D F A S Garnishment Operations in Cleveland. During this time, w e moved from a paper-
  based environment to an electronic environment, where all documents are now stored on
  our imaging and workflow system, IGARN. Over the years that have followed the
  transition, we have found that not all cases that were transferred have a court order or
  other documentation that supports the payment. The result is that for some payments
  being made, we do not have written justification on file. However, until now, the specific
  cases involved have only been identified one at a time. A s new documents are received.



                                                                                                          Attachment 1




                                                             42
 DFAS Comments to DoD IG Draft Report, Project No. D2005-D000FC-0264.000,
         "DoD Garnishment Program," dated December 15, 2006.



the cases are reviewed and updated. If the proper documentation is not on file, we
request it from the payment recipient at the time we review the case. The IG identified
some cases where the IGARN system did not contain any documentation for cases that
are currently paying. In response to the finding, we have queried both the IGS system
and the IGARN system to determine how many of these cases exist. The results of the
query indicate there are 2,164 cases that are currently paying where we do not have
supporting documentation in the IGARN system. We will send a letter to the payment
recipient for each of these cases informing them that they must send us a copy of the
legal process that authorizes the payment. W e will give them a period of time to provide
this documentation. If they fail to provide documentation that supports the payment, we
will terminate the payment. It should b e noted that these cases were set up correctly at
some point in time (All of them were processed b y one of the military finance legal
offices who processed garnishments before they were consolidated to DFAS Cleveland.)
and we can reasonably assume, based on the length of time the payments have been going
out and the lack of any inquiries or complaints from interested parties, that they are
paying correctly today.



4. Consistency of IGS Information. Page 6.

The IG found inconsistent information in 8 cases where IGS included combined accounts
with multiple garnishment types into one garnishment.

Non-Concur: On a regular basis, state child support agencies will send a single "Income
Withholding Order" (IWO) to order a variety of payment types. For instance, a support
order may order current support, an amount payable towards arrears and an amount for
fees, yet the IWO will contain a block which gives a "total amount to be paid" by the
employer. It is that amount that D F A S is directed to pay as one payment. The only limes
they would need to be separated are: (1) for allocation calculations, (2) upon request of
the member/employee, and (3) State Standard Disbursing Units (SDUs) which only
accept child support payments and do not process alimony or spousal support.

Clarification of the statement, "IGS included inconsistent court order information for
multiple garnishment orders for 8 of the 286 current and retired D o D employees." is
required. We are unsure what is meant by inconsistent court order information.
Depending on the circumstances involved with a particular case, it can b e proper to
combine ordered amounts in lieu of separating them. A single "Income Withholding
Order" (IWO) may be used b y a support agency to order a variety of payment types. The
I W O also contains a block which gives a "total amount to be paid" b y the employer. It is
legally proper for DFAS to combine the payments contained on that single order into one
payment.




                                             8                                  Attachment 1




                                            43
Final Report
 Reference

                DFAS C o m m e n t s to DoD IG Draft Report, Project No. D2005-DOOOFC-0264.000,
                           "DoD Garnishment Program," dated December 15, 2006.



               5. Adequacy of Garnishment Processing Reviews. Page 7.

               The IG states that DFAS Garnishment Operations did not establish a formal managers'
               internal control program to ensure the accuracy of garnishments.

               Non-Concur: The Internal Management controls in effect are formally conducted and
               approved There is a formal manager's internal control program currently in place. It
               was approved b y the DFAS Internal Review (IR) as part of the Certifying Officer
               Legislation. It is conducted, maintained, reported and documented on a daily and
               monthly basis. The copy of the approved formal manager's internal control program was
               provided to the IG to support the statement.

               5a. Processing Court Ordered Garnishment Amounts and Limitations. Page 7.

               The IG states that DFAS Garnishment Operations inaccurately processed garnishment
               amounts and limitations.

               Non-Concur: This paragraph contains multiple allegations which combine different
               issues that are totally unrelated. To clarify, we will address each issue individually. W e
               disagree with the initial statement that "DFAS Garnishment Operations inaccurately
               processed garnishment amounts and limitations." While no process involving manual
               input can b e 100% accurate, the systems, policies, procedures, and management internal
               controls that we have in place ensure that nearly all cases are entered correctly into the
               pay systems the first time. We are confident that the automated programming in our IGS
               system and the computations performed within the pay systems ensure that the proper
                amounts and limitations, in accordance with the law and regulations are being applied.

Revised        We disagree with the statement that "Garnishment Operations did not update IGS after
page 7         the reprogramming of pay s y s t e m s . . T h e various DFAS pay systems are updated on a
               continual basis. Each system schedules "releases" when changes are implemented. Most
               of these changes do not affect the garnishment process. However, there are some pay
               system changes that require our IGS system to be modified. Specifically, the IGS system
               was updated after the DRAS re-programming and conversion several years ago. In
               addition to updating the IGS system, Garnishment Operations performed a series of
               manual "clean-up " of cases that might have been affected b y the system changes.

                We disagree with the statement that " D F A S Garnishment Operations also improperly
                applied and established internal policies that were inconsistent with 5 C.F.R. Section 581
                (2006) w h e n applying garnishment limitations." Our internal policies are consistent with
                5C.F.R. § 581 (2006).

                We also disagree with the statement that the D R A S system is improperly programmed to
                calculate garnishment amounts for cases involving both property divisions under 10 U S C
                § 1408 (USFSPA) and support garnishment under 42 U S C § 659. It is our legal opinion
                that the D R A S system is properly computing garnishment amounts and all regulatory
                limitations are properly being adhered to. Our legal opinion was supported by the D o D


                                                             9                                  Attachment 1




                                                          44
                                                                                                 Final Report
                                                                                                  Reference

 DFAS Comments to DoD IG Draff Report, Project No. D2005-D000FC-0264.000,
         "DoD Garnishment Program," dated December 15, 2006.


IG Office of General Counsel during our conversation February 7, 2007. Attachment 2
contains the provision from the D o D F M R dealing with the m a x i m u m allowable
percentages that m a y be deducted for cases with both U S F S P A and garnishments.

Examples are attached to support the accuracy of the disposable pay limitations
computations for combination of USFSPA and garnishment cases. (See Attachment 4)

5b. Updating IGS Garnishment Amounts. Page 7.

The report states that DFAS Garnishment Operations did not update the IGS system with
current garnishment amounts after pay system reprogramming.

C o n c u r : As the report notes, prior to January 2004, (The report notes January 2004.        Revised
                                                                                                 Page 7
DRAS pay system did not have the capability to compute the maximum percentage for
garnishments where the retiree did not have sufficient disposable earnings (DE) to pay
the garnishments) in their entirety. Therefore, prior to January 2 0 0 1 , Garnishment
Operations performed manual DE computations for each case and, where the member did
not have sufficient D E to completely pay the ordered amount, w e input a fixed amount
into the system for all garnishments of those retirees' pay. These cases continued to pay
at the fixed amount entered, despite the fact that the retirees' received COLA pay raises
each year. (The result is that these cases paid less than the ordered amount and less than
the maximum allowable percentage.) When the pay system was updated in January 2001
with the capability to compute the maximum allowable percentage, DFAS Garnishment
Operations did not manually convert and enter the garnishment amount along with the
"not to exceed" percentage (NTE) in IGS for these "conversion" cases. All pay system
conversions were completed electronically, using the information from the pay system
and the deduction amounts in the pay system at the time of conversion. By our
estimation, over 100,000 cases were converted, with the majority converting properly.
However, we recognize that there may be a n u m b e r of these conversion cases that did not
convert properly. Therefore, we will develop and implement a plan to review each of
these cases to ensure they are paying properly.

5c. Processing Termination Orders. Page 8.

5c (1). The IG report states that DFAS Garnishment Operations did not process
termination orders when an employee's pay status was inactive in IGS.

Concur: W e are in agreement with the first paragraph. Since 9/11 /2001, the number of
activations of military reserve personnel have greatly increased. A number of these
activated reservists are also federal government civilian employees paid by DFAS. When
they are activated, their civilian pay goes into a "suspended" or "non-pay" status. Any
garnishments in effect on their civilian pay go into an "inactive" status. As an internal
control at the time the interface between IGS and D C P S was designed, a paralegal cannot
effect any changes to garnishments that are in an "inactive" status. This is intended to



                                              10                                  Attachment 1




                                              45
 DFAS Comments to D o D IG Draft Report, Project N o . D2005-D000FC-0264.000,
         "DoD Garnishment Program," dated December 15, 2006.



prevent a paralegal from inadvertently activating an inactive garnishment. However, it
also prevents the paralegal from terminating a garnishment when it is in an inactive
status. (The garnishment is typically transferred to the member/employee's active duty
pay while they are activated.) So, when a termination order is received for a case that is
currently inactive on the civilian pay system due to the m e m b e r being on active duty, the
paralegal must contact the system administrator to manually activate the garnishment in
the IGS system, so it can be terminated. Apparently, some paralegals were not taking this
step to re-activate the garnishment, so they could terminate the case. The result is that
when the member/employee is released from active duty and returns to their civilian job,
the garnishment will again be withheld from their civilian pay. This situation is normally
noted by the member/employee when they view their first Leave and Earnings Statement
(LES) and corrected immediately. We are aware of only one (1) case that was identified
by the IG audit team. Instructions for processing cases of this type are contained in the
IGS Processing Manual. W e will ensure that each of our paralegals are familiar with the
procedures for processing these cases correctly.

5c (2). The IG states that D F A S Garnishment Operations did not process termination
orders within 30 days.

Concur: Both 42 U S C §659 and 5 C.F.R. § 581 specify that legal process for
enforcement of child support obligations should be processed within 30 days of receipt.
The IG report specifically references one (1) instance where D F A S Garnishment
Operations did not process a termination order within that timeframe. It should be noted
that it is our policy, in accordance with the law and regulation, to process all legal process
we receive within 30 days. AH paralegals have been trained and their Performance
Standards include a Critical Element addressing the timely processing of all orders they
receive. The instance noted b y the IG team involved the case of a military reservist. The
IGS system is currently not interfaced with the DJMS-RC pay system. Therefore,
transactions are processed in IGS and an e-mail is sent by the paralegal to the DJMS-RC
pay technicians to input the transactions into the pay system. The termination transaction
in this case was processed in the IGS system, however, the transaction was not input into
the pay system. Therefore, the termination was not processed for approximately four (4)
months. The case was corrected upon notification of the error.

5d. Processing Multiple Family Support Orders. Page 8.

The report states that DFAS Garnishment Operations improperly processed multiple
 family support orders.

 Concur: Allocations are performed on cases where it appears the member/employee
 does not have sufficient disposable earnings to pay all of the child support obligations
 when multiple garnishment orders are received for the same individual. All paralegals
 have been trained that each time there is a change to the child support obligation amount
 on any of the orders where payments are being allocated, the paralegal should re-compute
 the allocation percentages for each of the cases being allocated. Our analysis of the cases



                                                                                   Attachment I




                                             46
                                                                                                            Final Report
                                                                                                             Reference

   DFAS C o m m e n t s to DoD I G Draft R e p o r t , P r o j e c t No. D2005-DOOOFC-0264.000,
              " D o D G a r n i s h m e n t P r o g r a m , " d a t e d D e c e m b e r 15, 2006.


reviewed b y the IG team indicates that this re-allocation of percentages was not
performed on approximately four (4) cases.

5e. E n t e r i n g G a r n i s h m e n t A m o u n t s . P a g e 8.

The report states that D F A S Garnishment Operations incorrectly entered court ordered
garnishment amounts into IGS and that we should review a greater percentage of cases to
prevent these errors.

N o n - C o n c u r : The IG team reviewed a number of cases where paralegals had entered
improper garnishment amounts in the IGS system. However, we disagree that we should
change our percentage of cases reviewed. Garnishment Operations has a manager's
internal control program that includes all the necessary elements outlined in O M B
Circular A-123 and DoD Instruction 5010.40. It is conducted, maintained, reported and
documented on a daily and monthly basis. Processed cases are part of the "random
sampling" of cases that are continually reviewed throughout each month. W e recognize
that the sampling plan will not catch 100% of paralegal errors. However, it is geared to
conducting a regular review where errors are caught and corrected prior to pay
processing. The provisions of A-123 do not require a control program that will eliminate
or catch all errors. Rather, the goal is to have sufficient controls in place in order to
ensure a "reasonable assurance" exists that payments are being m a d e properly. This
assurance is to be achieved within the bounds of what is reasonable for an agency or
operation to do. Increasing the percentage of garnishment cases reviewed, to include
cases where no current transaction has taken place, is, in our opinion, not within the
bounds of what is reasonably achievable considering the resources available.

5f. A p p l y i n g M a x i m u m G a r n i s h m e n t L i m i t a t i o n s . P a g e 9.

5f (1). The report states that D F A S Garnishment Operations improperly applied 5 CFR                      Deleted,
§581.402.                                                                                                   Renumbered
                                                                                                            and Revised
Partially C o n c u r : The IG Report references "Garnishment Operations Policy Letter 8,
                                                                                                            Pages 8, 15,
C C P A Percentages in Child Support Cases," June 1997. This policy letter is no longer in
                                                                                                            and 16
effect as all policy letters were re-issued with a modified numbering system in August
2000. Some of the provisions in Policy Letter 8 were implemented in Policy Letter 2-9
(July 2002). The report alleges that Garnishment Operations has inconsistently applied
the rules for the maximum allowable percentages that may be garnished, as stated in 15
U S C 1673, the Consumer Credit Protection Act (CCPA) and 5 C.F.R. §581.402. While
we agree that some paralegals m a y have incorrectly entered the maximum percentages on
some cases, these cases would be an indication of individual errors, rather than faulty
policy.

5f (2) and 5f (3). The report states that Garnishment Operations established internal
policies that were inconsistent with Federal regulations.




                                                               12                            Attachment 1




                                                               47
Final Report
 Reference

                D F A S Comments to DoD IG Draft Report, Project No. D2005-D000FC-0264.000,
                           "DoD Garnishment Program," dated December 15,2006.


               Non-Concur: This finding includes a misstatement of the law regarding m a x i m u m
               percentages that may be garnished from an employee/member's pay. The federal
               limitations of 5 0 % or 60%, specified in 15 U S C § 1673, the Consumer Credit Protection
               Act (CCPA), are the default percentages for current support unless the State sending the
               order has specified a lower maximum percentage on the face of the order. Garnishment
               Operations will process an order to the C C P A percentages unless the order contains a
               percentage lower than the federal maximum. The Child Support Enforcement Agencies
               (CSEAs) that issue the orders are very familiar with both their State maximums and the
               federal maximum percentage. Garnishment Operations policy as stated in Policy Letter
               2-9, Support Orders and CCPA Limits, July 2002, is that when an order is received where
               the issuing agency has specified a percentage which includes the additional 5 % that is
               authorized when a case is over 12 weeks in arrears, ( 5 5 % or 65%) we will pay the
               percentage specified in the orders. W e consider the specification of that greater
               percentage in the order to be the "other acceptable evidence" required by the regulation.
               See 5 C.F.R. § 581.202(e). This procedure is part of the paralegal training. The block on
               the face of the standard child support order form which allows the indication that the
               order is for arrears over 12 weeks, is frequently not used b y the States. Therefore, w e
               have determined that having that block checked (or not) is not the best indication of
               whether or not the case includes arrears over 12 weeks. Rather, relying on the percentage
               that the order asks us to pay is a better indication of whether the arrears are over 12
               weeks. Based on this analysis, we pay the percentage specified in the order.


               5f (4). The report states mat Garnishment Operations Policy Letter 2-9 improperly
               directed paralegals to process orders that identified only current support to be paid at 5 5 %
               or 6 5 % if the percentage was specified in the order.

               C o n c u r : The report correctly identifies Garnishment Operations policy regarding paying
               cases where the order specifies 5 5 % or 6 5 % , despite the fact that the order indicates that
               the payment amount is for current support only. Our rationale for this policy was similar
               to that used in the scenario regarding the additional 5 percent in our response to
               Paragraph 2 above, that the percentage specified in the order is the best evidence of what
               is being collected. However, after reconsideration, the logic that we applied to the
               deducting of the additional 5% when arrears are indicated, does not apply to the situation
               where the order specifies only an amount for current support. We will modify Policy
               Letter 2-9 to remove the instruction on this issue.

               5g. Programming Garnishment Limitations in D R A S . Page 9.
Deleted
Pages 5, 7,    The report states that DFAS Retired and Annuitant Pay improperly programmed the
9, and 12      D R A S system to calculate payments for combined USFSPA and garnishment cases to use
               6 5 % of disposable pay.

               Non-Concur: The DoDFMR, Volume 7B, Chapter 29, Section 2908, LIMITATIONS
               provides that up to 6 5 % of the member's disposable p a y is available when deducting for
               amounts pursuant to a request from a former spouse for payments under 10 U S C § 1408


                                                              13                                  Attachment 1




                                                            48
 DFAS Comments to DoD IG Draft Report, Project No. D2005-D000FC-0264.000,
         "DoD Garnishment Program," dated December 15, 2006.


(USFSPA) and a garnishment for support under 42 USC § 659. See Attachment 2 for a
copy of this provision. The D R A S pay system calculates the percentage and maximum
dollar amount available, but will not deduct more than what the transaction dictates from
IGS. The statement in the report. " . . .DRAS was programmed to automatically apply the
65 percent ceiling even though IGS included lower percentages" does not accurately
reflect how disposable pay limitations are calculated for combination U S F S P A and
garnishment cases. The system will initially compute disposable p a y (DE) for the case
that has priority, then re-compute disposable pay for the second case. So, if the U S F S P A
case has priority, DRAS will compute DE based on the rules specified for that type case.
Then after the amount of the U S F S P A payment is computed, the system will re-compute
the available DE for the garnishment case, based on the garnishment D E rules. In no
instance, will the combination of these two computations exceed the maximum allowable
percentage of 6 5 % . It is our legal opinion that the system is currently computing D E
correctly and that we have adhered to all regulatory requirements and limitations.


5h. Calculating Disposable Earnings. Page 10.

5h (1). The report states that D F A S pay systems improperly calculate disposable
earnings.

Concur: This issue was identified prior to the audit. The DRAS system was modified to
correct the issue with regard to C O L A processing. D R A S now correctly calculates
disposable earnings for U S F S P A cases and garnishments taking into consideration the
cost of living allowance (COLA). The end-of-year issue was identified by Garnishment
Operations during COLA processing. COLA's themselves were always accurately
calculated correctly and applied to each transaction. The disposable pay calculation issue
was identified during the C O L A processing and was fixed by L M I T in time for the
December 2006 COLA.

5h (2). The report states the D R A S system inconsistently applied the tax withholding
rules when computing disposable earnings for USFSPA cases where additional tax
withholding had been authorized by Garnishment Operations

Concur: This issue was known to us prior to the audit and had been previously
addressed through manual system interventions (fix-its). It involved a limited number of
accounts where Garnishment Operations had authorized additional tax withholding.
These accounts were corrected after the situation was noted. LMIT has initiated an
automated system change to correct this problem in the future. The change will be
implemented February 20, 2007.

5h (3). The report states that D R A S did not properly compute disposable earnings with
consideration for the SBP premium.

Partially Concur: See response to 2c (1).




                                              14                                  Attachment 1




                                             49
Final Report
 Reference

                 DFAS C o m m e n t s to D o D I G Draft R e p o r t , P r o j e c t No. D2005-D000FC-0264.000,
                            " D o D G a r n i s h m e n t P r o g r a m , " d a t e d D e c e m b e r 15, 2006.


               5h (4). The report states that D R A S is using improper disposable earnings computations
Deleted        when computing former spouse payments.
Pages 5, 10,
and 12         N o n - C o n c u r : USFSPA payments were accurately computed b y the D R A S system using
               the correct former spouse computations.

               (See Attachment 5 for examples)

               5h (5). The report states that the A G S system (active duty military) and the GBT system
               (reserve military) are not properly computing disposable earnings by failing to use
Revised        FSGLI, TSP and some miscellaneous debts as authorized deductions.
Pages 5, 10,
and 12         Partially C o n c u r : The A G S system is properly computing disposable pay in accordance
               with the law and regulations. The GBT system is not computing disposable earnings
               using TSP as an authorized deduction. W e are addressing this issue with the systems
               manager.

               (See items 2c (2) and 2c (3) for discussion of TSP and FSGLI). (See Attachment 3 for
               DoDFMR provisions dealing with Family Servicemembers' Group Life Insurance and
               miscellaneous debt deductions.)

               5i. IGS Capabilities for M a n u a l a n d multiple System P a y m e n t s . P a g e 11.

               5i (1). The report states that the IGS system is not interfaced with all p a y systems.

               C o n c u r : The finding correctly identifies that the IGS system is not interfaced with all
               DFAS pay systems. The reserve component military pay system (DJMS-RC) is not
               interfaced. In addition, the Marine Corps Total Force System (MCTFS) is not currently
               interfaced. The DJMS-RC, as well as DJMS-AC (active component) pay systems are
               considered to be "legacy systems." Therefore, no further major changes are being
               performed on these systems, including any interfaces. DFAS and DoD are currently
               developing the Defense Integrated Military Human Resources System (DIMHRS), which
               will contain an interface with IGS. D I M H R S will take over the pay functions currently
               being performed by both the D J M S - A C and D J M S - R C systems. It is scheduled for
               implementation some time in CY 2008. An interface between the IGS system and
               M C T F S is currently in the planning phase and implementation is planned for late CY
               2008.

               5i (2). The report states that within the IGS system there is no capability to combine
               garnishments being deducted from multiple pay systems.

               Non-Concur:    An example of this is if an individual who is both a DoD civilian
               employee and a military reservist has a child support garnishment against his pay. If he
               does not have sufficient disposable p a y in his civilian pay to pay the entire ordered
               amount, the remainder would be deducted from his reserve military pay. (The majority
               of the funds would be deducted from the civilian pay in this scenario because that is


                                                                15                                        Attachment 1




                                                               50
  D F A S C o m m e n t s to DoD I G Draft R e p o r t , Project N o . D2005-D000FC-0264.000,
                " D o D G a r n i s h m e n t P r o g r a m , " dated D e c e m b e r 15, 2006.


typically the source of greater income available for garnishment.) In this instance,
Garnishment Operations would request a disposable pay computation from the D C P S pay
system technicians. Once a response is received, a fixed amount would be computed for
the maximum amount that could be deducted from the employee/member's civilian
disposable pay. That remainder amount would then b e entered as a deduction to the
member's reserve military pay. In this maimer, Garnishment Operations computes the
amounts to be deducted from each of the pay systems. It is our belief that there is no
need for the system to reconcile these cases as the total amount entered in the two
systems has been computed so that if the total amount entered into both systems were
deducted, only the total amount ordered would be paid. The paralegals have been
trained in the proper manner to input these cases and the instructions are contained in our
IGS Manual.

5i (3). The sub-finding specifies: " D F A S Garnishment Operations could not identify
when employees had duplicate garnishments deducted from their earnings."

Partially C o n c u r : While we concur with this statement as it applies to a very specific
limited situation, we disagree with it as a general statement regarding our capabilities.
Our agreement is in reference to cases where an individual who is a DoD civilian
employee and also a military reservist is activated and then de-activated as in finding 5c
(1) above. When the member is activated, his civilian pay stops and his pay account is
placed in an "inactive" or "suspended" status. If there is a garnishment on his civilian
account, it also goes into an "inactive" status. Since there is no notification to
Garnishment Operations of a m e m b e r ' s activation through the pay systems, we are
typically notified either by the member or by the support agency or the payment recipient
that the member has been activated. Once notified, Garnishment Operations would enter
the garnishment into the m e m b e r ' s active duty pay. The issue arises when the m e m b e r is
de-activated. Since there is no mechanism to notify Garnishment Operations when a
member is de-activated, the garnishment will continue to be paid from the member's
military pay after the member is de-activated, if they earn reserve pay. (This will only
occur for A r m y and Air Force reserve members as their pay accounts are paid from the
D J M S - R C pay system while they are activated. These accounts are not transferred to the
D J M S - A C system upon activation.) In turn, when the member resumes their civilian job
and receives pay, the garnishment that was inactive will again begin to pay. This could
cause a partial overpayment during their initial pay period when the employee returns to
active pay status as a civilian employee as funds are withheld from both the civilian and
military pay. However, this situation does not occur in every instance. If Garnishment
Operations is notified of the member's deactivation by any of the involved parties, we
will terminate the deductions from the member's military pay prior to any overpayment
occurring. If a partial overpayment occurs, it is normally noted by the member during the
first month of payment and corrected immediately.




                                                16                                   Attachment 1




                                               51
   D F A S Comments to DoD IG Draft Report, Project No. D2005-D000FC-0264.000.
              "DoD Garnishment Program," dated December 15, 2006.


 5j. Modification of Garnishment Order of Precedence. Page 11.

 The IG report states DFAS Garnishment Operations improperly modified the
 garnishment order of precedence for several retired military members.

 N o n - C o n c u r : This scenario arises when a single claimant has an order in effect for
 payments pursuant to the USFSPA and a garnishment for payment of child support
 against a military retiree's pay. These cases involve orders for support that are not being
 paid to a Child Support Enforcement Agency (CSEA) or other intermediary. The
 payments are going directly from D F A S to the custodial parent. When the child support
 garnishment was served prior to the U S F S P A application, the garnishment would be
 satisfied first, prior to any funds being deducted toward a property division under the
 USFSPA. This is in accordance with the provision in D o D F M R Volume 7B. Chapter 29,
 Section 291105 which specifies that when multiple court orders are served on a retiree's
 pay account, they will be satisfied on a "first-come, first-served" basis. This provision is
 to ensure that when multiple claimants are involved, they are paid their appropriate
 portion of the available disposable p a y on the basis of when their claim is received by
 DFAS. However, when the claimant on both orders is the same individual, this
 provision, in our view, is not applicable. W e have always interpreted this provision as
 not applying when the payee is the same former spouse. A problem would arise for the
 claimant when the child support case maintains priority because they are typically not
 receiving the full amount of their property division payments under the USFSPA. There
 are no provisions in the USFSPA that allow D F A S to pay any arrearage amounts on
 property divisions. Thus, if a former spouse claimant does not receive these payments
 directly from DFAS at the time the member is paid, the claimant will be forced to seek
 some alternative enforcement through the courts or lose their opportunity to receive those
payments. Conversely, child support payments not paid at the time they are due continue
as arrearages until they are paid. The claimant could go back to court to correct the
priority issue. They could have the court issue a termination order for the child support
payments, serve it on DFAS, which would then place the U S F S P A payment in first
priority, and then go back to court and have another garnishment order for child support
issued by the court. Once this order is served on D F A S , the priority order would be as
they desire. However, as a service to our customers and to save them court expenses they
would incur by going to court to have their support garnishment stopped and then
immediately restarted again, we have implemented a policy to allow a former spouse in
this situation to change the priority of payments without going back to court. The
Garnishment Operations procedure requires the claimant provide a written request to us
to change the priority. We would then act on their request and change the priority so that
the property division payments under the U S F S P A have precedence over the child
support payments. By changing the order of precedence to pay the property division first,
the claimant will receive the maximum amount they can receive from DFAS under the
USFSPA, The unpaid amount of child support will then accumulate until they are
collected through other means. By allowing the payment recipient to change the order of
precedence, we are providing a customer service to these "dual recipients" of community
property and child support.



                                             17                                 Attachment 1




                                             52
                                                                                               Final Report
                                                                                                Reference

  DFAS Comments to D o D IG Draft Report, Project No. D2005-D000FC-0264.000,
          "DoD Garnishment Program," dated December 15, 2006.




5k. Maintaining Garnishment Documentation. Page 11.

The report States that DFAS Garnishment Operations did not properly maintain orders
during system transitions

C o n c u r : See Response to Item 3 above.

51. Processing Court Orders Consistently. Page 11.

The IG states that DFAS Garnishment Operations did not establish standard policies and
procedures for processing multiple garnishments.

Non-Concur:     Our understanding is that the report is referring to the situation where w e
receive more than one order for payments from the pay of a single employee/member.
This is a common situation where an individual owes child support for children that are
members of different families, who sometimes reside in different States. W e call these
"allocation" cases because the employee/member does not have enough disposable pay
for DFAS to pay the entire ordered amount of one or more of the orders. This portion of
the available disposable pay must be prorated for each of the orders. The IG team
referenced the Paralegal/Customer Service Reference and Training Manual, December
1998, in their finding. Our policies and procedures for processing allocation cases are not
found in this manual. We developed an Excel Worksheet (allocation worksheet) that aids
the paralegals in processing the correct prorated percentage of disposable pay for each of
the orders. In addition, all paralegals have been uniformly instructed by their team
supervisors and the team attorneys on the proper use of the allocation worksheet. The
procedures are documented within the IGS User Manual.



6. Garnishment Deductions. Page 12.

The IG states that " D F A S improperly garnished approximately S10 million,"                  Revised
                                                                                               Pages 4 and
Non-Concur: The $10 million figure was computed using the alleged amounts of                   11
"improper" garnishment payments made by D F A S during 2005 for the 292 cases they
reviewed and multiplying that figure out based on the total number of active cases for
which DFAS is making payments. Based on our analysis of the cases in the sample and
our interpretation of the laws and regulations which govern the manner in which we
perform our duties, we estimate that we made "improper" payments of approximately
$16,900. This is in strong contrast to the IG team's findings of approximately $172,000
of "improper" payments for the cases they reviewed in their sampling. By our
calculation, they have alleged "improper" payments over ten times their actual amount.




                                              18                                Attachment 1




                                              53
  DFAS Comments to DoD IG Draft Report, Project No. D2005-D000FC-0264.000,
          "DoD Garnishment Program," dated December 15, 2006.


7. Recommendations. Page 12.

Recommendation A . l . We recommend that the Director. Defense Finance and
Accounting Service, establish a formalized managers' internal control program for the
garnishment process in accordance with applicable management control regulations.

Management Comments. Non-Concur. (See finding 1.) D F A S Garnishment
Operations has a manager' s internal control program currently in place. It contains a
number of reviews and other actions designed to ensure that garnishments are processed
in accordance with the laws and regulations. It is conducted, maintained, reported and
documented on a daily and monthly basis. The following outlines some of the formal
Internal Controls that are in place. A description of the remainder of internal controls we
have in place is contained in Attachment 9:

ISSO completes a monthly Review of User Accesses used b y Garnishment Operations.
These include:
DynaComm
IGS
IGARN

ID and Password are required for access to all Garnishment Operations related
applications.
IGARN is accessed by CAC card.
IGS is accessed by valid password parameters which expire every 90 days.
DynaComm is accessed by valid password parameters which expire every 90 days.

A random sampling of cases for review is taken from the following monthly reports. (See
Attachment 6 for a description of the sampling program):
Report of all System Administrator transactions.
Report of all Attorney transactions.
Report of all Supervisor transactions.

Daily Case Reviews. (See Attachment 7):
100% of all phone logs created in IGARN/Electronic Document Management (EDM) are
reviewed b y the team Supervisor.
1% of all processed documents are reviewed by the team Supervisor.

In addition, Attachment 8 provides the narrative for the Random Sampling and Review
Processing of Garnishments for Military, Retired and Civilian Pay Systems.
They include:
Monthly Pre-Payment Sampling Plan
Quarterly Pre-Payment Sampling Plan
Post-payment Systematic Comparison.

Estimated Completion Date. Not Applicable.



                                            19                                 Attachment I




                                            54
                                                                                              Final Report
                                                                                               Reference

  D F A S Comments to DoD IG Draft Report, Project No. D2005-D000FC-0264.000,
             "DoD Garnishment Program," dated December 15, 2006.




Recommendation A.2.a. We recommend that the Director, Defense Finance and
Accounting Service, modify the Defense Retiree and Annuitant Pay System to ensure
proper application of annual cost of living adjustments and lesser of the tax withholding
or authorization amount when calculating disposable earnings.

Management Comments. Concur. (See findings 2c and 5h (2).) D F A S was aware of
this issue prior to the audit. The calculation for disposable earnings for certain accounts
was found to be incorrect based on the aforementioned deductions; however, the effected
accounts were limited to a specific population and scenario. The calculation error
occurred when a retired member had both a former spouse deduction as well as a
garnishment deduction in place on his/her account. The retired pay system was
programmed to recompute disposable earnings after a change was entered that would
effect either a former spouse or garnishment account; however, when an account had both
of these types of deductions it was found that a comparison, a third recomputation, was
necessary to effectively capture all of the updated data after each individual disposable
earnings calculation was performed. The error occurred during the end-of-year cost of
living adjustment and/or in those situations where the account involved applying the
appropriate tax (es) to be used in the calculation of disposable earnings. The problem
identified through the audit is twofold from a system/correction perspective, one being
the calculation of disposable earnings regarding the cost of living adjustment and the
second being the calculation of disposable earnings regarding taxes.

The system change request, SCR 2551, to have the disposable earnings calculation
corrected regarding the cost of living adjustments, was addressed in a White Paper
written in October 2006. This calculation correction was moved into the Retired Pay
production atmosphere on December 1, 2006. The cost of living adjustment run took
place on December 2, 2006, and the accounts previously affected by this occurrence are
now computing disposable earnings correctly.

The system change request, SCR 2577, to have the appropriate add tax deduction applied
during disposable earnings calculation is being addressed in a White Paper written
December 16, 2006. This calculation correction is currently in the requirements and
programming stage. Once the programming effort for this correction has been completed
and testing effort and results have met C G A approval, the correction will be scheduled
for implementation, which is estimated for February 20, 2007.

Estimated Completion Date. August 1, 2007.


Recommendation A.2.b. We recommend that the Director, Defense Finance and                     Deleted
Accounting Service, modify the Defense Retiree and Annuitant Pay System to ensure that        Pages 5, 7,
the Defense Retiree and Annuitant Pay System does not automatically apply the                 9, and 12
maximum garnishment limitation of 65 percent w h e n calculating garnishment amounts



                                           20                                 Attachment 1




                                            55
Final Report
 Reference

                DFAS Comments to D o D IG Draft Report, Project No. D2O05-D000FC-0264.0OO,
                        "DoD Garnishment Program," dated D e c e m b e r 15, 2006.


               for retired military employees with combinations of support order(s) and F o r m e r Spouse
               Act court order(s).

               Management Comments. Non-Concur. (See finding 2b (2) and 5g.) W e take legal
               exception with the recommendation. All statutory and regulatory limitations are adhered
               to. This issue was discussed at length with the D o D IG/OGC during a teleconference on
               February 7, 2007. Agreement was reached that DFAS is processing these cases properly.
               (See Attachment 2 for Disposable Pay Calculation Limitations) Based on these
               discussions, we request that this recommendation and the related findings be r e m o v e d
               from the report.

               We have attached copies of some cases sited on the list and provided an analysis of the
               calculations used to compute the payments. (See Attachment 4) D R A S currently
               processes disposable pay accurately.

               Estimated Completion Date. Not Applicable.


               Recommendation A.2.C. We recommend that the Director, Defense Finance and
Deleted        Accounting Service, modify the Defense Retiree and Annuitant Pay System to ensure that
               the Defense Retiree and Annuitant Pay System use the Former Spouse Act disposable
Pages 5, 10,
               earnings when calculating former spouse amounts.
and 12
               Management Comments. Non-Concur. (See findings 2, 2b (1), 2c, and 5h (4).)
               DRAS currently processes the disposable pay accurately pursuant to Title 10 U S C §1408.
               In none of the cases referenced within the report, did the former spouse payment exceed
               5 0 % of USFSPA disposable pay.

               Estimated Completion Date. Not Applicable.


               Recommendation A.3. W e recommend that the Director, Defense Finance and
               Accounting Service, modify the Automated Garnishment System disposable earnings
               calculation to include Family Servicemembers' Group Life Insurance and some
Revised
               miscellaneous debts as deductions.
Pages 5, 10,
and 12         Management Comments. Non-Concur. (See findings 2c (3) and 5h (5).) Family SGLI
               is specifically not listed as an authorized deduction for calculating disposable pay for
               Garnishment under 42 U S C §§659 and 665. This issue was discussed at length with the
               DoD IG/OGC during a teleconference on February 7, 2007. Agreement was reached that
               Family SGLI is not an authorized deduction and that DFAS is processing these cases
               properly. Based on these discussions, we request that this recommendation and the
               related findings be removed from the report.




                                                            21                                 Attachment 1




                                                           56
                                                                                              Final Report
                                                                                               Reference

 D F A S Comments to DoD I G Draft Report, Project No. D2005-D000FC-0264.000,
            "DoD Garnishment Program," dated December 15, 2006.


All miscellaneous debts are not authorized deductions. DFAS is using the appropriate
miscellaneous debts as authorized deductions in accordance with the DoDFMR, Volume
7A, Chapter 50, Section 5002. The D J M S pay system has been programmed to u s e the
specified miscellaneous debts as deductions when computing disposable pay.

(See Attachment 3 for Family Servicemembers Group Life Insurance and Miscellaneous
Debt Deductions)

Estimated Completion Date. Not Applicable.


Recommendation A.4. We recommend that the Director, Defense Finance and
Accounting Service, modify the Pay Garnishment Bankruptcy Taxes System disposable
earnings calculation to include Thrift Savings Plan contributions as a deduction.

Management comments. Concur. (See findings 2c (2) and 5h (5).) From the current
information we have received from the D F A S Indianapolis Center, the Garnishment
Bankruptcy Tax System in Indianapolis (this system is used in the processing of cases in
the reserve military pay system) is not using TSP as an authorized deduction when
computing garnishment disposable earnings (DE). We will coordinate with the D J M S -
RC system manager to determine the appropriate systems change.

Estimated Completion Date. April 1, 2008.


Recommendation B . l . We recommend that the Assistant General Counsel for                    Revised
Garnishment Operations, Defense Finance and Accounting Service, revise all 206 current        Pages 4, 5,
and retired DoD employees' accounts with accurate information to calculate garnishment        and 13
amounts. Additionally, notify the current and retired DoD employees w h e n an incorrect
amount was garnished by annotating their leave and earning statement or by sending a
letter.

M a n a g e m e n t Comments. Non-Concur. Garnishment Operations does not agree there
were 206 accounts with inaccurate information to calculate the garnishment amounts. In
reviewing of all the garnishment accounts referenced within the report, Garnishment
Operations summarized findings in Attachment 2 for Disposable Pay Calculation
Limitations.

W e have attached copies of some cases sited on the list and provided an analysis of the
calculations used to compute the payments. (See Attachment 4) DRAS currently
processes disposable pay accurately.

In reviewing of the active duty garnishments referenced within the report, Garnishment
Operations found that disposable p a y was accurately computed. Family SGLI is not an
authorized deduction. This issue was clarified and agreed upon during the February 7,



                                            22                                 Attachment 1




                                            57
   DFAS Comments to DoD IG Draft Report, Project No. D 2 0 0 5 - D 0 0 F C - 0 2 6 4 . 0 0 0 ,
           "DoD Garnishment Program," dated December 15, 2006.


 2007 meeting between D F A S representatives and the DoD IG O G C . Based on those
 discussions, this recommendation should be removed. (See response to Recommendation
 A3 above for a discussion of this issue.)

 With regard to the Miscellaneous deductions, there was no detail provided within the IG
 report to detail what type of Miscellaneous deductions were not being appropriately used
 when calculating disposable pay. Based on our review of the cases provided, D F A S
 systems are appropriately using miscellaneous debts as deductions when computing
 disposable earnings in accordance with the DoDFMR. (See Attachment 3 for references
 regarding Family Servicemembers Group life Insurance and Miscellaneous Debt
 Deductions.)

 From the information provided to Garnishment Operations Directorate, TSP is being used
 as an authorized deduction when calculating disposable pay for all active duty military
 garnishment accounts, Air Force Reserve/Guard, Navy Reserve/Guard and Marine Corp
 Reserve/Guard.

TSP not being used as an authorized deduction was found to only affect the A r m y
Reserve/Guard member's. Notification has been sent to the System Manager Office to
address this issue.

The IG team referenced 5 cases with this issue. Three of the 5 had no impact on the
garnishment amount being withheld. The remaining two fluctuated impact, depending on
how often the member drilled throughout the month.

Estimated Completion Date. Not Applicable.


Recommendation B.2. We recommend that the Assistant General Counsel for
Garnishment Operations, Defense Finance and Accounting Service, increase the monthly
review of new garnishment cases and existing cases requiring adjustment and establish a
review process for garnishment cases not requiring adjustments.

Management comments. Concur. (See findings 1, 5 and 5e.) There is a formal
manager's internal control program currently in place.

There is currently a random sampling compiled daily (See Attachments 7, 8 and 9) that
consists of:
100% of all phone logs created in IGARN/EDM are reviewed b y the team Supervisor.
1% of all processed documents are reviewed by the team Supervisor.
Monthly Pre-Payment Sampling, Post-payment Systematic Comparison and the
Quarterly Pre-Payment Sampling.

We will work with DFAS Internal Review (IR) to review our random sampling process
and make appropriate adjustments to include a review of a sampling of cases that have
not required adjustments.


                                             23                                  Attachment 1




                                              58
 DFAS Comments to DoD IG Draft Report, Project No. D2005-D000FC-0264.000,
         "DoD Garnishment Program," dated December 15, 2006.




Estimated Completion Date. August 1, 2007.


Recommendation B.3. We recommend that the Assistant Genera] Counsel for
Garnishment Operations, Defense Finance and Accounting Service, review all cases
identified as " C O N " within the Integrated Garnishment System and update applicable
garnishment information.

Management Comments. Concur. (See finding 5b.) There are approximately 38,000
converted accounts that have not had a subsequent action posted on the account since the
conversion date. (Several conversions have taken place, including the D R A S / I G S system
interface conversion in Jan 2001 and the DJMS/IGS interface conversion in March 2004.)
DFAS Garnishment Operations will compile a listing of the cases that have not yet been
reviewed. We will develop a plan for reviewing these cases to ensure that all conversion
cases will eventually be reviewed.

Estimated Completion Date: April 1, 2008


Recommendation B.4. We recommend that the Assistant General Counsel for
Garnishment Operations, Defense Finance and Accounting Service, provide training to
ensure appropriate and timely termination of garnishments.

Management comments. Concur. (See findings 5c (1) and 5c (2).) Our policies and
procedures require processing of terminations in a timely manner. We will increase the
frequency of paralegal remedial training and re-emphasize the importance of processing
all transactions within the appropriate time limitations.

Estimated Completion Date. August 1, 2007.


Recommendation B.5. We recommend that the Assistant General Counsel for
Garnishment Operations, Defense Finance and Accounting Service, review all multiple
family support orders to update allocation percentages within the Integrated Garnishment
System.

Management Comments. Partially Concur. (See finding 5d.) In our review of the list
of cases provided from the IG, we found several instances where the paralegal failed to
follow established allocation procedures. This is a training issue that will be addressed.
We will conduct remedial training for all paralegals on the proper procedures to follow
when processing these cases. In addition, we will increase the percentage of these cases
that are reviewed by the supervisors during our monthly Certifying Officer Legislation
(COL) Review.




                                             24                                  Attachment 1




                                            59
Final Report
 Reference

                 DFAS Comments to DoD IG Draft Report, Project No. D2005-D000FC-0264.000,
                         "DoD Garnishment Program," dated December 15, 2006.


               Estimated Completion Date. For training: August 1, 2007. Case reviews: Ongoing.


               Recommendations B.6.a, B.6.b, and B.6c. We recommend that the Assistant General
Deleted,       Counsel for Garnishment Operations, Defense Finance and Accounting Service, revise
Renumbered     and implement the Defense Finance and Accounting Service Garnishment Operations
, and          Policy Letter 8, " C C P A Percentages in Child Support Cases," June 1997 to: Ensure
Revised        consistent processing of support orders by applying the lesser of the Federal or court
               ordered maximum garnishment limitation. Establish that arrearages must be 12 or more
Pages 8, 15,
               weeks in order to increase the maximum garnishment limitation b y 5 percent. Define
and 16         "other acceptable evidence" for establishing the arrearage is over 12 weeks.

               Management Comments. Partially Concur. (See findings 5f (1), 5f (2), 5f (3) and 5f
               (4).) The policy letter referenced in the report is no longer in effect. Policy Letter 2-9
               (July 2002) superseded the information contained in Policy Letter 8. The report
               recommends in Recommendation 7 below that Garnishment Operations rescind Policy
               Letter 2-9. W e will contact the Federal Office of Child Support Enforcement (OCSE)
               regarding the policy stated in the second section of Policy Letter 2-9 which instructs
               paralegals to increase the m a x i m u m percentage limitation for cases where the order
               specifies 5 5 % or 6 5 % , but only indicates the order is for current support. In addition, we
               will clarify the paragraph regarding the 12 weeks issue discussed in this recommendation.

               In our meeting with the DoD IG audit team leader, the DoD IG OGC attorney, DFAS
               General Counsel and Garnishment Operations personnel on February 7, 2007, we
               discussed the issue of when it is proper for D F A S to allow the maximum percentage to
               increase by 5 percent to 5 5 % or 6 5 % . We agreed to clarify a definition of "other
               acceptable evidence" to ensure understanding and consistent processing by the
               paralegals. The discussion below describes the situation in detail and describes our
               rationale for this approach:

               5 C.F.R. Section 581.202(e) states: "In order for the party who caused the legal process to
               be served to receive the additional five (5) percent provided for in either Section
               581.402(a) or (b), it must appear on the face of the legal process that the process was
               brought for the enforcement of a support order for a period which is twelve (12) weeks in
               arrears, or a certified copy of the support order, or other evidence acceptable to the head
               of the governmental entity, establishing this fact, must be submitted." The C.F.R. also
               states in Section 581.402(2):"...an additional 5 percent will apply if it appears on the face
               of the legal process, or from other evidence submitted in accordance with 581.202(d),
               that such earnings are to enforce a support order for a period which is 12 weeks prior to
               that work-week." There are two indications on the face of the standard form Income
               Withholding Order (IWO) that indicate that the order is to enforce an obligation that is 12
               weeks or greater in arrears. The first is that the agency who submits the order to us
               specifies that the order should be enforced at 6 5 % of the obligor's disposable pay. The
               second is that the agency checks a block on the form which states: "Arrears greater than
               12 weeks? Yes         No    ." If the agency preparing the order would both specify the



                                                            25                                   Attachment 1




                                                             60
 D F A S C o m m e n t s to D o D I G Draft R e p o r t , P r o j e c t No. D2005-DOOOFC-0264.000,
               " D o D G a r n i s h m e n t P r o g r a m , " d a t e d D e c e m b e r 15, 2006.


additional percentage and check the "Yes" block indicating the arrears are greater than 12
weeks, there would be no question as to their intention to enforce the order at 6 5 % .
However we have found that the common practice among the States is to specify the
additional percentage without checking the " Y e s " block. In fact, the common practice is
to not check either the " Y e s " or " N o " block. Several years ago, we questioned several of
the States about this practice. The response we received was that they do not use the
" Y e s " and " N o " blocks. They informed us that their indication on the form that w e
should deduct 5 5 % or 65% is their certification that the order is for arrears greater than
12 weeks. We have accepted their specification of 5 5 % or 6 5 % as information contained
on the face of the document that indicates the arrears are 12 weeks or greater. Therefore,
we have not considered it as "other acceptable evidence," rather; it is information on the
face of the IWO that establishes the fact. However, we will modify our policy letter 2-9
to clarify this explanation-
E s t i m a t e d Completion D a t e . August 1, 2007.



R e c o m m e n d a t i o n B.7. W e recommend that the Assistant General Counsel for
Garnishment Operations, Defense Finance and Accounting Service, rescind the Defense
Finance and Accounting Service Garnishment Operations Policy Letter 2-9, "Support
Orders and C C P A Limits," July 2002.

M a n a g e m e n t C o m m e n t s . Partially C o n c u r . (See finding 5f (4).) As discussed in
Recommendation 6 above, we will contact the Federal Office of Child Support
Enforcement (OCSE) regarding the policy stated in the second section of Policy Letter 2¬
9 which instructs paralegals to increase the maximum percentage limitation for cases
where the order specifies 5 5 % or 6 5 % , but only indicates the order is for current support.
This policy was instituted at the time when a number of States had begun combining all
ordered amounts into one total, without breaking out the amounts for current support and
arrears.

E s t i m a t e d Completion D a t e . August 1, 2007.


R e c o m m e n d a t i o n B.8. We recommend that the Assistant General Counsel for
Garnishment Operations, Defense Finance and Accounting Service, coordinate with the
Defense Finance and Accounting Service Pay Operations to ensure disposable earnings
complies with Federal regulations.

M a n a g e m e n t c o m m e n t s . P a r t i a l l y C o n c u r . (See findings 2, 2a, 2b (1), 2b (2), 2c, 2c
(1), 2c (2), 2c (3), 5h (1), 5h (2), 5h (3), 5h (4), and 5h (5).) Based on our review of the
cases in the IG sample, we are confident that the pay systems, with the exception of the
DJMS-RC pay system, have been programmed in accordance with the law and
regulations. The DJMS-RC issue is addressed in Recommendation A.4 above.




                                                        26                                           Attachment 1




                                                      61
 DFAS Comments to DoD IG Draft Report, Project No. D2005-D000FC-0264.000,
         "DoD Garnishment Program," dated December 15, 2006,



Estimated Completion Date. April 1, 2008.


Recommendation B.9. We recommend that the Assistant General Counsel for
Garnishment Operations, Defense Finance and Accounting Service, coordinate with the
Defense Finance and Accounting Service Retired and Annuitant Pay to ensure survivor
benefit premium beneficiary social security numbers are correct.

Management Comments. Partially Concur. (See finding 2c (1) and 5h (3).) As this is
a joint effort, in that Garnishment Operations is responsible for the legal review of
U S F S P A cases and Retired and Annuitant Pay is responsible for making SBP
determinations, a consolidated effort will continue to be made to ensure that information
input to both the legal review system and the Retired P a y master are correct.

Garnishment Operations, through periodic supervisory review, will ensure that all
USFSPA applicant information input into IGS is correct based on their legal review of
the documentation served. Retired and Annuitant Pay, through periodic review, will
ensure that the information input on the Retired Casualty Pay Subsystem, with regard to
SBP, is correct based on the service of the appropriate documentation. If either
Garnishment Operations or Retired and Annuitant Pay determine that an error has
occurred, the identifying party will take immediate action to correct the error or notify the
responsible party. Acceptable notification will be through intra-agency memorandum or
electronic mail with appropriate account identification information.

Retired and Annuitant Pay General Processing will issue an office wide "Tip of the Day"
reminder notice to all personnel responsible for processing such accounts of the
importance of accuracy regarding SBP information as it relates to USFSPA information.
Applicable SBP annuitant information will be validated against the RCPS USFSPA
master claimant information to detect any possible errors. The standard operating
procedures will be updated accordingly. This policy/training change is scheduled to be
implemented by January 3 1 , 2007.

Estimated Completion Date. August 1, 2007.


Recommendation B.10. W e recommend that the Assistant General Counsel for
Garnishment Operations, Defense Finance and Accounting Service, establish and
implement reconciliation procedures to capture manual and multiple system payments.

Management Comments. Non-Concur. (See finding 2d (1), 5i (1), 5i (2), and 5i (3).)
Feedback of offline payments is not provided to IGS. While feedback is sent from the
pay system to IGS for payments that are initiated through the automated system, there is
no such mechanism for payments made offline. While it is helpful to have this payment
information in IGS, the pay system is the system o f record for all payments made.
Therefore, the official record of payments made is the record in the pay system itself, not



                                             27                                  Attachment 1




                                             62
                                                                                             Final Report
                                                                                              Reference

 D F A S Comments to DoD IG Draft Report, Project No. D2005-D000FC-0264.000,
            "DoD Garnishment Program," dated December 15, 2006.


the feedback from the pay system in IGS. DFAS has consistently followed this practice.
As an example, whenever a party requests an audit of an account to determine payments
made, the account audit will be conducted using the information contained in the pay
system.

Estimated Completion Date. Not Applicable.


Recommendation B . l l . W e recommend that the Assistant General Counsel for
Garnishment Operations, Defense Finance and Accounting Service, provide training to
ensure support order(s) and Former Spouse Act court order are processed on a first-come,
first-served basis.

Management Comments. Non-Concur. (See findings 2e and 5j.) We assume this is a
reference to our policy of changing the order of precedence for cases involving payments
to the same former spouse for divisions of retired pay under the U S F S P A and
garnishment payments under 42 U S C 659. Per our teleconference with the D o D IG/OGC.
and DoD audit team leader on February 7, 2007, we have reached agreement that DFAS
policy is in accordance with 10 U S C 1408 and the DoDFMR. Therefore, we request that
this recommendation and related findings be removed from the report.

Estimated Completion Date. Not applicable.


R e c o m m e n d a t i o n B.12. W e recommend that the Assistant General Counsel for
Garnishment Operations, Defense Finance and Accounting Service, contact garnishment-
related parties to obtain court orders missing from the Imaging Garnishment System.

Management Comments. Concur. (See findings 3 and 5k.) Based on the results of our
system query, we will contact the recipients of payments for those cases identified where
the IGARN system does not contain the court order authorizing payment.

Estimated Completion Date. August 1, 2007


 Recommendation B.13, We recommend that the Assistant General Counsel for
                                                                                             Revised
 Garnishment Operations, Defense Finance and Accounting Service, establish court order       Page 18
 retention policies and procedures to ensure retention of court order documentation.

 Management Comments. Non-Concur. (See findings 3 and 5k.) These policies were
 in place prior to the audit. See listing below.

 BFCORCRD               Backfile Correspondence Card       2555 days (7 yrs)
 BANKRUPTY              Bankruptcy Order                   10900 days (30 yrs)
 BFCRTORD               Backfile Court Order               10900 days (30 yrs)



                                               28                             Attachment 1




                                             63
 D F A S Comments to DoD IG Draft Report, Project No. D2005-D000FC-0264.000,
            "DoD Garnishment Program," dated December 15, 2006.



BFOTHDOC              Backfile Other Document            10900 days (30 yrs)
BNKRP7                Bankruptcy Chapter 7              2555 days (7 yrs)
CODE 13               IGS Report #2 Pay Suspend         2555 days (7 yrs)
CONG                  Congressional                     2555 days (7 yrs)
CTNOTICE              Court Notification Letter         2555 days (7 yrs)
CTORDER               Court Order                       10900 days (30 yrs)
IGSRPT                IGS Reports                       2555 days (7 yrs)
INCOMING              Misc. Correspondence Incoming     365 days (1 yr)
INTERR                Interrogatory                     60 days
MEMPLTR               Employee/Member Notification      2555 days (7 yrs)
MESSAGE               Message to Member                 2555 days (7 yrs)
MISROUTE              Misrouted Documents               2555 days (7 yrs)
NOMATCH               No Match SSN                      60 days
OUTGOING              Misc. Correspondence Out          2555 days (7 yrs)
PAYFORM               Pay Transaction Form/Date         2555 days (7 yrs)
PENDING               Pending Court Order               120 days
PHONELOG              Phone Log                         365 days (1 yr)
REJCASE               Rejected Case                     365 days (1 yr)
REJLTR                Rejected Letters                  2555 days (7 yrs)
RESCAN                Rescan Document ­ Bad Image       60 days
RETCHK.               Returned Govt. Check/Corr.        365 days (1 yr)
SHORT                 Court Order Short Term (30-180 days) 2555 days (7 yrs)

Estimated Completion Date. Not applicable.


Recommendation B.14. We recommend that the Assistant General Counsel for
Garnishment Operations, Defense Finance and Accounting Service, establish policies and
procedures for multiple garnishment orders to ensure consistent processing.

Management Comments. Non-Concur: (See finding 51.) D F A S Garnishment
Operations has policies and procedures in place to ensure consistent processing.

Estimated Completion Date. Not applicable.


Other Matters of Interest. Written Notification to Employees. Page 14.

Non-Concur: Notifications are sent when cases are processed both by mail and via
email through SmartDocs. For some older cases, evidence of these letters m a y not be
contained in the IGARN files. When we converted over 280,000 paper files to the EDM
system (pre-curser to IGARN), notification letters were not imaged. Notification letters
are currently saved to IGARN consistently.




                                           29                                 Attachment 1




                                           64
 DFAS Attachment to DoD IG Draft Report, Project No, D2005-D000FC-0264.000,
           "DoD Garnishment Program," dated December 15, 2006.



Disposable Pay Calculation Limitations.

Disposable pay computations were completed:
According to the DoDFMR, Volume 7B, Chapter 29 Section 2908 L I M I T A T I O N S

290801. Divorces. Dissolutions of Marriage. Annulments, and Legal Separations that
Become Effective Before Feb 3, 1991. Upon proper service, a retiree's retired p a y m a y
b e paid directly to a former spouse in the amount necessary to comply with the court
order, provided the total amount does not exceed:
      A. Fifty percent of disposable retired pay for all court orders and garnishments
         actions paid under this chapter.
     B. Sixty-five percent of disposable retired pay for all court orders and garnishments
         paid under this chapter and garnishment paid under 42 USC 659. See Chapter 27
         of this Volume

290802. Divorces. Dissolutions of Marriage. Annulments, and Legal Separations that
Become Effective on or After Feb 3, 1991. Upon proper service, a retiree's retired pay
may be paid directly to a former spouse in the amount necessary to comply with the court
order, provided the total amount does not exceed:
    A. Fifty percent of disposable retired pay for all court orders and garnishments
        actions paid under this chapter.
    B. Sixty-five percent of disposable retired pay for all court orders and garnishments
        paid under this chapter and garnishment paid under 42 U S C 659 and 662
        (reference (au)) for all court orders and garnishments under this chapter and
        garnishments paid under 42 U S C 659 (reference (au)). See Chapter 27 of this
        Volume.

In none of the cases referenced within the report, did the combination of a former spouse
payment and a garnishment payment exceed the 65% limitation as authorized in the
above regulation.
In none of the cases referenced within the report, did the former spouse payment exceed
5 0 % of FSPA disposable pay.
In none of the cases referenced within the report, did the garnishment payment exceed the
court ordered limitation being enforced.
When the condition exists where there is a court order support garnishment enforced
under 42 USC 659 and an FSPA entitlement enforced under 10 USC 1408, the Defense
Retiree and Annuitant Pay System (DRAS) calculates what the maximum disposable pay
is available for paying the multiple obligations. D R A S processes the transactions from
IGS calculating the amounts based upon the information received. If a garnishment order
is not to exceed 50% of disposable pay, then that garnishment transaction doesn't exceed
5 0 % of garnishment disposable pay. Since FSPA entitlements are not to exceed 50% of
disposable pay, then, the system will ensure that the FSPA transaction doesn't exceed
5 0 % of FSPA disposable pay. The 6 5 % disposable pay limitation is present to keep the
multiple obligations within the maximum disposable available pay in accordance to the
Consumer Credit Protection Act (CCPA) and the applicable regulations.



                                            1                                 Attachment 2




                                           65
   DFAS A t t a c h m e n t to DoD I G Draft R e p o r t , P r o j e c t No. D2005-DOOOFC-0264.000.
                  " D o D G a r n i s h m e n t P r o g r a m , " d a t e d D e c e m b e r 15, 2006.


 Family S e r v i c e m e m b e r s G r o u p Life I n s u r a n c e a n d Miscellaneous D e b t D e d u c t i o n s ,

 According to our research of the law, Family Servicemembers Group Life Insurance
 (SGLI) is not an authorized deduction.
 According to the D o D FMR, Volume 7A, Chapter 50 Section 5002 paragraph D
 (amended September 2006)
 5002 L E G A L PROCESS FOR E N F O R C E M E N T OF C H I L D SUPPORT A N D
 A L I M O N Y OBLIGATIONS
 "Other Amounts Not Subject to Garnishment. The amounts deducted from the p a y of a
 Military Service member for the following purposes are not subject to legal process:
       1. Federal income tax withholding (amount limited only to that which is necessary
           to fulfill member's tax liability)
       2. FICA tax
       3. Armed Services Retirement Homes
       4. Servicemen's Group Life Insurance
       5. Retired Serviceman's Family protection plan
       6. Survivor Benefit Plan
       7. State income tax
       S. Indebtedness to the US
       9. Other amounts required by law to be deducted."

Family SGLI is specifically not listed as an authorized deduction for calculating
disposable pay for Garnishment under 42 USC Section 659 and 665. The provisions in 5
C.F.R. Section 581 are consistent with the information in the D o D FMR.

IG referenced 38 cases they judged as being miscalculated and based on the above, we
disagree with that finding. Information regarding which life insurance is in question
needs to b e provided.

Not all Miscellaneous deductions deducted from a member's pay are authorized
deductions for the garnishment disposable pay computation. They are specifically
identified by type in the C.F.R. The Automated Garnishment Subsystem is programmed
specifically accordingly to the DoD FMR. The types of Miscellaneous deductions that
were not used as authorized deductions needs to b e provided, with the pay breakdown for
the specific account. The Misc. deduction identifier needs to be provided for an accurate
match. Some Misc. deductions are authorized and others are not.

At this time, Garnishment Operations has not received the requested additional
information that specifically identified debt types or the pay breakdown of the
questionable accounts. The information is required so a thorough review can be
accomplished.

The following regulation is being adhered to in the calculating of disposable pay.
There appears to be some confusion regarding Misc. debt in the draft report. Not all
Misc. Debts are authorized deductions.




                                                         1                                            Attachment 3




                                                          66
 DFAS Attachment to DoD IG Draft Report, Project No. D2005-D000FC-0264.000,
           "DoD Garnishment Program," dated December 15, 2006.


According to the DoD FMR, Volume 7A, Chapter 50 Section 5002 paragraph H
(amended September 2006) the following items are authorized deductions for use in
calculating disposable pay.
5002 LEGAL PROCESS F O R E N F O R C E M E N T O F C H I L D S U P P O R T A N D
A L I M O N Y OBLIGATIONS
Paragraph H 6. Determine whether the member is indebted to the United States. If the
member owes a specific amount, that amount will be offset against the amount of pay
determined to be subject to legal process. Money owed to a non-appropriated fund
activity may not be offset. The following kinds of indebtedness may be offset:
     a. Amounts required to satisfy prior advance of pay and allowances.
     b. Amounts required to satisfy prior overpayments of pay and allowances.
     c. Court martial's, non-judicial fines and forfeitures.
     d. Administratively determined indebtedness.

The authorized deductions that are used are identified as a "DS" FID
Arrears in Money Accounts
Clothing Issue Charges
SF 1219 Receivables
Hospital Bill
Temporary Lodging Allowance
Federal Housing Authority
Base Housing
Telephone/Utility
Commissary
**Tax Levy (only if served prior to Garnishment)
Repay travel Advance Costs
R O S / G O L D Collected W/Specific Appropriation
Excess With/Household Goods/DITY
Air Force & Navy Only Stipends
**Salary Offset (if it is not for the collection of the following: Bank of America
   Company code D409272 and Bank of America VISA Company Code D40927,
   A A F E S Company Codes D00524 and D01648. D F A S - C L TOPS Outstanding Debt
   with BOA and Cleveland Posts the Debt Company Code D41194)
Tuition Assistance
U S N A Store
Other type Debts are by-passed if the entry is in a suspended status.

IG referenced 2 cases with this issue, but did not provide detail of what the debt issue
was.




                                             2                                   Attachment 3




                                           67
 DFAS Attachment to DoD IG Draft Report, Project No. D2005-DOOOFC-0264.000,
           "DoD Garnishment Program," dated December 15, 2006.



The following are four examples of analyzed accounts, taken from the list provided from
the IG. Each case provides details of how the amounts and limitation amounts were
computed and h o w the appropriate percentage limitations have been adhered to per the
DoD FMR.




                                           1                                 Attachment 4




                                           68
                     DFAS Attachment to DoD IG Draft Report, Project No. D2005-D000FC-0264.000,
                               "DoD Garnishment Program," dated December 15, 2006.



                   IGARN:
                   1st C o u r t order child support arrears $ 7 0 8 . 9 0 n o t to e x c e e d 5 0 %
                   2 n d Court order identifies F o r m e r S p o u s e p e r c e n t a g e a s 2 5 % o f m i l i t a r y retirement b e n e f i t s
                   3rd C o u r t Order f o r m o n t h l y a l i m o n y / s p o u s a l s u p p o r t a m o u n t o f $ 2 2 0 . 0 0 , n o t t o e x c e e d 5 0 %
                   IGS:
                   S u p p o r t arrears $ 7 0 8 . 9 0 N T E 5 0 %
                   CP       25% NTE 50%
                   S p o u s a l / A l i m o n y $220.00.00 N T E 5 0 % ,
                                                        DRAS                                                                   DRAS
I                                                       DRAS                                                                   DRAS
   P                                                          12/1/2005                                 12/1/2005              1/3/2006
   P aa yy ddaattee                                           12 /1/2005                                12/1/2005              1/3/2006
   Support Arrs
   Support Arrs                                                                                                                Alimony
   Garnishment                                                                                          Alimony
   Garnishment                                                         $708.9 0                         Alimony
                                                                                                           $708.90             Alimony
                                                                                                                                 $220.00
   Court ordered garn amount
   Court ordered garn amount                                           $708.90                          $ 2$708.90
                                                                                                            083.00             $ 2$220.00
                                                                                                                                   168.00
   Gross p a y                                                       $2083.00
   Gross p a y                                                       $2083.00                           $ 2 0 80 30 .. 00 00   $ 2 10608..0000
   VA Waiver                                                               00.00
   VA Waiver                                                               00.00                             00.00                00.00
   S  B  P                                                             $135.83                             $135.83              $141.40
   SBP                                                                 $135.83                             $135.83              $141.40
   Federal T a x                                                          $75.94                            $75.94              $108.46
  "Federal T a x                                                          $75.94                            $75.94              $108.46'
   Garn disposable pay                                               $1871.23                              1871.23             $1918.14
   Garn disposable pay                                               $1871.23                              1871.23             $1918.14
                                      ma
   C oo uu rr tt oo rr dd ee rr ee dd m a xx %                          50.0000                            50.0000              50.0000
   C                                         %                          50.0000                            50.0000              50.0000
   Max a m o u n t available for
   Max amount available for                                             $935.61                                                 $959.07
   Garn
   Garn                                                                 $$570.87
                                                                          935.61                              124.67            $959.07
                                                                                                                                $220.00
   Amount garn paid
   Amount garn paid                                     (final p a y m e$570.87
                                                                          nt)                                 124.67            $220.00
   Community Property                                   (Final p a y m e n t )
   Community
   C P a w a r d e d Property
   C
   am P t /apwe racr ed ne tda g e                                             25%                                                       25%
                                                                                       2    5    %                                   2   5   %
     amt/percentage                                                         $2083.00                                           $2168.00
     Gross pay
     Gross pay                                                              $2083.00                                           $ 2 1 06 08..0000
   V A Waiver                                                                  00.00
   VS B A PW(aci lvaei m   r ant not                                           00.00                                                 00.00
    bS eBnPe f(i c li a ri m
                           y )a n t n o t                                      00.00                                                 00.00

   beneficiary)                                                              $ 2 0 80 30 .. 00 00                              $ 2 1 00.00
                                                                                                                                     6 8 . 0 0_
   FSPA disposable pay
   FSPA
   M     a x p edisposable
                     r c e n t a v a i l a bpay     le for                   $2083.00                                          $2168.00
   M
   F Sa P   x Ap e r c e n t a v a i l a b l e f o r                           50.0000                                          50.0000
   Max amount available for
   F   S   P   A                                                               50.0000                                          50.0000
   M F Sa Px Aa m o u n t a v a i l a b l e f o r                            $1041.50                                          $1084.00
                                                                             $1041.50                                          $1084.00
   FSPA awarded amount
   F   S   P   A

   FSPA awarded amount                                                         $520.75                                          $542,00
   before garn
   before garn                                                                 $520.75                                           $542.00
    (( 66 55 %    G aa rr nn dd ii ss pp oo ss aa bb ll ee p
             % )) G                                        paa yy
   limit
   limit aa vv aa ii ll aa bb ll ee ff o
                                       o rr bb oo tt hh gg aa rr nn
   aa nn dd FFSSPPAA                                                         $1216.29                                          $1246.79
                                                                             $1216.29                                          $1246.79
   Support a r r s Garn
                                                                                                                                     00.00
     deduction                                                                   $$ 55 77 00 .. 88 77                                 00.00
   A m o u n t a v a i l a b l e f o r FFSSPPAA                                 $$ 55 22 00 .. 77 55                             $$554422..0000
   Amount available for
                                                                                $$ 11 22 44 .. 66 77                             $220.00
 1 AA ll ii m
            m oo nn yy                                                                                                           $220.00
                    *Garns p a y i n g less than 5 0 % o f D E . F S P A p a y i n g 2 5 % Combination G a m and F S P A is meeting
                    maximum 65%.




                                                                                                              2                                                      Attachment 4




                                                                                                         69
                  DFAS Attachment to DoD IG Draft Report, Project No. D2005-DOOOFC-0264.000,
                            "DoD Garnishment Program," dated December 15, 2006.

             I,
             IGARN:
             Court Order for m o n t h l y child support a m o u n t o f $ 2 4 1 9 . 0 0 . not to e x c e e d 5 0 %
             Court order i d e n t i f i e s F o r m e r S p o u s e p e r c e n t a g e a s 4 1 . 2 5 % o f m i l i t a r y r e t i r e m e n t b e n e f i t s
             C P has priority
             IGS:
             C h i l d Support, $ 2 4 1 9 . 0 0 N T E 5 0 % ,
             CP 4 1 . 2 5 % N T E 5 0 %
                                                       • FAS                                           DFAS
 Pay Date                                               12/1/2005                                      1/3/2006
 Community Property
 Awarded by Court                                             41.25%                                       41.25%

 Gross Pay                                                $1401.00                                      $1458.00

 VA Waiver                                                           $00                                    $00.00

 SBP                                                             $0.00                                         00 00
 FSPA DE                                                  $1401.00                                      $1458.00
 Max percentage available
 for F S P A                                             50.0000%                                     50.0000%
 Max a m o u n t a v a i l a b l e f o r
 FSPA (50%)                                                 $700.50                                       $729.00
 FSPA awarded amount
 (41.25%)                                                   $577.91                                       $601.42


 Support Garnishment

 Court ordered g a m amount                               $2419.00                                     $2419.00

Gross Pay                                                 $1401.00                                     $1458.00

V A Waiver                                                    $00.00                                     $632.00
SBP                                                           $10.10                                       $10.51
FITW                                                          $00.00                                       $00.00
G a r n Disposable earnings                              $1390.90                                      $1447.49
M a x i m u m percent available
for Garn                                                50.0000%                                     50.0000%
M a x amount available for
Garn                                                       $695.45                                      $723.74
Garnishment order amount                                 $2419.00                                      $2419.00
( 6 5 % )Garn Disposable p a y
limit a v a i l a b l e f o r b o t h g a r n
and FSPA.                                                  $904.08                                       $940.86
FSPA deduction                                             $577.91                                       $601.42
A m o u n t available f o r G a m                          $326.17                                       $339.44
Amount G a r n Paid                                        $326.17                                       $339.44

            'Garn p a y i n g l e s s than 5 0 % o f D E . C o m b i n a t i o n G a m a n d F S P A is m e e t i n g m a x i m u m 6 5 % .




                                                                                                 3                                                                 Attachment 4




                                                                                                70
               D F A S Attachment to D o D IG Draft Report, Project No, D2005-DOOOFC-0264.000,
                            "DoD Garnishment Program," dated December 15, 2006.


          I.
          IGARN:
          Court O r d e r for m o n t h l y child s u p p o r t a m o u n t o f $ 4 3 5 . 0 0 , n o t to e x c e e d 5 0 %
          Court o r d e r identifies F o r m e r S p o u s e p e r c e n t a g e as 2 9 . 8 % o f m i l i t a r y r e t i r e m e n t b e n e f i t s
          C P h a s priority
          IGS:
          C h i l d Support, $ 4 3 5 . 0 0 N T E 5 0 % ,
          CP 29.8% N T E 5 0 %
          2005 = Gross pay was $ 1 2 5 0 . 0 0
                                                  DFAS                                           DFAS
                                                  12/1/2005                                      1/3/2006
Pay Date
Community Property
Awarded by Court                                         29.08%                                     29.08%


Gross Pay                                             $1250.00                                    $1301.00

VA Waiver                                                $607.00                                    $632.00

SBP                                                        $0.00                                        00.00
FSPA DE                                                  $643.00                                    $669.00
Max percentage available
for FSPA                                             50.0000%                                    50.0000%
Max amount available for
FSPA (50%)                                               $321.50                                    $334.50
FSPA awarded amount
(29.08%)                                                 $186.98                                    $194.54



Support Garnishment

Court ordered garn amount                                $435.00                                    $435.00

Gross Pay                                              $1250.00                                   $1301.00

VA Waiver                                                $607.00                                    $632.00

SBP                                                        $00.00                                     $00.00

FITW                                                       $00.00                                     $00.00
Garn Disposable earnings                                 $643.00                                    $669.00
M a x i m u m percent available
for G a r n                                           50.0000%                                   50.0000%
Max amount available for
Garn                                                     $321.50                                    $334.50
Garnishment order amount                                 $435.00                                    $435.00
( 6 5 % )Garn Disposable pay
limit a v a i l a b l e f o r b o t h g a r n
and FSPA.                                                $417.95                                    $434.85
FSPA deduction                                           $186.98                                    $194.54
A m o u n t available for Garn                           $230.97                                    $240.31
Amount Garn P a i d                                      $230.97                                    $240.31

           * G a r n p a y i n g l e s s t h a n 5 0 % o f D E . C o m b i n a t i o n G a r n and F S P A i s m e e t i n g m a x i m u m              65%.




                                                                                             4                                                                 Attachment 4




                                                                                         71
            D F A S Attachment to DoD IG Draft Report, Project No. D2005-D000FC-0264.000,
                         "DoD Garnishment Program," dated December 15, 2006.



          IGARN:
          C o u r t O r d e r for m o n t h l y child s u p p o r t a m o u n t o f $ 1 4 0 6 . 0 0 , n o t t o e x c e e d 5 0 %
          C o u r t o r d e r identifies Former S p o u s e p e r c e n t a g e a s 1 9 . 2 % o f military r e t i r e m e n t b e n e f i t s
          G a r n i s h m e n t has priority
          IGS:
          Child Support. $1406.00 NTE 50%,
          CP 19.2% N T E 50%
          2 0 0 5 = Gross pay was $2139.00
                                                 DRAS                                            DRAS
Pay date                                           5/22005                                        6/1/2005
Support Garnishment
Court o r d e r e d garn a m o u n t                       $1406.00                                  $1406.00

Gross pay                                                  $2139.00                                  $2139.00
VA Waiver                                                         00.00                                363.00

SBP                                                           $139.06                                  $139.06
Federal T a x                                                   $50.72                                   $43.66

Garn disposable pay                                        $1949.22                                  $1593.28

Court ordered m a x %                                             50.00                                     50.00
Max amount available for
Garn                                                          $974.61                                  $796.64
Amount garn paid                                              $974.61                                  $796.64


Community Property
CP awarded
amt/percentage                                                   19.2%                                     19.2%

Gross pay                                                   $2139.00                                  $2139.00

VA Waiver                                                         00.00                                   363.00
SBP {claimant not
beneficiary)                                                      00.00                                     00.00
FSPA disposable pay                                           2139.00                                 $1776.00
Max percent available for
FSPA                                                          50.0000                                   50.0000
Max a m o u n t available for
FSPA                                                        $1069.50                                    $888.00
FSPA awarded amount
before garn                                                   $410.68                                   $340.99
(65%)Garn disposable pay
limit a v a i l a b l e f o r b o t h g a m
and F S P A                                                 $1266.99                                  $1035.63
Garn deduction                                               $974.61                                   $796.64
Amount available for FSPA                                    $292.38                                   $238.99
Amount FSPA paid                                             $292.38                                   $238.99

           * G a r n p a y i n g 5 0 % o f D E . F S P A p a y i n g l e s s t h a n 1 9 . 2 % C o m b i n a t i o n Garn a n d F S P A is m e e t i n g
           maximum 65%.




                                                                                           5                                                      Attachment 4




                                                                                          72
 DFAS Attachment to DoD IG Draft Report, Project N o . D2005-D000FC-0264.000,
           "DoD Garnishment Program,'" dated December 15, 2006.




The following are three examples of analyzed accounts, taken from the list provided from
the IG These cases are examples of the C O L A processing that took place for December
2006 All appropriate increases and computations were performed during the December
C O L A processing. Each case provides details of h o w the amounts and limitation
amounts were computed and h o w the appropriate percentage limitations have been
adhered to per the DoD FMR.




                                              1                                Attachment 5




                                         73
          D F A S Attachment to DoD IG Draft Report, Project No. D2005-D000FC-0264.000,
                       "DoD Garnishment Program," dated December 15, 2006.




        IGARN:
        1. Court Order for monthly child support amount of $816.0(1, not to exceed 50%
        2. Court order for alimony amount of 150.00, not to exceed 50%
        3. Court order identifies Former Spouse percentage as 35.0% of military retirement benefits
        Support Garnishment has priority
        IGS:
        Child Support, $816.00 NTE 50%,
        Alimony, 150.00 NTE 50%
        CP 35.0% NTE 50%
                                      ERAS
 Computation date                          12/2/2008
 Support Garnishment
 CS Court ordered g a m amount                     $816.00

 Alimony ordered garn amount                       S150.00

 Gross pay                                        $1750.00
 VA Waiver                                             00.00

 SBP                                               $114.01
 Federal Tax (nfaa]                                $138.65

| Gam disposable pay                              $1497.34

 Court ordered max %                                   50.00
 Max amount available for Garn                     $748.67
 Amount CS garn paid                               $748.67
 Amount AL garn paid                                 00.00
 Community Property
 CP awarded amt/percentage                              35%

 Gross pay                                        $1750.00

 VA Waiver                                             00.00

 SBP (claimant not beneficiary)                        00.00
 FSPA disposable pay                              $1750.00

 Max percent available for FSPA                    50.0000
 Max amount available for FSPA                     $975.00
 FSPA awarded amount before
 garn                                              $612.50
 (65%)Garn disposable pay limit
 available for both garn and
 FSPA                                              $973.27
 Garn deduction                                    $748.67
| Amount available for FSPA                        $224.60
| Amount FSPA paid                                 $224.50

         "Garn paying 50% of DE. FSPA paying less than 19.2% Combination Garn and FSPA is meeting maximum 65%,




                                                                     2                                   Attachment 5




                                                                  74
         D F A S Attachment to DoD IG Draft Report, Project No. D2005-D000FC-0264.000,
                      "DoD Garnishment Program," dated December 15, 2006.




       Court Order for monthly child support amount of $170.00, not to exceed 50%
       Court order identifies Former Spouse percentage as 35.8606% of military retirement benefits
       CP has priority
       IGS:
       Child Support, $170.00 NTE 50%,
       CP 35.8606% NTE 50%
                                    DFAS
Computation Date                         12/2/2006
community Property
Awarded by Court                              35.8606%

Gross Pay                                      $1435.00

VA Waiver                                       $638.00

SBP (claimant not beneficiary)                     $0.00

FSPA DE                                         $897.00
Max percentage available for
FSPA                                          50.0000%
Max amount available for FSPA
(50%)                                           $448.50
FSPA awarded amount
(35.8606%)                                      $321.66



Support Garnishment


Court ordered garn amount                        $170.00

Gross Pay                                      $1435.00

VA Waiver                                        $533.00

SBP                                               $93.38

FITW                                              $26.10

Gam Disposable earnings                          $777.52
Maximum percent available for
Garn                                           60.0000%
Max amount available for Garn                    S3SS.76
Garnishment order amount                         $170.00
(65% (Garn Disposable pay limit
available for both garn and
FSPA,                                            $505.38
FSPA deduction                                   $321.66
Amount available for Garn                        $183.72
Amount Gam Paid                                  $170.00

        *Garn paying less than 50% of DE. Combination Garn and FSPA is meeting maximum 65%




                                                                     3                               Attachment 5




                                                                  75
         DFAS Attachment to D o D IG Draft Report, Project No. D2005-D000FC-0264.000,
                   "DoD Garnishment Program," dated December 15, 2006.




        Court Order for monthly child support amount of $549.58, not to exceed 60%
        Court order identifies Former Spouse percentage as 25.0% of military retirement benefits
        Garnishment has priority
        IGS:
        Child Support, $549.58 NTE 60%,
        CP 25% NTE 50%
                                      DRAS
Computation date                          12/2/2006
Support Garnishment
Court ordered garn amount                        $549.58

Gross pay                                       $1447.00
VA Waiver                                         748.08

|SBP                                                   $00

Federal Tax                                       $16.05

Garn disposable pay                              $602.67

Court ordered max %                                   60.00
Max amount available for Garn                    $409.71
Amount garn paid                                 $409.71


Community Property

CP awarded amt/percentage

Gross                    pay                    $1447.00

VA Waiver                                          748.08

 SBP                                                  00.00 |

 FSPA disposable pay                               698.92

 Max percent available for FSPA                   50.0000
 Max amount available for FSPA                    S349.46
 FSPA awarded amount before
 garn                                             $174.73
 {66%)Garn disposable pay limit
 available lor both garn and
 FSPA                                             $443.86
 Garn deduction                                   $409.71
 Amount available for FSPA                         $34.14
 Amount FSPA paid                                  $34.14

         *Garn paying 50% of D E . FSPA paying 25% Combination Garn and FSPA is meeting maximum 65%




                                                                      4                               Attachment 5




                                                                    76
 DFAS Attachment to DoD IG Draft Report, Project No. D2005-D000FC-0264.000,
           "DoD Garnishment Program," dated D e c e m b e r 15, 2006.


T r a c k i n g System Administrator Actions.

IGS documents each and every user's actions by creating action "Log Files." Each Log File
entry is identified and entered on daily files. These files are saved electronically and kept in
folders on the internal server. Each folder is identified by the user's initials and clerk code.
Log files remain on the server for 3 years. (2 years past plus current year)

Each "action" entry is identified by the following:
Unique Sequence I D (each action has a unique identifier)
Date of the action
Time of the action
IGS Version/Release number
The action being completed (i.e. change, update, modify)
SSN (encrypted) Garn date of the transaction being affected, Tran code (type of transaction)
Effective date of the transaction being affected
Previous transaction status (i.e. I = Inactive)
Current transaction status (i.e. A=Active)
Location of the change being completed (i.e. field change or table change)
Comment (i.e. member name changes, the former name and the new name is identified).

Beginning August 1, 2005, on a monthly basis, the "action" Log File for each System
Administrator, will be printed and provided to management for review. Hi lighted portions
of the report will be address changes.
When an address change is completed by a System Administrator, the affected address code
is displayed.
Supportive written documentation will be provided for each address change completed by
the System Administrator.
These printed monthly reports will be kept in a notebook and maintained within
Garnishment Operations. All above referenced supportive documentation will accompany
the reports.
*If found necessary, questionable transactions will be identified to the IGS programmers by
the SeqlD and further information can be provided.
An example of an address change is:
00016113      07/18/2005     10:33:25            1031:16        Change         ?kTq??qTk
      07/18/2005      00     07/18/2005          ­       00     u_address_base::ue_save
      Address code D9900135
00016253      07/18/2005     10:33:48           1031:16         Change         ?kTq??qTk
      07/18/2005      00     07/18/2005         ­       00      u_address_base::ue_save
      Address code D9900664
00016203      07/18/2005     10:34:16            1031:16        Change         ?kTq??qTk
      07/18/2005      00     07/18/2005         ­        00     u_address_base::ue_save
      Address code D0021954




                                                1                                   Attachment 6




                                                77
 DFAS Attachment to D o D IG Draft Report, Project No. D2005-D000FC-0264.000,
           "DoD Garnishment Program," dated D e c e m b e r 15, 2006.


T r a c k i n g Supervisor, System A d m i n , a n d Attorney Legal Review Actions.

All transactions and actions completed within IGS through Legal Review are documented
on an IGS Production Report. The IGS production report identifies all transactions
completed within Legal Review. The Production report can be provided for any IGS user
with rites to the Legal Review screens in IGS. This authorization allows the user to write to
the action and no-action tables and create transactions.

The Production report details the following transaction information:
User Clerk Code
Member/employee SSN
Transaction Type
Pay System
Branch of Service
Case number
Transaction Service date
Transaction Date Processed
Status of the transaction completed.

Beginning August 1, 2005, on a monthly basis, the production report will be produced for
each Attorney, Supervisor, and System Administrator. A random selection of one
transaction from each individual will b e r e v i e w e d . The review includes confirming all
supportive documentation is p r e s e n t to warrant the transaction/action selected.
The printed monthly production r e p o r t s will b e kept in a notebook and maintained within
Garnishment Operations.
**If f o u n d necessary, questionable transactions will b e identified and provided t o
management for further review.

Joan Arlington, jarringt, 26M
Kenneth Asher, Kasher, 24N
Hedy Chatfield, Hchatfie, 39M
Karla Dunklin-Marrow, Kdunkli, 32M
Pam Oehme, Poehme, 98M
Annie Trzonkowski, Atrzonko, 33M
Ivory Kangah, Ikangah, 02M
Jill Orosz, Jorosz, 09M
Sue Fillinger, Sfilling, 29M
Angela Woods, Awoods, 08M
Frank Hrouda, Fhrouda, 42M
Loretta Longo, Llongo, 15M




                                               2                                      Attachment 6




                                               78
 DFAS Attachment to DoD IG Draft Report, Project No. D2005-D000FC-0264.000,
           "DoD Garnishment Program," dated December 15, 2006.


                             MANAGEMENT CONTROLS
                           G A R N I S H M E N T CASE REVIEWS
                                             Daily

Established audit trails and transaction approval processes.
        On a daily basis, IGARN automatically distributes 1% of each team's processed
documents to the corresponding team Supervisor, to confirm, verify and complete a case
review.
        O n a dally basis, 100% of all phone logs created in IGARN are sent to the team
Supervisors for review. Each team Supervisor must confirm/verify case review. It is at that
time the transaction approval is completed since I G A R N and IGS are used in tandem.
(Phone logs are input by Customer Service Representatives in the call Center in Cleveland)

With 55 paralegals processing an average of 5 cases per hour, in an 8-hour day, 2200
transactions are generated per day. Approximately 22 cases per day plus all phone logs.


Approval Review Process

         The Supervisor reviews the court order within IGARN and compares the data
contained in the order to what is input into IGS.
         T h e Integrated Garnishment System (IGS) contains the approved transactions that
affect the employee/member's pay. The transactions arc considered approved unless
subsequently found to be erroneous.
         a. If an erroneous entry is made and needs correction, a subsequent modify or
              terminate transaction can be entered to correct the previous entry.
         b. This method provides an audit trail for documenting erroneous entries that affect
              the member's pay.
         c. This method provides the ability to document any over/under payments if
              remitted to the garnishment payee.
         d. Each transaction contains all required data such as: transaction type, case
              identifier, record or account involved, requested amount/percent, preparer
              identification, date input, date modified (as appropriate), and all payment address
              information.

Follow up and coaching

        Any errors found are corrected and the error is documented on the Review Form.
        T h e Supervisor may provide further coaching or training as required.




                                                1                                    Attachment 7




                                              79
            DFAS Attachment to DoD IG Draft Report, Project No. D 2 0 0 5 - D F C - 0 2 6 4 . 0 0 0 ,
                      "DoD Garnishment Program," dated December 15, 2006.



                                     R a n d o m Sampling & Review Plans
                                       Processing of Garnishments for
                                 Military, Retired and Civilian Pay Systems



            Introduction: The DFAS Garnishment Operation is a consolidated court order processing
operation for all of DoD. The mission of this office is to process all court orders served on DoD. These
orders can be for child support, alimony, commercial debt, divisions of retired pay and bankruptcy. This
office is the authorized agent for receipt of service of process for these court orders and receives about
35,000 to 40,000 documents per month. Of these, 19,000 to 22,000 are court orders comprising new
orders, modification to existing orders, and terminations of existing orders.

          Process. When an order is received in the Garnishment office, mailroom personnel open the
mail and scan it into our imaging and workflow system called Electronic Document Management (EDM).
The EDM document is indexed and automatically assigned to one of 48 paralegals based on a
predetermined breakdown of the SSN (social security number) on the court order. E D M stores all of the
documents in a National Archives and Records Administration approved document and storage retrieval
system. These are stored in a digitized state that cannot be altered.

           The paralegal reviews the court order, and uses the Integrated Garnishment System (IGS) to
determine its validity. The IGS System steps the paralegal through the validation process by requiring
answers to a set of pre-determined questions. The paralegal answers those questions b y entering the data
into IGS, such as the payment amount, the not-to-exceed percentage, the payee, and payment address. IGS
captures all of this data and electronically sends it to the various pay systems (DJIMS, D R A S & DCPS).
Currently, there is no electronic interface with M C T F S or reserve pay for the Army, Air Force and Navy
(however, the reserve pay interface is scheduled to coincide with FCP implementation). For these two
groups, a garnishment worksheet is provided to the Marine Corps Military Pay Operations and Reserve Pay
Operations offices where the pay technicians input the proper garnishment information to the member's
pay account for deduction and payment.

           The pay systems have all been programmed with the rules set forth in the Federal Regulations
governing the various garnishment payments, such as frequency of payment and not-to-exceed percentage.
The IGS file is sent to the pay system and the pay system reads the file and identifies the person by name
and SSN who is to have the payment deducted. The pay system computes disposable pay, deducts the
payment, but if there is not sufficient disposable pay to cover the court ordered amount the pay system will
calculate the deduction amount based on the disposable pay rules built into the pay system. The pay
system then issues payment instructions to disbursing which in turn issues the check. The pay system also
sends a continuing disposition (CD) file to IGS with a list of all payments m a d e by that particular pay
system. That C D file will post to each respective individual account in IGS. If there is a determination of
a system error, a System Computation Discrepancy Notice (SCDN) is completed and transmitted
electronically to the appropriate DFAS pay systems manager for further review/correction. SCDNs are
monitored until the problem is corrected. Inconsistent Condition Reports are another available source to
identify pay errors found by the supervisors that should not have occurred. Most of all these are human
typing errors.


                                                       1                                  Attachment 8




                                                       80
            DFAS Attachment to DoD IG Draft Report, Project No. D200S-D000FC-0264.000,
                      "DoD Garnishment Program," dated December 15, 2 0 0 6 .




            Monthly Pre-Payment Sampling Plan: This pre-payment sampling and review plan is
designed primarily to satisfy requirements as set forth in the DoD FMR Vol. 5, Disbursing Policy and
Procedures, Chapters 1 and 33, with regard to Certifying Officers Legislation. A stratified simple random
sampling procedure is proposed to satisfy pre-payment review requirements for new cases and existing
cases requiring adjustment. The plan is designed to provide monthly population estimates with 9 5 %
probability and plus or minus 2.5% sampling precision. The plan assumes an occurrence (error) sample
rate of 5 percent for sample size determination, even though recent historical data suggests error rates of
less than one percent. The overall target sampling fraction is approximately 4 percent which equates to
approximately 300 cases. The minimum sample size per stratum will be 50 or 100 percent if the
population is less than 50. This plan is only applicable to payments amounts $2,500 or less. Any payment
amounts greater than $2,500 will be reviewed in complete enumeration (100% review). This pre-payment
sampling and review plan wilt occur prior to the end of month payday processing (run) and just prior to the
mid month payday. The applicable sampling fraction to include minimum sample per strata, will b e
programmed into the IGS system. Cases for review will be randomly selected on a daily basis from the
IGS system via electronic random number generator (RNG). Each randomly selected case will be reviewed
by a supervisor to ensure legality of payment, correctness of computation, ensure completeness of
supporting documentation (court order instruction comparison to EDM and IGS paralegal entries) and
correct name and address of payee and member, ensure proper authorization of payment by (for) approving
officials, and other appropriate requirements as indicated in the applicable regulations. Results of the
monthly reviews will be maintained in electronic format (worksheet or database application format) and
include, at a minimum, name of member, reason for error, dollar value impact (overpayment or
underpayment). Reports will also include summary statistics for the accounts reviewed to include
population and sample size for each strata and number and percentage of accounts reviewed with errors
and total overpayments and underpayments. These reports will serve several purposes to include
identification of error trends, improper payment amounts and statistical data to support any future
adjustments in the sampling plans, such as population and sample characteristics as well as strata and
overall sample error rates. Improper payments can arise from the paralegal improperly calculating the
garnishment amount or they can be due to input error and is found during a comparison review of the court
ordered amount and the actual amount deducted. As such, a sample rate for improper payments (dollar
amount and percent of net pay) will be available by strata. Any garnishment actions determined to not be
correct for payment will be returned to the appropriate paralegal for correction and input to the system.
Errors are annotated on an Error & Training sheet for the paralegal.


            Quarterly Pre-Payment Sampling Plan: This quarterly pre-payment random sampling plan
seeks to assess the accuracy and completeness of garnishment transactions from the entire population of
active cases. Active cases will include new cases and those requiring adjustment (monthly sampling plan
criterion) as well as those where a change has occurred, such as termination of the garnishment action. A
simple random sampling plan is designed to provide quarterly population estimates with 9 5 % probability
and plus or minus 2 . 5 % sampling precision with 5 percent occurrence rate estimate. The plan sets a target
quarterly sample size of 300 cases. This plan is only applicable to payments amounts $2,500 or less. Any
payment amounts greater than $2,500 will be reviewed in complete enumeration (100% review). This pre­
payment sampling and review plan will occur prior to the end of month payday processing (run) and just
prior to the mid-month payday. This quarterly review will encompass an examination and scope of the


                                                       2                 Attachment                 8




                                                       81
           DFAS Attachment to DoD IG Draft Report, Project No. D2005-DOOOFC-0264.000,
                     "DoD Garnishment Program," dated D e c e m b e r 15, 2006.



same items noted in the monthly pre-payment sampling. Action required on any cases determined to b e in
error and recording and preparation of reports on the results of reviews will include same general criterion
as noted in the monthly pre-payment review.

           Post-Payment Systematic Comparison. A systematic post-payment computerized match of all
payments made by the pay system is electronically produced by the T S O on a monthly basis. The process
compares the payments made by the pay systems with amounts shown on the continuing disposition file.
The comparison searches for any payment made by the pay system that was greater than what was
requested by the IGS file. A system generated report of exceptions to the comparison is produced for
review, research and correction. The Director, Garnishments is furnished results of the systematic
comparison. Error reports are forwarded to the appropriate supervisory personnel for correction.




                                                      3                                  Attachment 8




                                                      82
M E M O R A N D U M FOR THE S E C R E T A R Y OF DEFENSE

SUBJECT: Annual Statement Required Under the Federal M a n a g e r s '
       Financial Integrity Act (FMFIA) of 19S2




As Assistant General Counsel for Garnishment Operations (DFAS-CL/GAG), I recognize
that Garnishment Operation's management is responsible for establishing and
maintaining effective internal controls to meet the objectives of the Federal Managers'
Financial Integrity Act (FMFIA). I am able to provide an unqualified statement of
reasonable assurance that Garnishment Operation's internal controls meet the objectives
of FMFIA overall programs, administrative, and operations. The internal controls are
operating effectively and no material weaknesses were found in the design or operation
of the internal controls.

TAB A provides additional information on how Garnishment Operations conducted the
assessment of internal controls for the FMFIA overall process, which was conducted
according to O M B Circular A-123, Management's Responsibility for Internal Control. In
addition, TAB A provides a summary of the significant accomplishments and actions
taken to improve Component internal controls during the past year.




                                     Rodney L. Winn
                                     Assistant General Counsel
                                     Garnishment Operations

Attachments:
As stated




                                           1                             Attachment   9




                                           83
      DESCRIPTION OF T H E CONCEPT O F REASONABLE ASSURANCE
            AND H O W T H E E V A L U A T I O N W A S C O N D U C T E D

                                         ( T A B A)

The Garnishment Operations senior management evaluated the system of internal
accounting and administrative controls, in effect during the fiscal year as of the date of
this memorandum, May 2, 2006, according to the guidance in Office of Management and
Budget (OMB) Circular No. A-123, "Management's Responsibility for Internal Control,"
August 5, 2005. The OMB guidelines were issued in conjunction with the Comptroller
General of the United States, as required by the "Federal Managers' Financial Integrity
Act of 1982." Included is an evaluation of whether the system of internal accounting and
administrative control for Garnishment Operations is in compliance with standards
prescribed by the Comptroller General.

The objectives of the system of internal accounting and administrative control of the
(name of Component) are to provide reasonable assurance that:

The obligations and costs arc in compliance with applicable law;

Funds, property, and other assets are safeguarded against waste, loss, unauthorized use,
or misappropriation; and

The evaluation of internal controls extends to every responsibility and activity undertaken
by Garnishment Operations and applies to program, administrative and operational
controls. Furthermore, the concept of reasonable assurance recognizes that (1) the cost o f
internal controls should not exceed the benefits expected to be derived and (2) the
benefits include reducing the risk associated with failing to achieve the stated objectives.
Moreover, errors or irregularities may occur and not be detected because of inherent
limitations in any system of internal accounting and administrative control, including
those limitations resulting from resource constraints, congressional restrictions, and other
factors. Finally, projection of any system evaluation to future periods is subject to risk
that procedures may be inadequate because of changes in conditions, or that the degree of
compliance with procedures m a y deteriorate. Therefore, this statement of reasonable
assurance is provided within the limits of the preceding description.

Garnishment Operations evaluated the system of internal control in accordance with the
guidelines identified above. The results indicate that the system of internal accounting
and administrative control of Garnishment Operations in effect during fiscal year 2006 as
of the date of this memorandum, taken as a whole, complies with the requirement to
provide reasonable assurance that the above mentioned objectives were achieved. This
position on reasonable assurance is within the limits described in the preceding
paragraph.

       Garnishment Operations evaluated its system of internal accounting and
administrative control using the following process for conducting the evaluation.



                                             2                           Attachment        9




                                            84
1. The progress achieved in institutionalizing internal controls for Garnishment Review
   and Implementation of court cases, and Mailroom Receipt of Check processed
   includes:

               •   Internal polices and Standard Operating Procedures
               •   Applicable laws and regulations that govern the legal review process
               •   Separation of duties, and internal control directives.

2. Quarter evaluations of internal controls utilizing the electronic Performance
Assessment Tool (ePAT) for FMFIA.

The following provides evidence that assessments have been conducted by including
examples of deficiencies found that do not warrant reporting as material weaknesses and
the actions taken or planned to resolve these deficiencies.

Description of Issue: Erroneous actions during the legal review and implementation of
garnishments

Accomplishments:

   •   B y instituting a mandatory one percent supervisory review of all cases processed,
       internal controls are in place to ensure accuracy and compliance with federal laws
       and regulations. Additionally, 100 percent supervisory review of phone log
       inquiries is required to identify training issues, identify errors, and ensure timely
       responses to phone inquiries. These cases are distributed for supervisory review
       through the IGARN system.
   •   Report of all Paralegal, Supervisor, Attorney, System Administrator transactions
       in the Integrated Garnishment System (IGS). This reporting helps to maintain the
       integrity of the data entered into the system and provides an audit trail.
   •   In addition to the one percent review of all cases processed, and the 100 percent
       phone log review, w e have instituted an Internal Review approved random
       sampling process. This process requires monthly review of a specified number of
       newly implemented and modified garnishment actions prior to mid month, and
       100 percent post payment review.

Description of Issue: Lost or misplaced checks

Accomplishments:

   •   Infornmation from checks are recorded into log book (i.e. name, SSN. dollar
        amount, payee, where the check will be forwarded, number of checks remitted,
        date processed and delivered to vault).
   •    Copies of garnishment related checks are scanned into IGARN system.
   •    Original checks are delivered to the vault along with a copy. The copies are
        initialed and dated by the vault technician accepting receipt of checks. Initialed
        and dated copies are maintained on filed in Garnishment Operations.


                                             3                            Attachment         9




                                            85
   .   Checks are secured in a locked cabinet until they are hand delivered to the vault.



Information Technology initiatives:

              •    Implementation of the B P R project is continuing as well as
                   technological improvements. The Integrated Garnishment System
                   (IGS) is in the initial stages of being converted into a web-based
                   application.
               •   The previous Electronic Document Management (EDM) system has
                   been replaced by IGARN, a web-based imaging system which
                   embraces technology and improves the efficiency of the garnishment
                   process. Utilizing an imaging system has created a paperless
                   environment for the directorate. IGARN eliminates storage of paper
                   folders and also allows the Customer Service Branch on-line
                   information which increases efficiency and customer satisfaction.
               •    The Kids 1st program enables state authorized support enforcement
                    agencies to submit order electronically though a web-based or batch
                    file process. Currently there are 18 states participating in this
                    program. W e are working closely with several states in an effort to
                    persuade them to submit orders using this technological medium.




                                             4                           Attachment         9




                                            86
                                                                                                                                   DFAS-CUJFG
                                                                                                                                  Assessable Units

     Sits   Assessable Unit Title (Previous           Risk                                  Assessable Unit Description                                                Responsible           Office           Phone         Date      Date M C R   Weakness
             AU n u m b e r s h o w n i n Italics.)
                                                                                                                                                                     Assessable Unit         Code            Number       Last MCR    Scheduled      Y/N
                                                                                                                                                                         Manager                                          Completed


     CL     Garnishment Review and                    Low    Conducts (he legal review a n d implementation of court orders pertaining to child                        Rodney W i n n         JFG          216-5225118     Mar-06      Mar-07         N
            Implementation (220420)                          and spousal support, c o m m e r c i a l d e b l s . bankruptcies, a n d division of military
                                                             retired pay. Legal review is performed i n accordance with applicable stale/federal
                                                             laws a n d regulations. This department services the accounts o l civilian, active
                                                             duty, reserve, a n d retired military members. Additional duties include responding
                                                             to customer a n d p a y office inquires via email, written correspondence, and by
                                                             telephone.



     CI.    Receipt & Processing of                   Low    T h e Document Control Center (DCCJ processes receipt of incoming checks                                Neal Nelson             JFGBC         216-522-5118    Mar-06      Mar-07         N
            Incoming Checks (220421)                         remitted/returned to G a r n i s h m e n t Operations for: garnishment fees, returned
                                                             Ireasurer c h e c k s , jury duty checks, health insurance checks, checks remitted for              |
                                                             miscellaneous reasons, a n d checks thai are to be credited to military members
                                                             (active, reserve, or retired) a n d civilian employees paid by the Department of
                                                             Defense.




87
             A s o f 12/14/06                                                                                                 C                              l                     „    i-   i T      *?
                                                                                             DFAS-CL
                                                                                              FMFIA
                                                                                      Report Card 1st Qtr FY07


        PROGRAM                ACTLON/TASKER                                                                            MIL                                 CALL                                         I
                                                              DUE DATE       ADA/CL        BMO                                              ;
                                                                                                      DISB     GARN     PAY       CGA LMIT                  CNTR |NO            CH   PE   SD    PC       JP
                                                                NLT
                  A-123 DELIVERABLES                         11/27/2006                    NAVY
                  7+4 NEW FOCUS AREAS.
•                                                               •°                         FMO                                                              I
         A-1Z3    CLEVELAND HAS 10 TO REPORT
                                                             CODE JBB           X           X
                               QUARTERLY                                                                                                    J
                            MATERIAL WEAKNESS              CERTIFY CLOSURE
                                TI97/FBWT                  OF MILESTONES.
                                   POC:                       UPDATE
                              LOU OCKURIZZI                    REPORT                      SSC
2       FMFIA                BILL BERGMEYER                   12/13/06          X           X

                  QUARTERLY REPORTING REQUIREMENT
                  (MAR/JUN/SEP/DEC): UPDATE OF CURRENT
                  REPORTABLE CONDITIONS/CONTROL                                                       DJMS-                                 ; TDRL
                                                                              OFCP         OFCP        R
    3   FMFIA     DEFICIENCIES.                                                                         C                                     PDRL
                                                             12/18/06          X            X   .       *   :_          _                       X                       BRAC"
                  QUARTERLY BSC REPORTING REQUIREMENT
                  (MAR/JUN/SEP/DEC)                                                                                                                         '       i                                    i
                  NEW: USE OF SELF-IDENTIFIED DEFICIENCY
4       FMFIA     REPORT                                     12/18/06           X           X              X       X    X
                                                                                                                                      *             X           X   BRAC         X   X    X     X        I X


                 QUARTERLY REPORTING REQUIREMENT                                                               M            i
                 (MAR/JUN/SEP/OEC): UPDATE ASSESSABLE
                 UNIT LISTINGS. INCLUDE SCHEDULE OT ICES
s       FMFIA    (FONNERLY MCES)FORFY07 (ALL SITES).         12/18/06           X           X              X       X    X         X             X
                                                                                                  -    -                    _ .                                 X   BRAC*       X    X    X     X    j       X
                 QUARTERLY REPORTING REQUIREMENT
                  MNR/JUN/SEP/DECJIST Qtr 07 ICE UPDATES
6       FMFIA    JUE IN EPAT (ALL SITES).                    01/12/07          X            X          X        X
                                                                                                                        X             X :           X           X   BRAC-        X   X    X    ! X           X




        * RATING:
          MET

         WOT MET

        AS OF 11/02/06

                                                                                       4                       /TVT/H                       T           7
                                                                                                                                                                                                                 1
                                                                                                     DFAS-CL
                                                                                                      FMFIA
                                                                                        Report Card 1st Qtr FY07


      PROGRAM                                                                                                              MIL                  CALL
                                 ACTION/TASKER                  DUE PATE       ADA/CL     BMO         DISB      GARN       PAY       CGA LMIT   CNLR    | NO      CM   PE   (SD   PC   JP

                     QUARTERLY REDORTINO REAUIREMENT
                     (MAR/JUN'SEN/NER- SITE
                     DIRECTORS/ORGANIZATION LEADERS:
                     PERSONALLY VALIDATE THAT AN APPROPRIATE
                     NUMBER OF TRANSACTIONS ARE TESTED IN THE
                    CURRENT QUARTER TO ENSURE LHAT EACH
                    ELEMENT OF THE TOLAL INTERNAL CONTROL
                    SCHEMA (E.G., TRANSACT™ AUTHENTICATION
                    AND SYSTEMS ACCESS) IS WORKING AS
      FMFIA         INTENDED.                                   01/12/07          X          X          X         X         X         X    X        X    BRAC*     X    X     X    X    X


                    QUARTERLY REPORTING REQUIREMENT
                    (MAR/JUN/SEP/DEC): SITE
                    DIRECTORS/ORGANIZATION LEADERS: ENSURE
                    TRACKING SYSTEM UPDATED AND RECEIVE
                    BRIEFINGS ON OUTSTANDING PROCESS
                    WEAKNESSES, INTERNAL REVIEW FINDINGS AND
 II   FMFIA         IN-PROCESS MANAGEMENT CONTRACT REVIEWS.     01/12/07          X          X          X         X         X         X    X        X    BRAC
                                                                                                                                                         BRAC**    x    x

                    QUARTERLY REOORTINQ REQUIREMENT
                    (MAR/JUN/SEO'DEC): SITE
                    DIRECTORS/ORGANIZATION LEADERS:
                    PERSONALLY WALK THROUGH KEY FUNCTIONAL
                    PROCESSES TO IDENTIFY ANY "REPORTABLE
 9    FMFIA         CONDITIONS".                                01/12/07          X          X          X        X          X         X    X        X   BRAC*
                                                                                                                                                        BRAC*      x    X
                                  ANNUALLY
                                                                           4                                                     I
                                                                                                 -          -
10    FMFIA        ANNUA] STATEMENT OF ASSURANCE (SOA)           TBD       I
                   ANNUA! ON-SITE REVIEW OF FMFIA
11    FMFIA        PROGRAM                                       TBD
                                                                                        4—                             -    --



      * Rating:
       Mel

         Not Met

      A s of 1 1 / 0 2 / 0 6

                                                                                         7                      /} T T/1 C„A7                   9
                                                                              DFAS-CL
                                                                               FMFIA
                                                                     Report Card 1st Qtr FY07


    PROGRAM                                                                                      MM                   CALL I
                              ACTION/TASKER     DUE DALE    ADA/CL     IBMO     IDISB     OARN   PAY    CGA LIMIT     CNTR NO        ICH     !PE    ,SD    IPC    JP

     FMFIA                                    DFAS-CUNORFOLK RESPONSIBLE PARLIES: ALL REPORT CARD ACTIONS WILL REQUIRE CERTIFICATION THAT THEY ARE COMPLETED DURING THE BRAC
                   BRAC • DFAS NORFOLK
                                                                                            TRANSFORMATION AND CLOSURE.




o




    ' Rating:
      MEL
      NOT MEL

    A s OF 1 1 / 0 2 / 0 6


                                                                         8              flTTAc/t/ne*>T
                                                                                         lTTAc/t/ne*>T               <}
                                                                                                    A s s e s s a b l e Unit / ICE Matrix
A l l Title: (Jamishmenl Review and lm|>lenienlatien
                                                                                                                      PAGE I
A l l PJiimlier: 2211420
S i t e / O l k e ( M e : IJIAS-CL/CL-DGG
I m t M H l l n l t : SccDcf ­ Defense Finance ­ M i l / C i v Pay
A l l M a n a e r [ « > : R O D N E Y W I N N ­ (2161 522-5118
           s


I C E Date: 20-Scn-0tj




Major Function; Court Order Review and Processing

Coitls                             Risks                             Controls                         Control         Vital    Control Stnndmd         Evaluation       Evaluation                 I.valuiilion Results
                                                                                                         Fl N n a n   MC7                                 Freuueiicv    Method
Ensure validity t a d accunicv Processing erroneous                  Legal review guided by the          Quarterly    Y        Applicable Federal         Quarterly     Doc urn en I Analysis.
o f court ordcis reviewed and garnishments                                                                                                                                                         Supervisory review o f C:IKCS milled to their
                                                                     Integrated Garnishment System                             laws and regulations-                    Measurement, Other         inboxes by I G A R N is performed mi a daily
processed in nccordancc with                                         (IGS) to determine the order's                             10 USC 1408.42                          Review ­ Supervisors       basis or as scheduling permit:;. The random
M a r t i liiws and regulations.                                     validity. IGS System steps the                            USC 6 5 9 , 4 2 USC                      perform a review o f       sampling o f newly implemented and
                                                                     paralega l through tiie valillation                       6 5 5 . 3 2 C F R Pari 54.                1 % o f all cages         modified garnishment aclions isDcrforrned
                                                                     process by requiring answers to                           42 USC 659, 661. &                       processed. Cases           on a monthly basis, ('hidings are reported to
                                                                     a set o f pre-detcrmined                                  662. 5 USC 5520a.                        systematically selected    management If errors aie discovered
                                                                     questions                                                 11 USC 362. 11 USC                       lor review are             corrective action is taken before the action
                                                                                                                               5 4 1 . 11 USC 1506a                     automatically routed       negatively impacts the meniher. employee.
                                                                                                                                                                        to the supervisors'        Of customer.    (OK-Dec-M)
                                                                                                                                                                        review inboxes
                                                                                                                                                                        contained in I G A R N .
                                                                                                                                                                        Additionally, the
                                                                                                                                                                        supervisors perform a
                                                                                                                                                                        random review o f
                                                                                                                                                                        newly implemented
                                                                                                                                                                        and modi lied
                                                                                                                                                                        garnishment actions
                                                                                                                                                                        prior tu m i d month
                                                                                                                                                                        cut-off, and 100% post
                                                                                                                                                                        payment review. This
                                                                                                                                                                        random sampling
                                                                                                                                                                        process has been
                                                                                                                                                                        approved by Internal
                                                                                                                                                                        Review. A l s o , 100%
                                                                                                                                                                        o f all phone inquiries
                                                                                                                                                                        arc reviewed by
                                                                                                                                                                        supervisors Phone
                                                                                                                                                                        inquiries are submitted
                                                                                                                                                                        via the I G A R N system
                                                                                                                                                                        and are coded as
                                                                                                                                                                        phone logs.
                                                                                                                                                                        Supervisory review is
                                                                                                                                                                        overseen and assisted
                                                                                                                                                                        by the team attorneys.
                                                                                                                                                                        Lastly, IGS has
                                                                                                                                                                        automated
                                                                                                                                                                        mechanisms in place
                                                                                                                                                                        10 crack and report all
                                                                                                                                                                        yaniishment actions.




                                                                                                              V                ATTACH               ME>JT          <7
                                                                         Assessable Unit / ICE Matrix
                                                                                         C
 A l l T i t l e : Garnishment Review and Implementation                             ^       ^
 A l l N u m b e r : 220.(20
Site/OfficeCode: DI-AS-CL/CL-DGG
 K u i l t i M i l u l l : SceDcf- Defense Finance ­ M i l / C i v Pay
 M l \ ; , . „ . , . . . . . . R O D N E Y W I N N ­ (216) 522-5118
J C K p a t e : 20-Scp-06




                                                                                                        Oilier Review ­             Supervisory review o f cases routed to their
                                                                                                        Supervisors perform a       itib0Jt.es by I G A R N is performed on a daily
                                                                                                        review o f 1 % o f all      basis or as scheduling permits; llie random
                                                                                                        cases processed. Cases      sampling nl newly implemented ami
                                                                                                        systematically selected     modified garnishment actions is \K\ liirmed
                                                                                                         for review are             on a monthly hnsis f i n d i n g s aie repotted to
                                                                                                        automatically routed        management I f errors arc discovered
                                                                                                        to ibe supervisors'         corrective action is taken before the action
                                                                                                        review in boxes             negatively impacts tlie Member, employee,
                                                                                                        contained i n I G A R N .   or customer (2t)-Sep-0fi>
                                                                                                        Additionally, the
                                                                                                        supervisors perform a
                                                                                                        random review of
                                                                                                        newly implemented
                                                                                                        and modified
                                                                                                        garnishment actions
                                                                                                        prior to m i d month
                                                                                                        cut-oil", and 100% post
                                                                                                        payment review. This
                                                                                                        random sampling
                                                                                                        process has been
                                                                                                        approved by Internal
                                                                                                        Review. Also, 100%
                                                                                                        o f all phone inquiries
                                                                                                        are reviewed by
                                                                                                        supervisors. Phone
                                                                                                        inquiries are submitted
                                                                                                        via the I G A R N system
                                                                                                        and arc coded as
                                                                                                        phone logs
                                                                                                        Supervisory review is
                                                                                                        overseen and assisted
                                                                                                        by the team attorneys.
                                                                                                        Lastly, IGS has
                                                                                                        automated
                                                                                                        mechanisms i n place
                                                                                                        lo track and report all
                                                                                                        garnishment actions




                                                                           It
                                                                        Assessable Unit / ICE Matrix
 A U T h l e : Garnishment Review mid Implementation                                  Page 3

 A t f N i i i n t i u r : 220420
Site / Office C e d e : D F A S - C L / C L - D G G
llusiness U n i t : SwcDcf- Defense f i n a n c e - M i l / C i v Pay
 A U . M j . M r { s J : H G D N H Y VYiNN ­ (2 16) 522-51 IS
               K P


j £ K D a t e : laO-Scp-Ofj




                                                                                                            Other Review ­                 Supervisory review ol e a s e s routed l o [heir
                                                                                                            Supervisors pee form a Jnboxcs by I G A R N iarjerfonTOd on a daily
                                                                                                           review o f 1 % o r all  basis or as scheduling permits, The random
                                                                                                           eaaaa processed. Cases sampling o f newly implemented and
                                                                                                           systematically selectee m o d i f i e d garnishment aclions isperformed
                                                                                                           for review are          on a monthly basis. Findings are reporled l o
                                                                                                           automatically routed    management- H'errors are discovered
                                                                                                           to the supervisors'             corrective action is lakcn before the action
                                                                                                           review i n b o w s              negalivcly impacts the member, employee.
                                                                                                           contained in I G A R N          or customer. (05-Jul-0o)
                                                                                                           A d d i t i o n a l l y , the
                                                                                                           supervisors perform a
                                                                                                           random review o f
                                                                                                           newly implemented
                                                                                                           and modified
                                                                                                           garnishment actions
                                                                                                           prior lo m i d month
                                                                                                                                fl
                                                                                                           cut-orf, and f00 /o post
                                                                                                           payment review. This
                                                                                                           random sampling
                                                                                                           process has been
                                                                                                           approved by uitcma l
                                                                                                           Review. Also, 100%
                                                                                                           " f a l l p h o n e inquiries
                                                                                                           are reviewed by
                                                                                                           Supervisors. Phone
                                                                                                           inquiries are submitted
                                                                                                           via the I G A R N system
                                                                                                           and are coded as
                                                                                                           phone logs.
                                                                                                           Supervisory review is
                                                                                                           overseen and assisted
                                                                                                           by the team attorneys.
                                                                                                           Lastly. IGS has
                                                                                                           automated
                                                                                                           mechanisms i n place
                                                                                                           to track and icport all
                                                                        1
                                                                                  1            1       1   garnishment actions.
                                                                     Assessable Unit / ICE Matrix
AUTMtl Garnishment Review am! ImplcmcnUUion                                         ^
A l l N u m b e r : 220420
                          ;
Sllc / Office C u ( k : U I A 5 - C L ' C L - O G Q
                              -
Business I n , I : Sec D e l - Defense Finance - M i l / C i v Pay
A l M a n a g e r ( s ) : R O D N E Y W I N N ­ (216) 522-5118
I C E D a n : 20-Scn-Oli




                                                                                                     Oilier Review ­                 Supervisory review o f cases muted 10 their
                                                                                                     S u p e r v i s o r pcrfomi a   inboxes by I G A R N i s peribmted on a doily
                                                                                                     review o f 1 % o f all          basis or as scheduling permit*, The random
                                                                                                     cases proteased, Cases          sampling o f newly implemented and
                                                                                                     systematically selected         modified gamishmenl actions is performed
                                                                                                     for review aic                  on a monthly basis landings arc reported to
                                                                                                    automatically routed             management. If errors arc discovered
                                                                                                    to the supervisors'              corrective action is taken before the action
                                                                                                     review in boxes                 negatively impacts the member, employes,
                                                                                                     contained in I G A R N .        or customer (l)o-Apr-Ow)
                                                                                                     Additionally, the
                                                                                                     supervisors perform a
                                                                                                     random review o f
                                                                                                     newly tmpleinented
                                                                                                    and modified
                                                                                                    garnishment actions
                                                                                                    prior l o m i d month
                                                                                                    cut-off. and I00°/ post
                                                                                                                          B


                                                                                                    payment review. This
                                                                                                    random sampling
                                                                                                    process lias been
                                                                                                    approved by Internal
                                                                                                    Review. Also, 100%
                                                                                                    o f ALL phone inquiries
                                                                                                    are reviewed b y
                                                                                                    supervisors, l-tione
                                                                                                    inquiries ore submitted
                                                                                                    via the I G A R N system
                                                                                                    and are coded as
                                                                                                    phone logs.
                                                                                                    Supervisory review is
                                                                                                    overseen and assisted
                                                                                                    h y t h e team alU>mcys.
                                                                                                    Lastly, IGS has
                                                                                                    automated
                                                                                                    mechanisms i n place
                                                                                                    to track and report all
                                                                                                    garnishment actions
                                                                                                                          Assessable Unit / ICE Matrix
                                                                                                                                       Page 5
A U T i t l e : Garnishment Review and Implementation
A U Number: 2 2 0 4 2 0
Site/Office Code: DFAS-CL / C L - D G G
Business U n i t : Sec Del"-     Defense Finance ­ M i l / C i v Pay
A l l M a n a g e r ( s ) : R O D N E Y W I N N ­ ( 2 1 6 ) 522-5 I I S
I C E D i t e : 20-Scp-fle-




                                         Garnishing the incorrect                 IGS has an interface w i t h the         Quarterly   V        Standard Operating   Quarterly   A u d i t , Document   This process helps to decrease: the likelihood
                                         memher or employee                       Payrol l Locator File System                                  Procedures                       Analysis, Observation, o f processing « giiiiuslimen l against the
                                                                                  (PLFS) that lists the Socia l                                                                  Oilier Review ­        wrong employee However. MtpcTvltOfy
                                                                                  Security Number (SSN), name,                                                                   Sysiem edits prompts                                                                   review o f com pic led eases solves ;is rt
                                                                                  and provides al l services/pay                                                                 paralegals to verify                                                                   secondary contro l l o miligaic this risk
                                                                                  systems on record for the                                                                      data entered {name                                                                     (OS-Dcc-06)
                                                                                  m i l i t a r y member or employee.                                                            and SSN) into IGS is
                                                                                  This allows the paralega l to                                                                  accurate,
                                                                                  ensure the name and SSN
                                                                                  match.

                                                                                                                                                                                 Audit, Document                                                                        This process l i d [is to due reuse llio likelihood
                                                                                                                                                                                 Analysis, Other       o f processing a garnishment against the
                                                                                                                                                                                 Review • System edits w r o n g employee M o w c v c i , supervisory
                                                                                                                                                                                 prompts paralegals to review     f con•(:...-,: cases serves as a
                                                                                                                                                                                 verify data entered                                                                    secondary contro l 10 mitigate this    risk.   121}-
                                                                                                                                                                                 (name and SSN) into                                                                    Sep-06)
                                                                                                                                                                                 IGS is accurate.

                                                                                                                                                                                 Audit. Document                                                                        Tliis process koipa l o rffTirTWB Hie likelihood
                                                                                                                                                                                 Analysis, Other       o f processing a garnishment against the
                                                                                                                                                                                 Review ­ System edits w r o n g employee 1 l o i C W r , supervisory
                                                                                                                                                                                 prompts paralegals to review o f c o m p l e t e d eases serves as a
                                                                                                                                                                                 verify data criteicc l                                                                 sccondury coiuro l to mitigate this risk.      (05 -
                                                                                                                                                                                 (name and SSN) into
                                                                                                                                                                                 IGS is accurate.

                                                                                                                                                                                 Audit, Document                                                                        This process helps to decrease the likelihood
                                                                                                                                                                                 Analysts. Oilier      o f processing a garnishment against the
                                                                                                                                                                                 Review ­ System edits w r o n g employee However, supervisory
                                                                                                                                                                                 prompts paralegals to review o f completed cases serves as a
                                                                                                                                                                                 verify data entered                                                                    secondary contro l to mitigate this risk. (1)6 -
                                                                                                                                                                                 (name and SSN) into                                                                    Apr-06)
                                         .                                                                                                                                           IGS is accurate.
                                          f i l t e r i n g inaccurate dala i n   Interna l Review approved                Quarterly   Y        Standard Operating   Quarterly       Document Analysis,                                                                 Errors found during t l _ review process are
                                         various fields; name, socia l            random sampling process. This                                 Procedures                       Other Review ­                                                                         corrected and charged to the paralega l as
                                         security number, payee.                  process requires monthly review                                                                Supervisors report                                                                     applicable. A consorted effort is made to
                                         dollar amount, m a x i m u m             o f n e w l y implemented and                                        |
                                                                                                                                                    resj ls                                                     o r   -,h         e     r a r K   j       U I t l
                                                                                                                                                                                                                                                                        identify and Office) L-ITOneons garnishment
                                         percentage, case number, and             m o d i f i e d garnishment actions                                                            sampling process to                                                                    actions p r i o i l o mid month and post mnulh
                                         remutancc address                        prior to m i d month, and 100%                                                                 management monthly                                                                     cut-ofls   Bnvfi discoveied a l k i CLIHIITS tire
                                                                                  post payment review.                                                                               ,   h       e       r e s u ]        ,   5   „ „         l       n     A   c   A
                                                                                                                                                                                                                                                                        rectified immediately upon notificalion.
                                                                                  A d d i t i o n a l l y , supervisors                                                          o   n       a       n      e    s    c   e   |                                         (OS-Dcc-Oo)
                                                                                  perform a random review o f 1 %                                                                spreadsheet and
                                                                                  o f al l cases processed                                                                       maintain on file.
                                                                    Assessable Unit / ICE Matrix
                                                                                Page 6
    A l l T M M Cirimislimcnt Review and Implementation
    A l l N u m b e r : 220-120
    Silc / Office C o d e : D F A S - C L / C L - D G G
    b r i M H I nit: SccDef - Defense FinarKC - M i l / C i v Pay
    A U M a n a g e r (is): R O D N E Y W I N N ­ (216) 522-51 IS
    I C E D a l e : 20-Sep-06




                                                                                                          Document Analysis.        Errors found ( l i n i n g ITTC review process are
                                                                                                          Oiher Review -            corrected and charged lo llie paralegal as
                                                                                                          Supervisors report        applicable A consorted effort is made to
                                                                                                          results o f the random    identify and correct errotHtOUl gami-hrncnl
                                                                                                          sampling process l o      actions prior to mid month and post month
                                                                                                          management monthly.       CUl-olTs. Errors discovered alter cut-offs are
                                                                                                          The results are tracked rectified immediately upon notification.
                                                                                                          on an excel             (2()-Sep-0u)
                                                                                                          sp i ead sheet and
                                                                                                          maintain on file.
                                                                                                          1 icjcumeni A i . • >•    Errors found during the review process arc
                                                                                                          Other Review -           corrected and charged to llie paralegal as
                                                                                                          Supervisors report        applicable A consorted effort is made to
                                                                                                          results o f the random    identify and collect crroitcous gamislnneut
                                                                                                          sampling process 1 0      actions prior to m i d monlh and pott nionlh
                                                                                                          management monthly.       Cut-oils. Errors discovered allet c u l - o f f i arc
                                                                                                          The results are tracked rectified mimed lately upon m i l idea lion .
                                                                                                          on an excel             (05-Jul-1)6)
                                                                                                          spreadsheet and
                                                                                                          maintain on lile

                                                                                                          Document Analysis.        lirrors found d u r i n g the review process are
                                                                                                          Other Review -            corrected and charged to lhc paralegal _
                                                                                                          Supervisors report        applicable A consorted oflbM is made to
                                                                                                          results o f the random    identity and eonect erroneous ganiisluucnt
                                                                                                          sampling process l o      actions prior to m i d month and port month
                                                                                                          management monthly        cul-offs E r i o i s discovered a Her cut-offs ore
                                                                                                          The results are tracked rectified immediately upon notification. (06-
                                                                                                          on an excel               Apr-0£j)
                                                                                                          spreadsheet and
1
                                         ' —                                                              maintain on lile,




                                                                                 l\   TTAC/Z/HITAJT   ?
                                                                                                       A s s e s s a b l e Unit / I C E M a t r i x
A U T i t l e : Receipt and 1'iocessing o f Incoming Checks                                                                      ^
A U N u m b e r ; 220-121
Site / Office- C e d e : D F A S - C L / C L - D O O
                                                            J
     "•• • ' n i l : SL- \\-\ - Defense finance • M i l Civ l a>
A U M u t g c r f s ) : N E A L N E L S O N ­ (21(5) 522-5II a
I C E Date: 20-Sc-p-Ofe




Major Function: Processing Incoming Checks

Glials                             Kislts                          Controls                              Control             Vital   Control Standard     Evaluation   Evaluation             E v a l u a t i o n Results
                                                                                                            FnitrueTicv      MC?                          Frtaoeitcv   Method
Process incoming uhecks.          Lost or misplaced cliecks        A l l incoming chec<s are locked Quarterly                V       Standard Operating   Quarterly    Oth&r Review ­         Data from m a i m my checks have tie-on
record information, and                                            into j !ogbnoV stored at a                                        Procedures                        Quarterly review o f   loygecl into lite log book and ehocks have
forward i n ilac vault                                             centra
                                                                   centrall l o c i t i n n and overseen by
                                                                                                                                                                       check log              been properly touted l y the appropriate
                                                                   the supeivijor A l l pertinent
                                                                                                                                                                                              entity (i.e. vault, forwarded to pay office,
                                                                   data used to identify ;he check
                                                                                                                                                                                              return to sender). (1)8-Dec-1)6)
                                                                   is listed.

                                                                                                                                                                       Other Review ­         Data from incoming checks have been
                                                                                                                                                                       Quarterly Roview o f   logged into lite log book, and chuck hove
                                                                                                                                                                       check log              been routed i n the appropriate
                                                                                                                                                                                              dcpaitmem/siie- Tor processing, f2l)-Kep-%)
                                                                                                                                                                                              (20-Sep-06)
                                                                                                                                                                       Other Review ­         Data from incoming checks have been
                                                                                                                                                                       Quarterly review o f   logged into lite log (took, and chuck Itavu
                                                                                                                                                                       check l o g            been routed lo the appropriate
                                                                                                                                                                                              department/site for prneessinn [l)5-Jul-06)
                                                                                                                                                                       Other Review -         Data from incoming checks ha Vfl bean
                                                                                                                                                                       Quarterly Review o f   logged into the leg book and ehtcks have
                                                                                                                                                                       check log.             heen properly i m i l c d to the appropriate
                                                                                                                                                                                              erilily(i.c. vault, forwarded to pay office,
                                                                                                                                                                                              return l a sender). (05-Apr 1)6)




                                                                                                15                        ftTTAtffMEdT                    1
 KOCH, STANLEY

 From:                  W O O D S , ANGELA
 Sent:                  Tuesday, January 09, 2007 3:41 PM
 To:                    RICCI, SHARON
 Cc:                    WINN, RODNEY; NELSON, NEAL; DENMEADE, FRANKIE; L O N G O LORETTA    v


 Subject:               Internal control accountability action items 6, 7, and 8 FMFIA/Audit Support Report Card due
                        January 12, 2007


 Good afternoon   Sharon,

 Internal control accountability action items 6, 7, and 9 FMFIA/Audit                   Support Report       Card
 completed on or prior to 30 December 2006.  Actions taken included:

Action Item $ ­ Validate that an appropriate number of transactions are tested in the
current quarter to ensure that each element of the total internal control schema {e.g.,
transaction authentication and systems access) is working as intended:

Supervisors perform a review of 1% of all transactions processed. Transactions are
systematically selected for review and are automatically routed to supervisor review
inboxes contained in IGARN. Additionally, supervisors perform a random review of newly
implemented and modified garnishment actions prior to mid month cut-off, and 100% post
payment review. Supervisory review is falls under the purview of team attorneys and
monthly findings are reported to the Director/Deputy Director of Garnishment Operations.

Action Item 7 ­ Ensure tracking system updated and receive briefings on outstanding
process weaknesses, operational review findings and in-process management contract
reviews.

Supervisory review of cases routed to review inboxes contained in IGARN is performed on a
daily basis or as scheduling permits. The random sampling of newly implemented and
modified garnishment actions is performed on a monthly basis. Findings are reported to
management. If errors are discovered corrective action is taken before the action
negatively impacts the member, employee, or customer. The Integrated Garnishment System
has automated mechanisms in place to track and report all garnishment actions.

Action Item 8 ­ Walk through key functional processes to identify any "reportable
conditions".  Conducted walk through of key functional processes related to unmatched
disbursements and collections, unliquidated travel obligations and accounts receivable
during this quarter to verify data integrity, ensure compliance with internal/external
reporting requirements and management controls of functional processes.

Garnishment Operations conducted a walk through of security, data integrity, and
garnishment related transactions/processes to ensure the integrity of accountability,
reporting requirements, and management control.  No discrepancies or reportable conditions
were identified.

                                        1
In summary. Garnishment Operations     internal controls are being conducted in accordance
w i t h current applicable policies and procedures.

Regards,
Angela Woods
Financial Systems Specialist
DFAS-CL/Garnishment Operations

Submitted on behalf of Rod Winn and Weal Nelson, Director and Deputy Director of
Garnishment Operations respectively.




                                                        i      /4       fir-AC       H' MEIOI      9




                                                   98
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Kenneth B. VanHove
John C. Petrucci
Joseph M. Kaseler
Timothy J. Miller
Sean T. Sullivan
Randall D. Yoder
Peter Su
Nancy J. Kovalchick
Jennifer L. Bergey
Lusk F. Penn
Ann L. Thompson
